Fiscal Year 2010 Department of the Navy Annual Financial Report

Never Losing Sight of Our Priorities
A CH-53E Super Stallion Helicopter flies near the amphibious transport dock ship USS Ponce (LPD 15).




                                Contents
                                Message from the Secretary of the Navy  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

                                Message from the Assistant Secretary of the Navy (Financial Management &
                                Comptroller) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

                                Management’s Discussion and Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  11

                                Department of the Navy General Fund Financial Statements  .  .  .  .  .  .  .  .  .  .  .  . 41

                                Navy Working Capital Fund Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  117

                                Audit Opinions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  159




                                                                            1
The Honorable Ray Mabus
      Secretary of the Navy




               2
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  3
4
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  5
   The Honorable Gladys J. Commons
Assistant Secretary of the Navy (Financial Management and Comptroller)




                                 6
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  7
8
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  9
10
                                          Management’s Discussion and Analysis
Fiscal Year 2010 Department of the Navy
Annual Financial Report




         11
Introduction
Fiscal Year (FY) 2010 reflected an enduring commitment to our priorities.

n	   Supporting our national defense
n	   Conducting overseas contingency operations
n	   Building a Force for the future
n	   Protecting our people and resources
n	   Promoting ethical conduct throughout the Department
n	   Providing first-rate facilities to support our Forces

These priorities help to protect our nation and global interests, demonstrate our stewardship of
public resources, and most importantly, support our Sailors, Marines, and their families, whose
service and sacrifice sustain our preeminence as a global maritime force. We provide a perspective on
the breadth and depth of these priorities throughout our Management’s Discussion and Analysis.

n	   Fiscal Year in Review – a photo spread representing some of our priorities in action during
     FY 2010
n	   Organization and Mission – an overview of how we are structured to support our mission
n	   Strategic Management – a summary of key accomplishments during FY 2010 aligned with our
     strategic objectives
n	   Management Assurances – an overview of our responsibility for the integrity of our programs
     and operations and the stewardship of public resources
n	   Financial Condition and Results of Operations – a perspective of fiscal transparency and
     accountability relative to our FY 2010 financial statements
n	   Looking Forward – an overview of how we will remain focused on priorities in FY 2011




                                                   12
                                                                                                     Fiscal Year 2010 Department of the Navy Annual Financial Report




During FY 2010, we demonstrated an enduring commitment to our priorities.
We provide a glimpse of some of these priorities in the photos that follow and as described below.

n	   Supporting our national defense through maritime partnerships, disaster response, readiness,
     humanitarian assistance, and maritime security
n	   Conducting overseas contingency operations in Afghanistan
n	   Building a Force for the future through energy reform
n	   Providing first-rate facilities to support our Forces and their families


                                                 13
Maritime Partnerships: Chief of Naval Operations Admiral Gary Roughead responds during a press conference at the 19th
Biennial International Sea Power Symposium in Newport, Rhode Island.



Oct 2009 – Dec 2009
Contingency Operations: A Hospital Corpsman assigned to Combined Anti-Armor Team 2 patrols the Nawa District of Helmand
Province, Afghanistan.




                                                           14
Disaster Response: Marines assigned to Battalion Landing Team, 3rd Battalion, 2nd Marine regiment distribute rations in
Leogane, Haiti following a 7.0 magnitude earthquake.



                                                                               Jan 2010 – Mar 2010
Family Support: A child development center on Naval Base Point Loma, California is being funded by the American Recovery
and Reinvestment Act.




                                                              15
Energy Reform: Biofuel powers an F/A-18 Super Hornet Strike Fighter jet during test flight operations at Naval Air Station
Patuxent River, Maryland.



Apr 2010 – Jun 2010
Readiness: Amphibious transport dock ship USS New Orleans (LPD 18) is part of Southern Partnership Station, an annual
deployment of U.S. military training teams to the U.S. Southern Command area of responsibility.




                                                              16
Humanitarian Assistance: A Navy Lieutenant assigned to multi-purpose amphibious assault ship USS Iwo Jima (LHD 7) treats
a Colombian child during Continuing Promise 2010, an annual humanitarian and civic assistance mission to provide support to
Central America, South America, and the Caribbean.



                                                                                 Jul 2010 – Sep 2010
Maritime Security: Marines assigned to the 15th Marine Expeditionary Unit, Maritime Raid Force, approach the Magellan Star in
the Gulf of Aden during a counter-piracy mission.




                                                             17
T   o maintain, train, and equip combat-ready Naval forces
    capable of winning wars, deterring aggression, and
maintaining freedom of the seas.
                                                                                - Department of the Navy Mission




Organization and Mission                                Navy, four Assistant Secretaries of the Navy,
                                                        the General Counsel, and two key military
We are structured to respond to a broad range of        leaders—the Chief of Naval Operations, a four-
mission requirements that preserve our nation’s         star Admiral, responsible for the command and
freedom and protect U.S. global interests. The          operating efficiency of the U.S. Navy, and the
Secretary of the Navy, a civilian appointed             Commandant of the Marine Corps, a four-star
by the President, conducts all Department of            General, responsible for the performance of the
the Navy (DON) affairs under the authority,             U.S. Marine Corps.
direction, and control of the Secretary of
Defense. Under the purview of the Secretary             The U.S. Navy and the U.S. Marine Corps have
of the Navy are the Under Secretary of the              numerous commands that operate under the


                                                   18
                                                                  Founded April 30, 1798
                                                                     Title 10 U.S. Code, Section 5061



                                                               SECRETARY OF THE NAVY
                                                                 UNDER SECRETARY OF THE NAVY




  Assistant Secretary                  Assistant Secretary                   Assistant Secretary               Assistant Secretary             General Counsel of
     of the Navy                           of the Navy                           of the Navy                       of the Navy                  the Department
(Research, Development                      (Manpower                      (Financial Management                      (Installations              of the Navy
     & Acquisition)                       & Reserve Affairs)                    & Comptroller)                       & Environment)




                                CHIEF OF NAVAL                                                                        COMMANDANT OF THE
                                 OPERATIONS                                                                             MARINE CORPS



                                                                                                                                                   U.S. Marine Corps
      U.S. Navy                       U.S. Navy                     U.S. Navy                    U.S. Marine Corps         U.S. Marine Corps
                                                                                                                                                       Supporting
 Shore Establishment                  Reserves                   Operating Forces                Operating Forces               Reserves
                                                                                                                                                     Establishment

 *Dashed line signifies collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.


                The chart above is a simplified illustration of the DON organizational structure. The full structure is




                                                                                                                                                                       Fiscal Year 2010 Department of the Navy Annual Financial Report
                shown online at www.navy.mil under “About the Navy.”


                                    United States Navy                                                United States Marine Corps
                               Founded October 13, 1775                                                Founded November 10, 1775
                            Title 10 U.S. Code, Section 5062                                          Title 10 U.S. Code, Section 5063



authority and responsibility of a commander
or other designated official and typically
support a network of subordinate commands.
Each command has a clearly defined mission
that supports the overall DON mission in
support of the Department of Defense’s
(DoD) responsibilities. Both Services provide
ready forces to support the U.S. joint military
commands in conducting their worldwide
missions.



                                                                                          19
                                                          Civilians: 206,139
                                                          (Full-time Equivalents)

                                                          U.S. Navy Active: 328,303
                                                          (Officers, Enlisted, & Midshipmen)

                                                          U.S. Marine Corps Active: 202,441
                                                          (Officers & Enlisted)

                                                          U.S. Navy Reserve: 65,006
                                                          (Drilling Reserve & Full-time Support)

                                                          U.S. Marine Corps Reserve: 39,222
                                                          (Drilling Reserve & Full-time Support)

                                                          Personnel Data as of Fiscal Year Ended September 30, 2010




Strategic Management                                      Marine Corps, and U.S. Coast Guard—closer
We are committed to improving core capabilities           together than ever before in a mission to more
that support the U.S. maritime strategy,                  fully safeguard maritime interests at home and
“A Cooperative Strategy for 21st Century                  abroad.
Seapower.” These core capabilities are critical
to U.S. maritime power and reflect an increased           Our six strategic objectives (on the pages that
emphasis on activities that prevent war                   follow) support the U.S. maritime strategy by
and build partnerships—forward presence,                  focusing on key efforts that will increase our
deterrence, sea control, power projection,                effectiveness, improve the lives of our Sailors,
maritime security, humanitarian assistance, and           Marines, and their families, and result in
disaster response.                                        greater security for our nation and U.S. global
                                                          interests. A summary of key accomplishments
The cooperative strategy, guided by the                   by objective begins on the next page.
objectives articulated in the National Strategy
for Maritime Security, National Security                  In addition, as a separate and supporting
Strategy, National Defense Strategy, and                  element of our strategic objectives, we are
National Military Strategy, was developed to be           committed to transforming the way we do
a unified and enduring strategy that will apply           business. A summary of our key business
maritime power to the crucial responsibility of           transformation initiatives follows our discussion
protecting U.S. vital interests in an increasingly        on objectives.
interconnected and uncertain world. It binds
the three maritime services—U.S. Navy, U.S.



                                                     20
Objective 1: Provide a Total Naval
Workforce Capable and Optimized to
Support the National Defense Strategy
Our Sailors, Marines, and civilians are the
critical component to the U.S. maritime strategy,
and we must ensure that we provide them
with adequate compensation, medical care,
and career training opportunities. These are
key factors in attracting and retaining highly
motivated and qualified naval personnel.

We remain committed to providing a
competitive pay and benefits package to aid
in recruitment and retention. The package
includes basic pay, housing allowances, and
incentives for critical specialties in health care,
explosive ordnance disposal, and nuclear
propulsion.

Through the Navy Safe Harbor Program and
the Marine Corps Wounded Warrior Regiment,
we provide support and assistance to our
wounded, ill, and injured service members
and their families. We also continue to provide
encouragement and support for our wounded
Sailors and Marines, in partnership with the
                                                                A Marine assigned to Marine Aviation Weapons
Department of Veterans Affairs, long after they
                                                                and Tactics Squadron One (MAWTS-1) performs
have left the Service.
                                                                a virtual parachute landing while a Sailor
                                                                operates the Virtual Parachute Trainer.
Our medical community has continued to strive




                                                                                                               Fiscal Year 2010 Department of the Navy Annual Financial Report
for excellence in the care of our Sailors and
Marines. Navy Medicine has reached out to
its civilian colleagues, and we have established
partnerships with civilian hospitals to improve            U.S. Navy
our understanding and care for those affected              The Navy continues to resize and reshape its
by traumatic brain injuries, mental health issues,         forces to meet its mission requirements more
amputation, and disfiguring injuries.                      efficiently and effectively. This is especially
                                                           important in an environment of limited
Using advanced technologies, we have shifted               budgetary resources and rising personnel costs.
training from the traditional classroom to the             Over the last five years, the Navy has resized
use of simulators, trainers, computer-based                its active and reserve components by 6% and
interactive curriculums, and other media-based             8%, respectively. The Navy has been able to
approaches. This initiative provides our naval             accomplish all assigned missions at this level
workforce with appropriate training in a more              because of force structure changes, efficiencies
efficient manner and prepares them to better               gained through technology, modifications in
perform mission-critical tasks.                            workforce mix, and new manning practices.




                                                      21
                                                           U.S. Navy End Strength
400000         350,197                 337,547                 332,228                  329,304                 328,303

300000

200000

100000                    70,500                  69,933                  68,136                   66,508                   65,006


        0
                     2006                    2007                    2008                     2009                     2010

                                                    Fiscal Year Ending September 30                                          Active
                                                                                                                             Reserve
400000
                                                  U.S. Marine Corps End Strength
300000
                                                              198,505                  202,786                 202,441
               180,416                186,492
200000

100000
                         39,486                  38,557                  37,523                   38,510                  39,222

       0
                    2006                    2007                    2008                     2009                     2010

                                                  Fiscal Year Ending September 30                                           Active
                                                                                                                            Reserve


U.S. Marine Corps                                                                 in meeting recruiting and retention goals to
The Marine Corps has accomplished its goal of                                     maintain the planned force level, grow a more
growing the active force to 202,100. This growth                                  senior and experienced baseline force, and
in force should begin to reduce the strain on                                     meet the requirements of engaging in overseas
individual Marines assigned to continually high                                   operations.
operational tempo units, such as amphibious
assault, reconnaissance, combat service                                           Navy and Marine Corps Civilian Personnel
support, and explosive ordnance disposal. The                                     The size of the civilian workforce, which has
Marine Corps anticipates continued success                                        increased by 9% over the last five fiscal years,
 400000

 300000                                    Civilian Personnel (Full-Time Equivalents*)

                                                                190,204                  196,892                  206,139
                188,932                 186,813
 200000

 100000

           0
                 2006                     2007                    2008                     2009                    2010

                                                    Fiscal Year Ending September 30

* Full-time equivalents are the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by employees divided by
the number of compensable hours applicable to each fiscal year.




                                                                            22
continues to support the mission and daily
functions of the Navy and Marine Corps.
Civilian personnel provide various types of
support, such as research and development,
engineering, acquisition, depot maintenance,
and financial management and budget.

Objective 2: Use the Navy-Marine
Corps Team to Aggressively Prosecute
Overseas Contingency Operations
Our Navy-Marine Corps team has become an
integral part of continuing overseas contingency
operations. With the shift in operational focus
from Iraq to Afghanistan, our naval forces are
providing greater support to the Afghanistan
theater, both in the conduct of direct operational
missions, as well as increased combat support
for U. S. and coalition forces on the ground.
Significant tactical air support for Afghanistan
comes from our carriers and as the ground
infrastructure in Afghanistan increases, more
carriers will be required to bring these assets to
bear on the battlefield.

Fleet Response Plan
We remain focused on providing ready naval
                                                               Sailors participate in the U.S. Navy Individual
forces, from individual units to carrier and
expeditionary strike groups, that are forward                  Augmentee Combat Training course at Fort

deployed and capable of providing a substantial                Jackson, South Carolina.

surge force. The Fleet Response Plan (FRP),




                                                                                                                 Fiscal Year 2010 Department of the Navy Annual Financial Report
which supports the National Military Strategy,
provides the readiness for this capability.
The FRP provides adaptable, flexible, and
                                                          knowledge or skill sets. The Navy identifies
sustainable naval forces necessary not only
                                                          both active and reserve service members with
to fight current ongoing contingencies, but
                                                          specific skill sets to fill IA roles, and the Marine
also to support the needs of the combatant
                                                          Corps relies principally on activated reserve
commanders to maintain a global forward
                                                          members to fill IA positions vacated by forward-
presence and any other evolving national
                                                          deployed active component Marines.
defense requirements.
                                                          Marine Corps Operating Forces
Individual Augmentees
                                                          Marine Expeditionary Forces (MEFs) provide
Individual augmentees (IAs) have been
                                                          highly trained, versatile expeditionary
instrumental in fulfilling combatant
                                                          forces capable of rapid response to global
commanders’ mission requirements for overseas
                                                          contingencies. Each MEF consists of a
contingency operations. They are assigned
                                                          command element, one infantry division, one
individually, rather than as part of a traditional
                                                          aircraft wing, and one Marine logistics group.
unit, to fill shortages or provide specialized


                                                     23
Embedded within each MEF are three Marine              U.S. and Afghan forces while respecting local
Expeditionary Units, which deploy regularly            customs.
in the Expeditionary Strike Groups. Each MEF
also has an embedded capability to source a            Objective 3: Build the Navy-Marine
Marine Expeditionary Brigade.                          Corps Force for Tomorrow
                                                       Sustaining U.S. maritime preeminence requires
Integrated with Marine Corps infantry units
                                                       our naval forces to prepare continually for
in Afghanistan are Female Engagement Teams
                                                       future challenges as well as threats to national
(FETs). These teams of female Marines directly
                                                       security and U.S. global interests. Key
interact with the local female population in
                                                       initiatives in this regard are energy reform,
Afghanistan, where public interaction between
                                                       unmanned systems, and acquisition reform.
men and women is prohibited. The FETs collect
information regarding the local communities’
                                                       Energy Reform
needs and foster communication between
                                                       Reducing our naval forces’ reliance on fossil
                                                       fuels is critical to our national security,
                                                       environment, and naval capabilities. Our nation
                                                       and naval forces rely heavily on a finite source
                                                       of fuel from volatile global regions. To a certain
                                                       extent, we have ceded this strategic resource to
                                                       other nations, creating an obvious vulnerability
                                                       to our national security. In addition, our
                                                       reliance on fossil fuels affects our naval forces’
                                                       operational independence, both in terms of
                                                       the resources required to obtain fuel and to
                                                       transport it to the ships, aircraft, and equipment,
                                                       and the Sailors and Marines whose duty it is to
                                                       protect the ships and convoys moving the fuel.

                                                       With these risks in mind, we have taken a
                                                       bolder, more aggressive stance toward energy
                                                       reform by committing to five energy goals (see
                                                       chart). These goals require adoption of new
                                                       fuels and development of new systems and
                                                       energy efficient practices and techniques over
                                                       the next 10 years.

                                                       We have already made great strides toward
                                                       these energy goals. As previously illustrated
                                                       in our Fiscal Year in Review section, the Navy
                                                       conducted a test flight of the “Green Hornet,” an
                                                       F/A-18 Super Hornet Strike Fighter jet running
                                                       on a biofuel blend. The Green Hornet biofuel
    A Hospital Corpsman, assigned to the Marine        program is the first aviation program to test
    Corps Female Engagement Team, patrols the          and evaluate the performance of a biofuel blend
    streets of Musa Qa’leh, Afghanistan.               in supersonic operations (i.e., greater than 750
                                                       miles per hour). Similarly, the Marine Corps is
                                                       working toward powering the Light Armored



                                                  24
    Department of the Navy Energy Goals

    Energy Efficient Acquisition: Evaluation of energy
    factors will be mandatory when awarding
    contracts for systems and buildings.

    Sail the “Great Green Fleet”: DON will
    demonstrate a Green Strike Group in local
    operations by 2012 and sail it by 2016.

    Reduce Non-Tactical Petroleum Use: By 2015,
    DON will reduce petroleum use in the commercial
    fleet by 50%.

    Increase Alternative Energy Ashore: By 2020,
    DON will produce at least 50% of shore-based
    energy requirements from alternative sources;
    50% of DON installations will be net-zero.

    Increase Alternative Energy Use DON-Wide: By
    2020, 50% of total DON energy consumption will
    be from alternative sources.




Vehicle (LAV-25), as well as other selected                of our naval forces to unnecessary threats.
tactical vehicles and equipment with biofuel               For example, unmanned aerial vehicles have
blends.                                                    been an integral part of our ISR operations
                                                           overseas and unmanned ground vehicles
Another noteworthy example of our progress                 have detected and neutralized thousands of




                                                                                                               Fiscal Year 2010 Department of the Navy Annual Financial Report
toward energy reform is the USS Makin Island               improvised explosive devices. We will continue
(LHD 8). Makin Island is the first amphibious              to support research and development activities
assault ship constructed with gas turbine                  in unmanned systems to keep pace with the
engines and an electric drive to power it at low           evolving complexities of the global security
speeds. During its transit from Pascagoula,                environment.
Mississippi to its new homeport in San Diego,
Makin Island consumed over 900,000 gallons                 Acquisition Reform
less fuel than a steam ship completing the same
                                                           The replacement costs of our aging ships,
transit, saving more than $2 million in fuel costs.
                                                           aircraft, and weapons systems continue to rise
We project that this hybrid engine will save
                                                           faster than our procurement budgets’ top-line.
nearly $250 million in fuel costs over the ship’s
                                                           This has resulted in a reduction in the number
lifetime.
                                                           of ships and aircraft available to support the
                                                           Navy’s forward deployed mission. This erosion
Unmanned Systems                                           in the number of available ships and aircraft has
Unmanned systems expand our naval                          also increased the operating tempo required of
capabilities in intelligence, surveillance, and            the remaining smaller fleet. This trend towards
reconnaissance (ISR), and reduce the exposure              growth in individual unit acquisition costs,



                                                      25
                                                        impact of design and scheduling changes to be
                                                        better forecasted and their impact on future fleet
                                                        sizes to be better understood and anticipated.

                                                        In addition, a healthy industrial base and
                                                        strong performance from our industry partners
                                                        improve our ability to deliver an affordable
                                                        combat capability to the fleet. We have worked
                                                        diligently to procure our ships, aircraft, and
                                                        weapon systems at a rate intended to bring
                                                        stability to the industrial base and enable
                                                        efficient production. We will continue to work
                                                        with our shipyards, aircraft manufacturers,
                                                        and weapon systems providers to benchmark
                                                        performance, to identify improvements, to
                                                        provide the proper incentives for capital




     The USS Makin Island (LHD 8) is the first
     amphibious assault ship constructed with a
     hybrid engine.




therefore, places at risk our future forward
presence capability to support our nation’s
foreign policy and protect its interests. In
accordance with Weapons System Acquisition
Reform Act of 2009, and in coordination with
strong DoD-wide initiatives being taken by the
Secretary of Defense and his staff in this area,
we are aggressively working to examine and
                                                             A Petty Officer 1st Class, assigned to Explosive
streamline the Navy’s design and construction
processes. The result will be improved                       Ordnance Disposal Mobile Unit (EODMU) 2,

management of the design and schedule                        Company 2-2, discusses components of the mini

processes so that the impact on acquisition                  Remote Ordnance Neutralization System robot

and total weapons systems life cycle costs can               with soldiers assigned to the 5th Iraqi Army
be better estimated earlier in the design and                Bomb Disposal Company.
scheduling processes. This will enable the cost


                                                   26
investments, and to reward strong performance
with terms and conditions that reflect our desire
for a strong government-industry partnership.

We are also rebuilding the acquisition workforce
through a number of parallel efforts. These
include expansion of recruitment at all levels,
including interns, journeymen, and highly
qualified experts, and the retention and
credentialing of qualified personnel at the
middle and senior career levels.

Objective 4: Safeguard the People and
Resources of the Navy-Marine Corps
Team
We promote and enhance a culture of safety
excellence, guided by our Department of the
Navy Safety Vision. Our safety vision provides
a roadmap for implementing, tracking, and
refining command-level safety programs and for
improving our overall safety culture. Through
our seasonal safety campaigns, we aim to reduce
the risk of accidents, mishaps, and fatalities.
For example, during our recent summer safety
campaign, we focused on motor vehicle safety,
alcohol awareness, and water safety because
                                                               Command Master Chief Dominick Torchia,
the majority of last summer’s fatalities fell into
                                                               assigned to the Naval Safety Center, gives a
these categories. In addition, through our Safety
                                                               safety presentation to Sailors at Fleet Activities
Excellence Award Program, we recognize those
                                                               Yokosuka, Japan.
commands and programs that best exemplify




                                                                                                                    Fiscal Year 2010 Department of the Navy Annual Financial Report
the highest regard for the safety of our Sailors,
Marines, and civilians, and the protection of our
aircraft, ships, and facilities from mishaps.
                                                          Certification and Training Program enhances
Objective 5: Strengthen Ethics as a                       professionalism among our ethics counselors.
Foundation of Exemplary Conduct                           In addition, through our Ethics Leadership
within the Department of the Navy                         Award Program, we recognize those within the
                                                          Department who best exemplify the highest
We promote and enhance an ethics culture                  standards of ethical conduct.
rooted in the core values of honor, courage, and
commitment. Through our Department-wide
                                                          Objective 6: Provide First-Rate Facilities
Core Values Training Program, we promote
                                                          to Support Stationing, Training, and
understanding and application of these guiding
                                                          Operations of Naval Forces
principles in our everyday decisions. At the
U.S. Naval Academy, our midshipmen practice               We continue to invest in military construction
ethical decision-making using interactive                 projects to keep pace with evolving mission
technology that simulates real-life ethical               requirements and quality of life initiatives. As
dilemmas. The Department’s Ethics Counselor               part of the Defense Policy Review Initiative, an



                                                     27
                                                         construction projects that will improve the
                                                         quality of life for our Sailors and Marines.
                                                         One example is construction of new Navy
                                                         barracks at San Clemente Island, California.
                                                         Three two-story buildings with 53 two-person
                                                         units will replace the overcrowded, pre-World
                                                         War II living quarters. Another example is
                                                         construction of a new hospital at Marine Corps
                                                         Base Camp Pendleton, California. The 500,000
                                                         square foot, multilevel hospital will provide
                                                         the most advanced medical care to our naval
                                                         personnel and their families.

                                                         Business Transformation
                                                         As a separate and supporting element of
                                                         our priority objectives, we are committed
                                                         to transforming the way we do business by
                                                         using our people, processes, and systems more
                                                         effectively. The DON Financial Improvement
                                                         Program is the integrating financial element
                                                         of our business transformation strategy and
                                                         a supporting initiative of the DoD Financial
                                                         Improvement and Audit Readiness Plan,
                                                         which organizes and prioritizes the financial
                                                         improvement and audit readiness efforts of
                                                         DoD Components. Audit readiness is a goal
    An aerial view of Apra Harbor on U.S. Naval
                                                         of business transformation and a key metric
    Base Guam, where efforts are underway to
                                                         for measuring its success and progress. Navy
    prepare the base for relocation of 8,000 U.S.
                                                         Enterprise Resource Planning is the key system
    Marines and their families.                          driver of our business transformation and a
                                                         key enabler of the DoD Enterprise Transition
                                                         Plan, which organizes and prioritizes efforts to
                                                         modernize DoD business and financial systems.
international alliance to enhance the security           Continuous Process Improvement/Lean Six
environment was initiated with the U.S. and              Sigma (CPI/LSS) initiatives, part of the DoD-
the Government of Japan signing an agreement             wide CPI/LSS program, enable more effective
for the relocation of approximately 8,000 U.S.           and efficient operations across the DON
Marines and their families from Okinawa to               enterprise.
Guam. In support of this realignment, efforts
are underway to relocate a Navy facility                 DON Financial Improvement Program
from Guam’s Apra Harbor to another site on
                                                         The DON Financial Improvement Program
base. This will allow construction to begin on
                                                         and the Marine Corps Financial Improvement
improving the wharves and building other
                                                         and Audit Readiness Initiative are a multi-year
waterfront activities needed to support the
                                                         Department-wide effort to modernize Navy-
Marines’ pier-side requirements.
                                                         Marine Corps financial processes and systems to
We have received funds through the American              better serve worldwide operations. The goal of
Recovery and Reinvestment Act for military               our financial improvement and audit readiness



                                                    28
efforts is to produce financial management                forward, providing significant insight and
information more timely and with greater                  lessons that have led DON to enhance its overall
accuracy, reliability, and accessibility. With            SBR Audit Readiness Plan.
improved information, we can allocate DON
resources in a more precise way and move closer           We also asserted audit readiness of significant
to producing auditable DON-wide financial                 components of military equipment—ships
statements.                                               (including submarines), aircraft, intercontinental
                                                          ballistic missiles, satellites, and ordnance.
Our financial improvement and audit readiness             Validation of our assertion will begin in FY 2011.
efforts align with the new priorities and
associated strategy established by the Under              Marine Corps Financial Improvement and
Secretary of Defense (Comptroller) for bringing           Audit Readiness Initiative
DoD into a state of financial audit readiness and
                                                          By means of an independent study, we analyzed
in compliance with the Chief Financial Officers
                                                          the value of the Marine Corps’ effort to pursue
Act of 1990 (as amended). These priorities focus
                                                          financial audit readiness in terms of the bottom
on improving processes, controls, and systems
                                                          line impact for improving the efficiency and
that support information most often used
                                                          effectiveness of their financial processes and
and relied upon by both civilian and military
                                                          controls. This impact was measured in terms of
leaders in daily business operations—budgetary
                                                          the direct return for every dollar appropriated
information, as reported on the Statement of
                                                          by Congress. The results of this analysis
Budgetary Resources (SBR) and mission critical
                                                          showed that for every dollar invested, nearly
asset information, such as military equipment
                                                          three dollars in value were created and that the
and real property, as reported on the Balance
                                                          resulting economies translated directly into the
Sheet. These priorities demonstrate the value of
                                                          Marine Corps having the capability to purchase
these financial statements to our daily business
                                                          more mission supportive weapons for the same
operations, particularly for funds control and
                                                          amount of appropriated resources. In the future,
resource utilization.
                                                          we will use this return on investment metric as
                                                          a guide as we implement the substantial lessons
We asserted audit readiness of key business
                                                          learned from the ongoing Marine Corps audit
processes related to the DON General Fund
                                                          experience to the Navy.
SBR, to include Appropriations Received,




                                                                                                               Fiscal Year 2010 Department of the Navy Annual Financial Report
Civilian Payroll, and Travel initiated through
                                                          The Marine Corps is the first major operational
the Defense Travel System. We plan to assert
                                                          war-fighting organization to achieve audit
audit readiness of the entire DON General Fund
                                                          readiness for any of the four financial statements
SBR in FY 2013. Additionally, DON and our
                                                          and therefore, over a broad part of their business
primary service provider, the Defense Finance
                                                          operations. The Marine Corps selected the
and Accounting Service (DFAS), have forged
                                                          SBR as the first statement to assert for audit
a strong partnership and, together, have made
                                                          readiness because it is the most heavily used
considerable progress in moving closer to fully
                                                          and therefore, most heavily relied upon in the
reconciling DON’s Fund Balance with Treasury.
                                                          day-to-day management of their resources.
Jointly, with DFAS, DON has launched
                                                          The Marine Corps’ audit readiness efforts
initiatives to bring transparency to DON’s
                                                          also provide a meaningful pilot for DON as
full transaction universe, which will allow
                                                          we continue to discover how to use the audit
meaningful testing and provide audit trails.
                                                          process to improve resource management.
These DFAS initiatives will yield considerable
value to our audit readiness efforts over the next
year. In addition, despite various challenges,
the Marine Corps SBR audit continues to move



                                                     29
                                                        and provide financial transparency and total
                                                        asset visibility across the enterprise; it will be a
                                                        major positive force contributing toward Navy’s
                                                        financial audit readiness.

                                                        The Navy deployed Release 1.1 (Single Supply
                                                        Solution) in March 2010. The new release
                                                        consolidates wholesale and retail supply
                                                        functions. Commands that have implemented
                                                        Navy ERP are the Naval Air Systems Command
                                                        (October 2007), Naval Supply Systems
                                                        Command (October 2008), and Space and Naval
                                                        Warfare Systems Command (October 2009).

                                                        The Navy will continue to expand Navy ERP
                                                        throughout the enterprise. Other Commands
                                                        scheduled for implementation are Naval Sea
                                                        Systems Command (General Fund operations,
                                                        October 2010 and Working Capital Fund
                                                        operations, October 2011); Strategic Systems
                                                        Programs (October 2012); and Office of Naval
                                                        Research (October 2012). More information on
                                                        Navy ERP is available at http://www.erp.navy.mil.

                                                        Continuous Process Improvement
                                                        Continuous Process Improvement (CPI) is a
     An Aviation Ordnanceman aboard the aircraft
                                                        primary enabler for managing the effectiveness
     carrier USS John C. Stennis (CVN 74), whose
                                                        and efficiency of our processes in support
     crew streamlined ordnance test and repair
                                                        of the warfighter and business operations
     processes.
                                                        and a critical path toward financial audit
                                                        readiness. CPI provides our workforce with
                                                        proven performance improvement tools to
                                                        build a strong warfighter support foundation
Navy Enterprise Resource Planning                       for improving cycle time and reliability,
Navy Enterprise Resource Planning (Navy ERP)            aligning the work of subordinate organizations
is an integrated business management system             to enterprise-wide goals, and optimizing
that unifies, standardizes, and streamlines Navy        costs. Under the purview of the Deputy
business operations. It is replacing multiple           Under Secretary of the Navy for Business
older, more costly information systems, leading         Operations and Transformation, we are bringing
to lower operational costs for the Navy. Navy           together processes and organizations for the
commands who have implemented Navy                      accomplishment of strategic and corporate
ERP have realized measurable improvements               business objectives.
in accuracy, timeliness, and accessibility of
information and efficiencies in business and            The following are a few examples of successful
reporting processes. Expansion of the Navy              CPI projects.
ERP Program over the next few years will
continue to drive enterprise-wide efficiencies



                                                   30
n	   The USS Stennis (CVN 74) crew                        comply with FFMIA and FMFIA and integrated
     significantly reduced inefficiencies in              them with our financial improvement and audit
     their ordnance test and repair processes,            readiness efforts to achieve compliance with the
     resulting in over four hours saved for               CFO Act.
     each Ordnance Test Readiness Review.
     Conducting reviews that are more efficient           Below is a summary of our compliance efforts
     shortens the turnaround time for high                under FFMIA and FMFIA.
     demand ordnance items used by Aviation
     Squadrons.                                           Federal Financial Management
n	   The Naval Air Systems Command reduced                Improvement Act
     fuel-servicing wait times for Aviation               The Federal Financial Management
     Support Equipment by 20% (4,800                      Improvement Act (FFMIA) of 1996 requires
     man-hours) and increased annual fuel                 agencies to implement and maintain financial
     availability by 30% (9,000 gallons).                 management systems that comply substantially
n	   The Navy eliminated duplicative                      with Federal financial management systems
     procedures in its internal acquisition               requirements, applicable Federal accounting
     reporting process resulting in an annual             standards, and the U.S. Standard General
     savings of $0.4 million.                             Ledger (USSGL) at the transaction level. FFMIA
                                                          supports the same objectives as the Chief
                                                          Financial Officers Act of 1990 but with a systems
Management Assurances                                     emphasis. Our legacy financial management
                                                          systems and feeder systems are not yet
Commanders and managers throughout the                    substantially compliant with Federal financial
Department of the Navy must ensure the                    management systems requirements, generally
integrity of their programs and operations.               accepted accounting principles, and the
Part of this responsibility entails compliance            USSGL at the transaction level. While FFMIA
with Federal requirements for financial                   compliancy requires a solid systems element,
reporting, financial management systems, and              the improvements in process documentation
internal controls, such as the Federal Financial          and internal control testing being made
Management Improvement Act (FFMIA) and                    through our Financial Improvement Program,




                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report
the Federal Managers’ Financial Integrity                 combined with the ongoing deployment of
Act (FMFIA). These requirements promote                   Navy ERP, will move us toward these goals
the production of more timely, reliable, and              over the next several years. Navy ERP will
accessible financial information, supported by            be compliant with the Department of Defense
the development and implementation of more                (DoD) Standard Financial Information Structure
effective internal controls. More useful financial        (SFIS), which includes support for the USSGL
information and effective controls save money             at the transaction level. SFIS is DoD’s common
and improve efficiency, thereby enhancing                 business language that supports standardization
public confidence in our stewardship of public            of financial reporting for all DoD Components.
resources, which is critical for the protection
and sustainment of our nation and vital U.S.              Federal Managers’ Financial Integrity
interests.                                                Act
We recognize that our success in complying with           The Federal Managers’ Financial Integrity
both the FFMIA and FMFIA is closely linked                Act (FMFIA) of 1982 requires agencies to
with achieving financial audit readiness under            evaluate their system of internal accounting
the Chief Financial Officers (CFO) Act of 1990.           and administrative controls and to report on
Therefore, we have realigned our efforts to               the effectiveness of these controls in an annual



                                                     31
Sailors and more than 1,000 friends and family members aboard the aircraft carrier USS Nimitz (CVN 68) depart Bremerton, Wash.
for a Tiger Cruise to the ship’s homeport in San Diego, Calif.




statement of assurance. The FMFIA was the                        controls over non-financial operations, and
model for the Sarbanes-Oxley Act of 2002,                        provided no assurance on the effectiveness of
which applies to publicly traded companies.                      our internal controls over financial reporting.
Application of the Sarbanes-Oxley Act led                        For more information on the results of these
to the Federal Government’s reevaluation                         assessments, see our FMFIA FY 2010 Annual
of internal control policies under FMFIA,                        Statement of Assurance at http://www.fmo.navy.
including the addition of Appendix A to Office                   mil/services/mic/soa_index.htm.
of Management and Budget (OMB) Circular
A-123 in December 2004, “Management’s
Responsibility for Internal Control.” Appendix                   Financial Condition and
A of the revised circular requires agencies to                   Results of Operations
provide a separate statement of assurance on the                 The accompanying financial statements and
effectiveness of internal controls over financial                related disclosures represent our enduring
reporting.                                                       commitment to fiscal accountability and
                                                                 transparency. Through our Financial
We assessed our systems of internal controls                     Improvement Program and related business
over non-financial operations and financial                      transformation initiatives discussed earlier,
reporting, in effect as of June 30, 2010. Based                  we have made significant progress toward
on these assessments, we provided qualified                      improving the quality and timeliness of
assurance on the effectiveness of our internal                   our financial information. However, we


                                                            32
are currently unable to fully implement all             For financial reporting purposes, we are
elements of U.S. generally accepted accounting          organized into two reporting entities: DON
principles and OMB Circular A-136, “Financial           General Fund and Navy Working Capital Fund,




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
Reporting Requirements,” due to limitations             which include financial information for both
of our financial and non-financial management           the U.S. Navy and the U.S. Marine Corps. Each
processes and systems feeding into the financial        reporting entity has a separate set of financial
statements. Because of these limitations, the           statements and related disclosures.
Department of Defense, Office of Inspector
General, was unable to express an opinion on            DON General Fund
our FY 2010 financial statements. It should             The General Fund (GF) appropriations support
be noted that these limitations exist primarily         overall Departmental operations. Enacted
in our proprietary accounting processes and             appropriations comprise the majority of the GF
less so in the budgetary accounting performed           account structure, which includes five major
to manage and report on the application of              appropriation groups:
budget authority to the purposes and programs
approved in appropriations acts. Despite                n	   Operation and Maintenance
documented material weaknesses and because
of compensating measures and close oversight,           n	   Military Personnel
we believe the budgetary information used for           n	   Procurement
decision-making is accurate and reliable.



                                                   33
n	   Research, Development, Test, and                          represents a decrease of $6.3 billion, 3%, over
     Evaluation                                                FY 2009.
n	   Military Construction
                                                               The Combined Statement of Net Cost presents
                                                               net cost of operations of $155.1 billion during
Enacted appropriations flow through OMB                        FY 2010. Net cost of operations represents
and the Office of the Secretary of Defense to                  gross costs incurred by the DON GF less earned
the Office of the Secretary of the Navy, where                 revenue. Net cost of operations increased $11.0
they are allocated to administering offices                    billion, 7%, when compared to FY 2009.
and commands. The administering offices
and commands, which in turn obligate the                                DON GF Sources of Funds, FY 2010
appropriations to fund operational expenses                                                ($ in Billions)
and capital investments, are required to exercise
a system of effective control over financial
                                                                                           $13.2
operations.
                                                                                $27.0
Results of Operations
The Combined Statement of Budgetary                                     $8.8
Resources presents total budgetary resources of
$225.6 billion that were available to the DON
GF during FY 2010 and the status of those
resources at fiscal year-end. Total budgetary                                                                $176.6
resources were up $1.7 billion, 0.8%, in FY 2010
over FY 2009. Most of the increase came
from increased budgetary authority from
appropriations, which comprised 77% of total
budgetary resources. Enacted appropriations
increased $8.7 billion, 5%, for a total of $174.0                              Appropriations and Net Transfers
                                                                               Earned Reimbursements
billion when compared to FY 2009. The majority                                 Unobligated Balance Forward from Prior Years
of the increase was in the Procurement and                                     Other
Operation and Maintenance appropriation
accounts. The DON obligated $190.6 billion of
the $225.6 billion total resources in FY 2010; this



                                    DON GF Net Cost of Operations, FY 2006 – 2010
                                                           ($ in Billions)
            $200
                                                                                                                      $155.1
                                                 $147.8                                       $144.0
             150           $125.6                                      $132.7


             100

              50

               0
                        2006              2007                   2008                    2009                     2010

                                              Fiscal Year Ending September 30



                                                          34
Financial Position                                                   DON GF Total Liabilities, FY 2010
                                                                                   ($ in Billions)
The DON continued to report a positive net
position on its Consolidated Balance Sheet. Net
position is the difference between total assets                                                  $4.3
(what is owned) and total liabilities (what is
owed). As of September 30, 2010, net position                                                            $1.7

totaled $426.0 billion, which represents an                            $11.9
increase of $17.3 billion, or 4%, from FY 2009.
Increases in total assets and total liabilities
of $19.0 billion and $1.6 billion, respectively,
contributed to the overall increase in net
position.

          DON GF Total Assets, FY 2010
                      ($ in Billions)                                                          $19.3



                 $42.7
                                                                       Accounts Payable
                                                                       Military Retirement and
                                        $133.9                         Other Federal Employment Benefits
                                                                       Environmental and Disposal Liabilities
                                                                       Remaining Liabilities




      $220.5                                                 Navy Working Capital Fund
                                                 $4.1
                                                             The Navy Working Capital Fund (NWCF) is a
                                        $62.1
                                                             revolving fund established to meet the diverse
                                                             requirements of the Navy and Marine Corps
                                                             operating forces. Under the revolving fund
                                                             concept, an appropriation or a transfer of funds
                                                             finances initial NWCF operations. General or




                                                                                                                Fiscal Year 2010 Department of the Navy Annual Financial Report
        Fund Balance with Treasury
        Accounts Receivable                                  appropriated fund payments from customers
        Inventory & Related Property
        General Property, Plant & Equipment
                                                             for goods delivered or services performed
        Remaining Assets                                     subsequently replenish this initial working
                                                             capital investment and sustain a continuous
                                                             cycle of operations, minimizing the need for
                                                             additional annual appropriations by Congress.
                                                             The goal of NWCF is to break even over time
                                                             by matching revenues earned to costs incurred.
                                                             Achievement of this goal is occasionally
                                                             complicated by the requirement that NWCF
                                                             business areas maintain stable budget-driven
                                                             prices for goods and services, to protect
                                                             customers from unforeseen price fluctuations.
                                                             Customers are then billed based on stabilized
                                                             rates, with payment by the customer ultimately
                                                             reimbursing the respective NWCF activity.




                                                        35
Results of Operations                                                NWCF Sources of Funds, FY 2010
                                                                                         ($ in Billions)
The Combined Statement of Budgetary
Resources presents total budgetary resources
of $29.7 billion that were available to NWCF
during FY 2010 and the status of those resources                                  ($6.9)                   $6.3
at fiscal year-end. Total budgetary resources
decreased $0.3 billion, 1%, in FY 2010 over
FY 2009. A net decrease of $0.2 billion in budget                   $3.6
authority contributed to the overall decrease in
budgetary resources. NWCF budget authority
is comprised of enacted appropriations,
contract authority, and spending authority
from offsetting collections, of which the latter
accounts for 90% of total budgetary resources.
NWCF business activities obligated $26.8 billion                                                 $26.6
of the $29.7 billion total resources in FY 2010;
this represents an increase of $0.3 billion, 1%,
over FY 2009.                                                              Contract Authority, Appropriations,
                                                                           and Net Transfers
                                                                           Earned Reimbursements
                                                                           Unobligated Balance Forward from Prior Years
                                                                           Other

                                                         Note: In the above chart, Other includes budgetary resources
                                                         permanently not available of $7.7 billion, which is offset against $0.8 billion
                                                         sum total of Recoveries of prior year unpaid obligations and Change in
                                                         unfilled customer orders.


                                                         The Combined Statement of Net Cost presents
                                                         net cost of operations of $(2.8) billion during
                                                         FY 2010. Net cost of operations represents gross
                                                         costs incurred by NWCF less earned revenue.
                                                         Sources of earned revenue include DON,
                                                         Army, and Air Force General Funds, Defense
                                                         Working Capital Funds, other Navy and DoD

                             NWCF Net Cost of Operations, FY 2006 – 2010
                                                ($ in Billions)
          $4
                                                            $3.1
           3
                    $1.7
           2                                                                           $1.6
           1                          $1.3
           0
          (1)
          (2)
          (3)                                                                                                     ($2.8)
          (4)
                   2006            2007              2008                       2009                       2010

                                       Fiscal Year Ending September 30



                                                    36
appropriations, and non-DoD fund sources.                             NWCF Total Assets, FY 2010
Earned revenue exceeded gross costs by $4.4                                      ($ in Billions)
billion, 282%, in FY 2010 over FY 2009, which                                      $0.4
accounts for the negative net cost of operations.
                                                                                           $1.0
                                                                                                   $1.0
Financial Position                                                       $2.6

The NWCF continued to report a positive net
position on its Consolidated Balance Sheet. Net
position is the difference between total assets
(what is owned) and total liabilities (what is
owed). As of September 30, 2010, net position
totaled $13.3 billion, which represents an
increase of $2.4 billion, 22%, from FY 2009. An
increase of $1.6 billion in total assets contributed
to the overall increase in net position. Total
                                                                                          $14.3
liabilities decreased $0.9 billion.

                                                                     Fund Balance with Treasury
                                                                     Accounts Receivable
                                                                     Inventory & Related Property
                                                                     General Property, Plant & Equipment
                                                                     Remaining Assets




                   Navy Working Capital Fund Business Activities By Business Area
Supply Management                                      Depot Maintenance

Supply Management, Navy                                Depot Maintenance, Aviation
(https://www.navsup.navy.mil)                          (http://www.navair.navy.mil)
Supply Management, Marine Corps                        Depot Maintenance, Marine Corps




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
(http://www.logcom.usmc.mil)                           (http://www.logcom.usmc.mil)


Base Support                                           Transportation


Facilities Engineering Commands
(https://portal.navfac.navy.mil)                       Military Sealift Command
Naval Facilities Engineering Service Center            (http://www.msc.navy.mil)
(https://portal.navfac.navy.mil)


Research and Development

Naval Research Laboratory*                             Naval Air Warfare Center
(http://www.nrl.navy.mil)                              (http://www.navair.navy.mil)
Naval Surface Warfare Center                           Space and Naval Warfare Systems Centers
(http://www.navsea.navy.mil)                           (http://enterprise.spawar.navy.mil)
Naval Undersea Warfare Center                          *Also see Office of Naval Research
(http://www.navsea.navy.mil)                           (http://www.onr.navy.mil)




                                                       37
NWCF Total Liabilities, FY 2010                                 Cash Management
                  ($ in Billions)
                                                                The DON manages working capital fund cash at
                                                                the Departmental level. It must maintain cash
                                                                levels at seven to ten days of operational costs,
                                                                plus have sufficient cash reserves to meet six
                                                                months of projected capital outlays, as required
    $2.2                                                        by the Department of Defense Financial
                                                                Management Regulation. For FY 2010, the
                                                                seven-day cash requirement was $828 million
                                           $3.0
                                                                and the ten-day requirement was $1.139 billion.

                                                                Supply Management, Navy received a $48
                                                                million reimbursement for ordered items
           $0.8                                                 delivered to Defense Logistics Agency. In July
                                                                2010, DON received $203.5 million of Fuel
                                                                Supplemental Funding.

 Accounts Payable
 Military Retirement and
 Other Federal Employment Benefits
 Remaining Liabilities



Navy Working Capital Fund Cash Balances October 1, 2009 to September 30, 2010
                                                      ($ in Millions)
$1,200

  900

  600

  300

     0
             Oct         Nov        Dec   Jan      Feb       Mar        Apr     May       Jun       Jul     Aug        Sep

                                                Fiscal Year Ending September 30
         Note: Cash balances above represent the combined total of monthly cash balances for five business areas and the
         corporate account.




                                                           38
The aircraft carrier USS Harry S. Truman (CVN 75) transits the Arabian Sea in support of maritime security operations.




Looking Forward                                                     enhances global stability, and secures freedom
Our achievements during FY 2010 established a                       of navigation for all nations. The U.S. maritime
                                                                    services—Navy, Marine Corps, and Coast




                                                                                                                            Fiscal Year 2010 Department of the Navy Annual Financial Report
firm foundation that will assure future success
in executing our mission and building a sound                       Guard—will continue to operate closely with
business operating environment. In FY 2011, we                      other joint forces, allies, and coalition partners to
will remain focused on priorities that increase                     prevent war and build partnerships pursuant to
our effectiveness and efficiency, improve the                       the U.S. maritime strategy.
lives of our Sailors and Marines, and result in
greater security for our nation and U.S. global                     Taking Care of Our People
interests. Highlighted below are a few of these                     Development and retention of highly qualified
priorities.                                                         and dedicated people are vital to our continued
                                                                    success. We will continue to provide expanded
Maritime Security                                                   career opportunities, opportunities for life-long
The creation and maintenance of maritime                            learning, and a continuum of care and family
security is essential to mitigating threats short                   support. We will also continue to support a
of war, including piracy, terrorism, weapons                        wide array of readiness programs, including
proliferation, drug trafficking, and other illicit                  deployment support services, morale and
activities. Countering these threats far from our                   welfare services, and child and teen programs.
nation’s shores protects the American homeland,



                                                               39
A high efficiency lighting system, designed by Naval Sea Systems Command, is one of many energy conservation initiatives at
the Department of the Navy.



Energy Reform                                                     target environment of improved systems. The
Readily available energy is essential for                         future environment will be charted using a
deploying our Sailors and Marines around the                      portfolio management process and link existing
globe in support of our nation’s interests. Since                 business systems to the phasing-in of Navy
our operational flexibility and sustainability are                ERP. Transformation efforts build upon many
directly linked to our energy supplies, energy                    of the initiatives underway in various business
reliability is a strategic concern for our force.                 mission areas.
We will continue to work toward achieving
greater energy independence and conservation                      We will continue to implement meaningful and
ashore and afloat.                                                sustainable changes in Navy-Marine Corps
                                                                  business management in order to continue
                                                                  the drive to improve effectiveness, realize
Business Transformation
                                                                  efficiencies, and provide a more straightforward
A top priority of the Under Secretary of the                      and tighter focus on business transformation.
Navy is to develop a business transformation
plan that will serve as a roadmap from the
existing suite of business systems to the future




                                                             40
                                                 General Fund Principal Statements
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         41
Limitations to the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 United States Code 3515 (b). While
the statements have been prepared from the books and records of the entity in accordance with
Generally Accepted Accounting Principles for Federal entities and the formats prescribed by Office of
Management and Budget, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign
entity.




Principal Statements
The Fiscal Year 2010 Department of the Navy General Fund principal statements and related notes are
presented in the format prescribed by the Department of Defense Financial Management Regulation
7000.14, Volume 6B. The statements and related notes summarize financial information for individual
funds and accounts within the General Fund for the fiscal year ending September 30, 2010, and are
presented on a comparative basis with information previously reported for the fiscal year ending
September 30, 2009.

The following statements comprise the Department of the Navy General Fund principal statements:

    n	   Consolidated Balance Sheet
    n	   Consolidated Statement of Net Cost
    n	   Consolidated Statement of Changes in Net Position
    n	   Combined Statement of Budgetary Resources

The principal statements and related notes have been prepared to report financial position pursuant
to the requirements of the Chief Financial Officers Act of 1990, as amended by the Government
Management Reform Act of 1994. The accompanying notes should be considered an integral part of
the principal statements.
                                                 42
                                              Department of Defense
                                        Department of the Navy General Fund
                                  CONSOLIDATED BALANCE SHEET
                                           As of September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                               Restated
                                                                              2010 Consolidated           2009 Consolidated
ASSETS (Note 2)
   Intragovernmental:
        Fund Balance with Treasury (Note 3)                               $            133,919,522    $            125,074,999
        Investments (Note 4)                                                                 9,465                       9,621
        Accounts Receivable (Note 5)                                                       394,557                     373,313
        Other Assets (Note 6)                                                              263,633                     418,505
    Total Intragovernmental Assets                                                     134,587,177                 125,876,438

    Cash and Other Monetary Assets (Note 7)                                                107,277                     160,509
    Accounts Receivable, Net (Note 5)                                                    3,691,483                   3,681,949
    Inventory and Related Property, Net (Note 9)                                        62,053,484                  62,424,699
    General Property, Plant, and Equipment, Net (Note 10)                              220,504,519                 218,470,785
    Other Assets (Note 6)                                                               42,276,508                  33,647,679
TOTAL ASSETS                                                              $            463,220,448    $            444,262,059
Stewardship Property, Plant, and Equipment (Note 10) *

LIABILITIES (Note 11)
   Intragovernmental:
        Accounts Payable (Note 12)                                        $               1,657,333   $               1,289,643
        Other Liabilities (Note 15 & Note 16)                                             4,994,706                   4,786,951
   Total Intragovernmental Liabilities                                                    6,652,039                   6,076,594

   Accounts Payable (Note 12)                                                             2,682,893                   2,652,609
   Military Retirement and Other Federal




                                                                                                                                  Fiscal Year 2010 Department of the Navy Annual Financial Report
        Employment Benefits (Note 17)                                                     1,692,851                   1,494,427
   Environmental and Disposal Liabilities (Note 14)                                      19,333,895                  18,604,432
   Other Liabilities (Note 15 & Note 16)                                                  6,873,542                   6,796,504
TOTAL LIABILITIES                                                                        37,235,220                  35,624,566
Commitments and Contingencies (Note 16) *

NET POSITION
   Unexpended Appropriations - Other Funds                                             169,307,091                 152,638,280
   Cumulative Results of Operations - Earmarked Funds                                       33,682                      26,171
   Cumulative Results of Operations - Other Funds                                      256,644,455                 255,973,042
TOTAL NET POSITION                                                                     425,985,228                 408,637,493

TOTAL LIABILITIES AND NET POSITION                                        $            463,220,448    $            444,262,059

* - Disclosure but no value required per Federal Accounting Standards.

The accompanying notes are an integral part of the statements.




                                                             43
                                              Department of Defense
                                        Department of the Navy General Fund
                          CONSOLIDATED STATEMENT OF NET COST
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                               Restated
                                                                              2010 Consolidated           2009 Consolidated
Program Costs
    Gross Costs                                                           $            160,351,993    $            149,391,922
        Military Personnel                                                              48,744,274                  44,985,257
        Operations, Readiness, & Support                                                58,676,332                  56,015,152
        Procurement                                                                     32,484,136                  27,839,617
        Research, Development, Test, & Evaluation                                       19,526,997                  19,975,119
        Family Housing & Military Construction                                             920,254                     576,777

   Less: Earned Revenue                                                                 (5,246,995)                 (4,781,266)
Net Cost of Operations                                                    $            155,104,998    $            144,610,656




The accompanying notes are an integral part of the statements.




                                                             44
                                              Department of Defense
                                        Department of the Navy General Fund
           CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                              2010 Earmarked Funds           2010 Other Funds
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                      $                   26,171     $           255,973,042
  Prior Period Adjustments:
      Correction of errors (+/-)                                                                   -                           -
  Beginning Balances, as adjusted                                                             26,171                 255,973,042
  Budgetary Financing Sources:
      Appropriations used                                                                          -                 157,582,719
      Nonexchange revenue                                                                        270                        (782)
      Donations & forfeitures of cash & cash equivalents                                      27,374                            -
  Other Financing Sources:
      Donations and forfeitures of property                                                        -                       5,258
      Transfers in/out without reimbursement (+/-)                                                 -                   1,243,648
      Imputed financing from costs absorbed by others                                              -                     884,867
      Other (+/-)                                                                                  2                  (3,959,434)
  Total Financing Sources                                                                     27,646                 155,756,276
    Net Cost of Operations (+/-)                                                              20,135                 155,084,863
    Net Change                                                                                 7,511                     671,413
    Cumulative Results of Operations                                      $                   33,682     $           256,644,455

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                     $                          -   $           153,212,818
   Prior Period Adjustments:
       Correction of errors (+/-)                                                                    -                  (574,538)
   Beginning Balances, as adjusted                                                                   -               152,638,280




                                                                                                                                    Fiscal Year 2010 Department of the Navy Annual Financial Report
   Budgetary Financing Sources:
       Appropriations received                                                                       -               174,174,405
       Appropriations transferred-in/out (+/-)                                                       -                 2,589,140
       Other adjustments (rescissions, etc) (+/-)                                                    -                (2,512,015)
       Appropriations used                                                                           -              (157,582,719)
   Total Budgetary Financing Sources                                                                 -                16,668,811
   Unexpended Appropriations                                                                         -               169,307,091
    Net Position                                                          $                   33,682     $           425,951,546




The accompanying notes are an integral part of the statements.




                                                             45
                                              Department of Defense
                                        Department of the Navy General Fund
          CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                              Restated
                                                                              2010 Consolidated          2009 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                      $           255,999,213    $            235,996,617
  Prior Period Adjustments:
      Correction of errors (+/-)                                                                -                     (94,740)
  Beginning Balances, as adjusted                                                     255,999,213                 235,901,877
  Budgetary Financing Sources:
      Appropriations used                                                             157,582,719                 159,650,282
      Nonexchange revenue                                                                    (512)                        174
      Donations & forfeitures of cash & cash equivalents                                   27,374                      24,051
    Other Financing Sources:
        Donations and forfeitures of property                                               5,258                        (667)
        Transfers in/out without reimbursement (+/-)                                    1,243,648                     208,053
        Imputed financing from costs absorbed by others                                   884,867                     779,646
        Other (+/-)                                                                    (3,959,432)                  4,046,453
    Total Financing Sources                                                           155,783,922                 164,707,992
    Net Cost of Operations (+/-)                                                      155,104,998                 144,610,656
    Net Change                                                                            678,924                  20,097,336
    Cumulative Results of Operations                                      $           256,678,137    $            255,999,213

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                     $           153,212,818    $            121,305,364
   Prior Period Adjustments:
       Correction of errors (+/-)                                                        (574,538)                 27,207,894
   Beginning Balances, as adjusted                                                    152,638,280                 148,513,258
   Budgetary Financing Sources:
       Appropriations received                                                        174,174,405                 165,233,492
       Appropriations transferred-in/out (+/-)                                          2,589,140                   1,711,873
       Other adjustments (rescissions, etc) (+/-)                                      (2,512,015)                 (3,170,061)
       Appropriations used                                                           (157,582,719)               (159,650,282)
   Total Budgetary Financing Sources                                                   16,668,811                   4,125,022
   Unexpended Appropriations                                                          169,307,091                 152,638,280
    Net Position                                                          $           425,985,228    $            408,637,493




The accompanying notes are an integral part of the statements.




                                                            46
                                              Department of Defense
                                        Department of the Navy General Fund
                 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                           Restated
                                                                              2010 Combined             2009 Combined
BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
      Unobligated balance, brought forward, October 1                     $          27,048,361     $          28,028,796
      Recoveries of prior year unpaid obligations                                    16,099,877                24,029,026
      Budget Authority:
          Appropriations received                                                   174,202,102               165,257,844
          Spending authority from offsetting collections:
           Earned
               Collected                                                               8,853,881                 7,806,105
               Change in receivables from Federal sources                                (60,947)                 (144,220)
           Change in unfilled customer orders
                 Advances received                                                      (24,024)                  323,916
                 Without advance from Federal sources                                  (582,631)                   78,479
           Subtotal                                                                 182,388,381               173,322,124
         Nonexpenditure Transfers, net, anticipated and actual                        2,589,140                 1,711,873
        Permanently not available                                                    (2,512,014)               (3,170,061)
    Total Budgetary Resources                                                       225,613,745               223,921,758

    Status of Budgetary Resources:
        Obligations incurred:
            Direct                                                                  179,434,110               186,657,507
            Reimbursable                                                             11,176,960                10,215,890
            Subtotal                                                                190,611,070               196,873,397
        Unobligated balance:




                                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report
            Apportioned                                                              31,804,999                23,983,393
            Subtotal                                                                 31,804,999                23,983,393
        Unobligated balances not available                                            3,197,676                 3,064,968
    Total Status of Budgetary Resources                                   $         225,613,745     $         223,921,758




The accompanying notes are an integral part of the statements.




                                                             47
                                              Department of Defense
                                        Department of the Navy General Fund
                 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                       Restated
                                                                          2010 Combined             2009 Combined
RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
Change in Obligated Balance:
   Obligated balance, net
        Unpaid obligations, brought forward, October 1                $          101,403,501    $           93,776,544
        Less: Uncollected customer payments from
           Federal sources, brought forward, October 1                            (3,798,476)               (3,864,218)
        Total Unpaid Obligated Balance                                            97,605,025                89,912,326
   Obligations incurred, net (+/-)                                               190,611,070               196,873,397
   Less: Gross outlays                                                          (174,313,017)             (165,217,414)
   Less: Recoveries of prior year unpaid obligations, actual                     (16,099,877)              (24,029,026)
   Change in uncollected customer
        payments from Federal sources (+/-)                                          643,578                    65,742
   Obligated balance, net, end of period
        Unpaid obligations                                                       101,601,677               101,403,501
        Less: Uncollected customer payments from
           Federal sources                                                        (3,154,898)               (3,798,476)
        Total Unpaid Obligated Balance, net, end of period                        98,446,779                97,605,025

Net Outlays:
Gross Outlays                                                                    174,313,017               165,217,414
Less: Offsetting collections                                                      (8,829,857)               (8,130,022)
Less: Distributed Offsetting receipts                                               (141,386)                 (321,451)
Net Outlays                                                           $          165,341,774 $             156,765,941




The accompanying notes are an integral part of the statements.




                                                             48
                                                 General Fund Notes to the Principal Statements
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         49
Note 1.	 Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations
of the Department of the Navy (DON) General Fund (GF), as required by the Chief Financial Officers
Act of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate
legislation. The financial statements have been prepared from the books and records of DON GF in
accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense
(DoD), Financial Management Regulation (FMR). The accompanying financial statements account for
all resources for which DON GF is responsible unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or
otherwise aggregated and reported in such a manner that it is not discernable.

The DON GF financial statements include information from both financial systems and nonfinancial
feeder systems. The Defense Finance and Accounting Service, Cleveland (DFAS-CL) collects the financial
system information and incorporates it into the financial statements for DON GF. The DON GF collects
financial information from nonfinancial feeder systems through a data call process and submits it to
DFAS-CL for incorporation into the financial statements. On behalf of DON GF, DFAS-CL also collects
information from multiple sources, such as intragovernmental data from DON GF’s trading partners,
which is incorporated into the financial statements. The DDRS DCM captures certain required financial
information from feeder systems for the DON GF financial statements. The DDRS DCM identifies the
information requirements to the source provider, provides an audit trail, and integrates data into the
financial statement preparation process.

The DON GF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136
due to limitations of its financial and nonfinancial management processes and systems that support
the financial statements. The DON GF derives reported values and information for major asset and
liability categories largely from nonfinancial systems, such as inventory and logistic systems. These
systems were designed to support reporting requirements for maintaining accountability over assets
and reporting the status of federal appropriations rather than preparing financial statements in
accordance with USGAAP. The DON GF continues to implement process and system improvements
addressing these limitations.

The Department of Defense Inspector General (DoDIG) issued an audit report dated November 8, 2010
and identified several financial statement material weaknesses: Financial Management Systems; Fund
Balance with Treasury; Accounts Receivable; Inventory and Related Property; General Plant, Property,
and Equipment (GPP&E); Accounts Payable; Statement of Net Cost; Problem Disbursements; and
Unobligated Balances. The DON GF (as identified in the DON FY 2010 Annual Statement of Assurance
dated September 1, 2010) recognizes those weaknesses as well as weaknesses associated with Collections
and Disbursements, Procure to Pay Processes, General Equipment, Military Equipment, Real Property
as related to the GPP&E line on the Balance Sheet, and Operating Materiel and Supplies (OM&S) (and
the associated weaknesses with Inventory).




                                                  50
1.B. Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall
mission of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable
of winning wars, deterring aggression, and maintaining freedom of the seas.

1.C. Appropriations and Funds
The DON receives appropriations and funds as general, working capital (revolving), trust, special, and
deposit funds. The DON uses these appropriations and funds to execute its missions and subsequently
report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including
personnel, operation and maintenance, research and development, procurement, and military
construction.

These general funds also include supplemental funds enacted by the American Recovery and
Reinvestment Act (Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are
available on-line at http://www.defenselink.mil/recovery.

The National Defense Sealift Fund is DON GF’s only revolving fund. Revolving funds are generally
established for carrying out specific activities. Revolving funds are financed through an appropriation
or a transfer to establish a corpus and are replenished through charges made for goods or services
without fiscal year limitations. The National Defense Sealift Fund is unique because it receives an
annual appropriation and has no corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in
carrying out specific purposes or programs in accordance with the terms of the donor, trust agreement,
or statute. Special fund accounts are used to record government receipts reserved for a specific
purpose. Certain trust and special funds may be designated as earmarked funds. Earmarked funds
are financed by specifically identified revenues, required by statute to be used for designated activities,
benefits, or purposes, and remain available over time. The DON GF is required to separately account




                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report
for and report on the receipt, use, and retention of revenues and other financing sources for earmarked
funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government
or public entity. They are not DON GF funds, and as such, are not available for DON GF’s operations.
The DON GF is acting as an agent or a custodian for funds awaiting distribution.

The DON GF is a party to allocation transfers with other federal agencies as a transferring (parent)
entity or receiving (child) entity. An allocation transfer is an entity’s legal delegation of authority to
obligate budget authority and outlay funds on its behalf. Generally, all financial activity related to
allocation transfers (e.g. budget authority, obligations, outlays) is reported in the financial statements
of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed
that all activity be reported in the financial statements of the child entity. These exceptions include
U.S.  Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds
specifically designated by OMB. Based on an agreement with OMB, funds for Security Assistance
programs are reported separately from DON GF’s financial statements and notes.




                                                    51
The DON GF receives allocation transfers for the EOP for the Foreign Military Financing Program and
for the International Military Education and Training program, meeting the OMB exception; however,
activities for these funds are reported separately from the DoD financial statements. The DON GF also
receives allocation transfers from the U.S. Forest Service and the Federal Highway Administration and
reports financial activity for those funds to the parent.

1.D. Basis of Accounting
The DON  GF’s financial management systems are unable to meet all full accrual accounting
requirements. Many of DON  GF’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of USGAAP. These systems were not designed to
collect and record financial information on the full accrual accounting basis as required by USGAAP.
Most of DON GF’s financial and nonfinancial legacy systems were designed to record information on
a budgetary basis.

The DON financial statements and supporting trial balances are compiled from the underlying
financial data and trial balances of DON’s sub-entities. The underlying data is largely derived from
budgetary transactions (obligations, disbursements, and collections), from nonfinancial feeder systems,
and accruals made for major items such as payroll expenses, accounts payable, and environmental
liabilities. Some of the sub-entity level trial balances may reflect known abnormal balances resulting
largely from business and system processes. At the consolidated DON level these abnormal balances
may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and
processes into compliance with USGAAP. One such action is the current revision of accounting systems
to record transactions based on the U.S. Standard General Ledger (USSGL). Until all DON GF’s financial
and nonfinancial feeder systems and processes are updated to collect and report financial information
as required by USGAAP, DON GF’s financial data will be derived from budgetary transactions, data
from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
The DON GF receives congressional appropriations as financing sources for general funds that expire
annually, on a multi-year basis, or do not expire. When authorized by legislation, these appropriations
are supplemented by revenues generated by sales of goods or services. The DON  GF recognizes
revenue as a result of costs incurred for goods and services provided to other federal agencies and
the public. Full cost pricing is DON GF’s standard policy for services provided as required by OMB
Circular A-25, User Charges. The DON GF recognizes revenue when earned within the constraints of
its current system capabilities. In some instances, revenue is recognized when bills are issued.

The DON GF does not include nonmonetary support provided by U.S. allies for common defense and
mutual security in amounts reported in the Statement of Net Cost and the Note 21, Reconciliation
of Net Cost of Operations to Budget. The U.S. has cost sharing agreements with countries having a
mutual or reciprocal defense agreement, or where U.S. troops are stationed, or where the U.S. Fleet is
in a port.




                                                 52
1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. Current financial and nonfinancial feeder systems were not designed to collect
and record financial information on the full accrual accounting basis. Estimates are made for major
items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In
the case of Operating Materiel and Supplies (OM&S), operating expenses are generally recognized
when the items are purchased. Efforts are underway to transition to the consumption method for
recognizing OM&S expenses. Under the consumption method, OM&S would be expensed when
consumed. Due to system limitations, in some instances expenditures for capital and other long-term
assets may be recognized as operating expenses. The DON GF continues to implement process and
system improvements to address these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself. However,
DON GF cannot accurately identify intragovernmental transactions by customer because DON GF’s
systems do not track buyer and seller data at the transaction level. Generally, seller entities within
DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to
the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to
agree with DoD seller-side balances and are then eliminated. The DoD is implementing replacement
systems and a standard financial information structure that will incorporate the necessary elements
that will enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury
Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report
of the United States Government, provide guidance for reporting and reconciling intragovernmental
balances. While DON GF is unable to fully reconcile intragovernmental transactions with all federal
agencies, DON  GF is able to reconcile balances pertaining to investments in federal securities,
borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’ Compensation
Act transactions with the Department of Labor, and benefit program transactions with the Office of




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
included. The Federal Government does not apportion debt and its related costs to federal agencies.
The DoD’s financial statements do not report any public debt, interest, or source of public financing,
whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the
extent this financing ultimately may have been obtained through the issuance of public debt, interest
costs have not been capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations
Each year, DON sells defense articles and services to foreign governments and international
organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions of
the Act, DoD has authority to sell defense articles and services to foreign countries and international
organizations generally at no profit or loss to the Federal Government. Payment in U.S. dollars is
required in advance.


                                                  53
1.I. Funds with the U.S. Treasury
The DON GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of
the Defense Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps
of Engineers (USACE), and the Department of State’s financial service centers process the majority of
DON’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers,
and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records
these transactions to the applicable Fund Balance with Treasury (FBWT) account. On a monthly basis,
DON GF’s FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J. Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency,
negotiable instruments, and amounts held for deposit in banks and other financial institutions. Foreign
currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign
currencies held in foreign currency fund accounts. Foreign currency is valued using the U.S. Treasury
prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts
reported consist primarily of cash and foreign currency held by disbursing officers to carry out their
paying, collecting, and foreign currency accommodation exchange missions.

The DON GF conducts a significant portion of operations overseas. Congress established a special
account to handle the gains and losses from foreign currency transactions for five general fund
appropriations: (1) operation and maintenance; (2) military personnel; (3) military construction;
(4) family housing operation and maintenance; and (5) family housing construction. The gains and
losses are calculated as the variance between the exchange rate current at the date of payment and a
budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to
other appropriations require adjustments to the original obligation amount at the time of payment.
The DON GF does not separately identify foreign currency fluctuation transactions.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public are
based upon analysis of collection experience by fund type. The DoD does not recognize an allowance
for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
are to be resolved between the agencies in accordance with dispute resolution procedures defined in
the Intragovernmental Business Rules published in the Treasury Financial Manual at http://www.fms.
treas.gov/tfm/vol1/07-03.pdf.

1.L. Direct Loans and Loan Guarantees
Not applicable.




                                                  54
1.M. Inventories and Related Property
The DON  GF manages only military or government-specific materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes items such as ships,
tanks, self-propelled weapons, aircraft, etc., and related spares, repair parts, and support equipment.
Items commonly used in and available from the commercial sector are not managed in DON  GF’s
materiel management activities. Operational cycles are irregular and the military risks associated with
stock-out positions have no commercial parallel. The DON GF holds materiel based on military need
and support for contingencies. The DoD is currently developing a methodology to be used to account
for “inventory held for sale” and “inventory held in reserve for future sale” with a completion date of
year-end FY 2011 reporting.

Related property includes OM&S and stockpile materiel. The DON GF uses both the consumption
method and the purchase method of accounting for OM&S. Items that are centrally managed and
stored, such as ammunition and engines, are generally recorded using the consumption method and are
reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption
method, DON GF uses the purchase method. Under this method, materiel and supplies are expensed
when purchased. During FY 2010 and FY 2009, DON  GF expensed significant amounts using the
purchase method because the systems could not support the consumption method or management
deemed that the item was in the hands of the end user. This is a material weakness for DoD and
long-term system corrections are in process. Once the proper systems are in place, these items will be
accounted for using the consumption method of accounting.

The DON  GF values OM&S assets using several cost valuation methods. Most OM&S is valued
at an approximation of historical cost using latest acquisition cost adjusted for holding gains and
losses. The latest acquisition cost method is used because legacy logistics systems were designed for
materiel management rather than accounting purposes. Although these systems provide visibility
and accountability over inventory and related property items, they do not maintain historical cost
data necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
Accounting for Inventory and Related Property. Additionally, these legacy inventory systems cannot
produce financial transactions using the USSGL, as required by the Federal Financial Management




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
Improvement Act of 1996 (P.L. 104-208). The DON is continuing to transition OM&S to the moving
average cost method. Most transitioned balances, however, were not baselined to auditable historical
cost, and remain noncompliant with SFFAS No. 3.

The DON determined that the recurring high dollar value of OM&S in need of repair is material to
the financial statements and required a separate reporting category. Many high dollar items, such as
aircraft engines, are categorized as OM&S rather than military equipment.

The DON recognizes excess, obsolete, and unserviceable inventory and OM&S at a net realizable value
of $0 pending development of an effective means of valuing such materiel.

1.N. Investments in U.S. Treasury Securities
The DON GF reports investments in U.S. Treasury securities at cost, net of amortized premiums or
discounts. Premiums or discounts are amortized over the term of the investments using the effective
interest rate method or another method obtaining similar results. The DON  GF’s intent is to hold
investments to maturity, unless they are needed to finance claims or otherwise sustain operations.
Consequently, a provision is not made for unrealized gains or losses on these securities.



                                                  55
The DON  GF invests in nonmarketable market-based U.S.  Treasury securities, which are issued to
federal agencies by the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities
exchange but mirror the prices of particular U.S. Treasury securities traded in the government securities
market.

1.O. General Property, Plant and Equipment
The DON GF uses the estimated historical cost for valuing military equipment. The DoD identified
the universe of military equipment by accumulating information relating to program funding and
associated military equipment, equipment useful life, program acquisitions, and disposals to establish
a baseline. The military equipment baseline is updated using expenditure, acquisition, and disposal
information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand
except for real property, which is $20 thousand. The DON has not fully implemented the threshold
for real property; therefore, DON is primarily using the capitalization threshold of $100 thousand for
General PP&E and most real property.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two
or more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD
also requires the capitalization of improvements to existing General PP&E assets if the improvements
equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or
capacity of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, DON GF provides government property to contractors
when deemed necessary to complete contract work. The DON GF either owns or leases such property,
or it is purchased directly by the contractor for the government based on contract terms. When the
value of contractor-procured General PP&E meets or exceeds the DoD capitalization threshold, federal
accounting standards require that it be reported on DON GF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished
equipment that provides appropriate General PP&E information for financial statement reporting.
The DoD requires DON to maintain, in their property systems, information on all property furnished
to contractors. These actions are structured to capture and report the information necessary for
compliance with federal accounting standards. The DON GF has not fully implemented this policy
primarily due to system limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is
to record advances or prepayments in accordance with USGAAP. As such, payments made in advance
of the receipt of goods and services should be reported as an asset on the Balance Sheet. The DoD’s
policy is to expense and/or properly classify assets when the related goods and services are received.
The DON GF has not implemented this policy primarily due to system limitations.

1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or
operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease), and the value equals or exceeds the current capitalization threshold, DON GF records


                                                    56
the applicable asset as though purchased, with an offsetting liability, and depreciates it. The DON GF
records the asset and the liability at the lesser of the present value of the rental and other lease payments
during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s
fair market value. The discount rate for the present value calculation is either the lessor’s implicit
interest rate or the government’s incremental borrowing rate at the inception of the lease. The DON GF,
as the lessee, receives the use and possession of leased property, for example real estate or equipment,
from a lessor in exchange for a payment of funds. An operating lease does not substantially transfer
all the benefits and risk of ownership. Payments for operating leases are expensed over the lease term
as they become payable.

Office space and leases entered into by DON GF are the largest component of operating leases and
are based on costs gathered from existing leases, General Services Administration (GSA) bills, and
interservice support agreements. Future year projections use the Consumer Price Index.

1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and certain contract financing payments that are not reported elsewhere on DON  GF’s
Balance Sheet.

The DON GF conducts business with commercial contractors under two primary types of contracts:
fixed price and cost reimbursable. To alleviate the potential financial burden on the contractor
that long-term contracts can cause, DON GF may provide financing payments. Contract financing
payments are defined in the Federal Acquisition Regulations, Part 32, as authorized disbursements to a
contractor prior to acceptance of supplies or services by the Government. Contract financing payments
clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress payments based
on cost, and interim payments under certain cost-reimbursement contracts. It is DoD policy to record
certain contract financing payments as other assets. The DON  GF has not fully implemented this
policy primarily due to system limitations.




                                                                                                                Fiscal Year 2010 Department of the Navy Annual Financial Report
Contract financing payments do not include invoice payments, payments for partial deliveries, lease
and rental payments, or progress payments based on a percentage or stage of completion. The Defense
Federal Acquisition Regulation Supplement authorizes progress payments based on a percentage or
stage of completion only for construction of real property, shipbuilding, and ship conversion, alteration,
or repair. Progress payments based on percentage or stage of completion are reported as Construction
in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss.
The uncertainty will be resolved when one or more future events occur or fail to occur. The DON GF
recognizes contingent liabilities when past events or exchange transactions occur, a future loss is
probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. The DON GF’s



                                                     57
risk of loss and resultant contingent liabilities arise from pending or threatened litigation or claims and
assessments due to events such as aircraft, ship and vehicle accidents; medical malpractice; property
or environmental damages; and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for DON’s GF assets. Consistent
with SFFAS No. 6, Accounting for Property, Plant, and Equipment, recognition of an anticipated
environmental disposal liability begins when the asset is placed into service. Based upon DoD
policy, which is consistent with SFFAS No. 5, Accounting for Liabilities of the Federal Government,
nonenvironmental disposal liabilities are recognized when management decides to dispose of an asset.
The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered
assets when placed into service. These amounts are not easily distinguishable and are developed in
conjunction with environmental disposal costs.

1.T. Accrued Leave
The DON  GF reports liabilities for military leave and accrued compensatory and annual leave for
civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
Appropriations represent the amounts of budget authority that are unobligated and have not been
rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which
legal liabilities for payments have not been incurred. Cumulative Results of Operations represent the
net difference between expenses and losses, and financing sources (including appropriations, revenue,
and gains), since inception. The cumulative results of operations also include donations and transfers
in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The DON purchases
capital assets overseas with appropriated funds; however, the host country retains title to the land
and capital improvements. Treaty terms generally allow DON continued use of these properties until
the treaties expire. In the event treaties or other agreements are terminated, use of the foreign bases is
prohibited and losses are recorded for the value of any nonretrievable capital assets. The settlement
due to the U.S. or host nation is negotiated and takes into account the value of capital investments and
may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to specific obligations, payables, or receivables in the source
systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by collaborating documentation. Unsupported
disbursements and collections do not have supporting documentation for the transaction and most
likely would not meet audit scrutiny.




                                                    58
The DoD policy is to allocate supported undistributed disbursements and collections between federal
and nonfederal categories based on the percentage of distributed federal and nonfederal accounts
payable and accounts receivable. Supported undistributed disbursements and collections are
then applied to reduce accounts payable and receivable accordingly. Unsupported undistributed
disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Significant Events
None reported at this time.

1.Y. Fiduciary Activities
Fiduciary cash and other assets are not assets of DON GF and are not recognized on the balance sheet.
Fiduciary activities are reported on the financial statement note schedules.


Note 2.	Nonentity Assets
                         As of September 30                      2010                 Restated 2009
(Amounts in thousands)

1. Intragovernmental Assets
     A. Fund Balance with Treasury                       $               421,725 $              289,564
     B. Accounts Receivable                                                    -                      -
     C. Total Intragovernmental Assets                   $                     - $                    -
     D. Total Intragovernmental Assets                                   421,725                289,564

2. Nonfederal Assets
    A. Cash and Other Monetary Assets                    $                107,278 $             160,509
    B. Accounts Receivable                                              3,483,615             3,462,365
    C. Other Assets                                                             -                     -
    D. Total Nonfederal Assets                           $              3,590,893 $           3,622,874




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
3. Total Nonentity Assets                                $              4,012,618 $           3,912,438

4. Total Entity Assets                                   $         459,207,830 $            440,349,621

5. Total Assets                                          $         463,220,448 $            444,262,059




                                                 59
Nonentity assets are assets for which the Department of the Navy (DON) maintains stewardship
accountability and reporting responsibility, but are not available for DON’s normal operations.

Intragovernmental Fund Balance with Treasury
This nonentity asset category primarily represents amounts in DON’s Suspense Funds, Withheld
State and Local Taxes Fund, and Withheld Allotment of Compensation for Payment of Employee
Organization Dues Fund.

Cash and Other Monetary Assets
This nonentity asset category represents disbursing officers’ cash, foreign currency, and undeposited
collections as reported on the Disbursing Officer’s Statement of Accountability. These assets are held
by DON disbursing officers as agents of the U.S.  Treasury and are not available for DON’s use in
normal operations.

Nonentity Nonfederal Accounts Receivable (Public)
The primary component of nonentity accounts receivable is an advance payment made to a contractor,
which remains in litigation and includes associated accrued interest. These receivable balances are being
reported in nonentity accounts receivable since the original appropriation year has been cancelled, and
any funds collected as a result of this litigation would be remitted to the U.S. Treasury.

The DON General Fund restated its FY 2009 Nonentity Assets balance by $505.6 million. Refer to
Note 26, Restatements, for additional details.


Note 3.	 Fund Balance with Treasury
                    As of September 30                             2010                 Restated 2009
(Amounts in thousands)

1. Fund Balances
     A. Appropriated Funds                                 $          131,782,542 $           123,186,669
     B. Revolving Funds                                                 1,689,432               1,580,966
     C. Trust Funds                                                        23,615                  15,400
     D. Special Funds                                                       2,208                   2,400
     E. Other Fund Types                                                  421,725                 289,564
     F. Total Fund Balances                                $          133,919,522 $           125,074,999

2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                          $          135,351,248 $           126,394,135
     B. Fund Balance per DON                                          133,919,522             125,074,999

3. Reconciling Amount                                      $              1,431,726 $           1,319,136

The total reconciling amount of $1.4 billion in Fund Balance with Treasury (FBWT) is mainly due
to trust receipts, saving deposit program differences, and parent-child transactions. The reconciling
difference related to allocation transfers results from instances in which the Department of the Navy
(DON) allocates to or is allocated funds from various governmental entities. In cases in which DON is
allocated funds, the amount is excluded from the Fund Balance per DON, but included in Fund Balance
per Treasury. In cases in which DON allocates funds, the amount is included in the Fund Balance per



                                                  60
DON, but it is excluded from the Fund Balance per Treasury. In addition, canceled authority balances
are still carried at Treasury but not at DON.

Other Fund Types (Line 1.E) consists primarily of amounts in the following deposit and receipt
accounts: General Fund Proprietary Receipts, Pay of the Navy Deposit Fund.

Status of Fund Balance with Treasury
                    As of September 30                            2010              Restated 2009
(Amounts in thousands)

1. Unobligated Balance
    A. Available                                         $           31,804,998 $          23,983,394
    B. Unavailable                                                    3,197,676             3,064,968

2. Obligated Balance not yet Disbursed                              101,601,677           101,403,501

3. Nonbudgetary FBWT                                                     479,502              431,148

4. NonFBWT Budgetary Accounts                                        (3,164,331)            (3,808,011)

5. Total                                                 $          133,919,522 $         125,075,000

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the
FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists
of unobligated and obligated balances. The balances reflect the budgetary authority remaining for
disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount
of budgetary authority that has not been set aside to cover outstanding obligations. The unavailable




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
balance consists of funds invested in U.S.  Treasury securities that are temporarily precluded from
obligation by law. Certain unobligated balances are restricted for future use and are not apportioned
for current use. Unobligated balances for trust fund accounts are restricted for use by the public law
that established the funds.

Obligated balance not yet disbursed represents funds that have been obligated for goods and services
not received, and those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds,
unavailable receipt accounts, clearing accounts and nonentity FBWT. For DON General Fund (GF),
Nonbudgetary FBWT consists of balances in receipt accounts and clearing accounts.

NonFBWT Budgetary Accounts reduces the Status of FBWT. For DON  GF, NonFBWT Budgetary
Accounts include Trust Fund investments in U.S. Treasury securities, unfilled customer orders without
advance, and reimbursements receivable.




                                                  61
Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
Unobligated, Unavailable balances are restricted to future use and are not apportioned for current
use.

Although funds have been appropriated, expired single year appropriations, such as Operation and
Maintenance and Military Personnel accounts, are not generally available for obligation because the
period for obligation established by law in the applicable appropriation act has lapsed. Multi-year
accounts and “X” or no year accounts are restricted based on their appropriation type. Trust funds and
Earmarked funds are restricted to their intended use.

The DON GF restated the following FY 2009 Status of FBWT lines: Unobligated Balance, Available
by $83.4 million; Unobligated Balance, Unavailable by $60.5 million; and Obligated Balance not yet
Disbursed by $143.9 million. Refer to Note 26, Restatements, for additional details.


Note 4.	Investments and Related Interest
          As of September 30                                                     2010
                                                                             Amortized
                                                         Amortization       (Premium) /                              Market Value
(Amounts in thousands)                       Cost          Method            Discount         Investments, Net        Disclosure
1. Intragovernmental Securities
     A. Nonmarketable, Market-Based
         1. Military Retirement Fund     $           -                  $                 -   $              -   $                  -
         2. Medicare Eligible Retiree
             Health Care Fund                       -                                  -                   -                    -
         3. US Army Corps of Engineers              -                                  -                   -                    -
         4. Other Funds                         9,480                               (30)               9,450                9,453
         5. Total Nonmarketable,
             Market-Based                $      9,480                   $           (30)      $        9,450     $          9,453

    B. Accrued Interest                             15                                    -                15                  15
    C. Total Intragovernmental
       Securities                        $      9,495                   $           (30)      $        9,465     $          9,468

2. Other Investments
    A. Total Other Investments           $           -                  $                 -   $              -   $                  -




                                                     62
          As of September 30                                                     2009
                                                                             Amortized
                                                         Amortization       (Premium) /                              Market Value
(Amounts in thousands)                       Cost          Method            Discount         Investments, Net        Disclosure


1. Intragovernmental Securities
     A. Nonmarketable, Market-Based
         1. Military Retirement Fund     $           -                  $                 -   $              -   $                  -
         2. Medicare Eligible Retiree
             Health Care Fund                       -                                  -                   -                    -
         3. US Army Corps of Engineers              -                                  -                   -                    -
         4. Other Funds                         9,631                               (40)               9,591                9,601
         5. Total Nonmarketable,
             Market-Based                $      9,631                   $           (40)      $        9,591     $          9,601

    B. Accrued Interest                             30                                    -                30                  30
    C. Total Intragovernmental
       Securities                        $      9,661                   $           (40)      $        9,621     $          9,631

2. Other Investments
    A. Total Other Investments           $           -                  $                 -   $              -   $                  -

Intragovernmental Investments for Earmarked Funds
The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and are an asset
to the Department of the Navy (DON) and a liability to the U.S. Treasury. The Federal Government does
not set aside assets to pay future benefits or other expenditures associated with earmarked funds. The
cash generated from earmarked funds is deposited in the U.S. Treasury, which uses the cash for general
Government purposes. Since DON and the U.S. Treasury are both part of the Federal Government,
these assets and liabilities offset each other from the standpoint of the Federal Government as a whole.
For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial
statements.




                                                                                                                                        Fiscal Year 2010 Department of the Navy Annual Financial Report
The U.S. Treasury securities provide DON with the authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When DON requires redemption of these securities
to make expenditures, the Government finances the securities out of accumulated cash balances, by
raising taxes or other receipts, borrowing from the public or repaying less debt, or curtailing other
expenditures. The Federal Government used the same method to finance all other expenditures.

Other Funds (Line 1.A.4) represents DON Trust Fund holdings in interest-bearing securities for the Naval
Academy General Gift Fund and the Navy General Gift Fund. These investments are Nonmarketable
Market-Based U.S. Treasury securities reported at cost, net of amortized premiums and discounts. In
accordance with the Statement of Federal Financial Accounting Standards No. 27, “Identifying and
Reporting Earmarked Funds,” DON Trust Funds are reported as earmarked funds.




                                                     63
Note 5.	Accounts Receivable
                 As of September 30                                                2010
                                                                           Allowance For Estimated    Accounts Receivable,
                                                       Gross Amount Due         Uncollectibles                Net
(Amounts in thousands)

1. Intragovernmental Receivables                   $            394,557                   N/A $                  394,557
2. Nonfederal Receivables (From the Public)                   3,711,724                 (20,241)               3,691,483

3. Total Accounts Receivable                       $          4,106,281 $               (20,241) $             4,086,040

                 As of September 30                                                2009
                                                                           Allowance For Estimated    Accounts Receivable,
                                                       Gross Amount Due         Uncollectibles                Net
(Amounts in thousands)

1. Intragovernmental Receivables                   $            373,313                   N/A $                  373,313
2. Nonfederal Receivables (From the Public)                   3,714,338                (32,389)                3,681,949

3. Total Accounts Receivable                       $          4,087,651 $              (32,389) $              4,055,262

The accounts receivable represent the Department of the Navy’s (DON) claim for payment from other
entities. The DON only recognizes an allowance for uncollectible amounts from the public. Claims
with other federal agencies are resolved in accordance with the Intragovernmental Business Rules.


Note 6.	 Other Assets
                        As of September 30                                2010                       Restated 2009
(Amounts in thousands)

1. Intragovernmental Other Assets
     A. Advances and Prepayments                              $                  263,633 $                       418,505
     B. Other Assets                                                                   -                               -
     C. Total Intragovernmental Other Assets                  $                  263,633 $                       418,505

2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                $              42,042,591 $                     33,239,169
    B. Advances and Prepayments                                                 220,572                          398,856
    C. Other Assets (With the Public)                                            13,345                            9,654
    D. Total Nonfederal Other Assets                          $              42,276,508 $                     33,647,679

3. Total Other Assets                                         $              42,540,141 $                     34,066,184

Nonfederal Other Assets - Outstanding Contract Financing Payments (OCFP)
Contract terms and conditions for certain types of contract financing payments convey certain rights to
the Government that protect the contract work from state or local taxation, liens or attachment by the
contractor’s creditors, transfer of property, or disposition in bankruptcy. However, these rights should
not be misconstrued to mean that ownership of the contractor’s work has transferred to the Federal



                                                  64
Government. The Federal Government does not have the right to take the work, except as provided
in contract clauses related to termination or acceptance, and the Department of the Navy (DON) is
not obligated to make payment to the contractor until delivery and acceptance. Some of the amounts
reported as OCFP may be progress payments based on percentage or stage of completion. However,
DON is unable to identify these due to system limitations and all amounts are reported as OCFP.

The balance of OCFP includes $41.7 billion in contract financing payments and an additional
$380.1 million in estimated future payments to contractors upon delivery and government acceptance
of a satisfactory product. (See additional discussion in Note 15, Other Liabilities).

Nonfederal Other Assets - Other Assets (With the Public)
Other Assets (With the Public) includes advance pay to DON military personnel, travel advances to
military and civilian personnel, and miscellaneous advances to contractors that are not considered
outstanding contract financing payments.

The DON General Fund restated its FY 2009 OCFP balance by $505.6 million. Refer to Note 26,
Restatements, for additional details.


Note 7.	Cash and Other Monetary Assets
                      As of September 30                             2010                 2009
(Amounts in thousands)

1. Cash                                                      $              64,352 $              65,429
2. Foreign Currency                                                         42,925                95,080
3. Other Monetary Assets                                                         -                     -

4. Total Cash, Foreign Currency, & Other Monetary Assets     $              107,277 $            160,509

Cash and Foreign Currency consist primarily of cash held by the Department of the Navy (DON)
Disbursing Officers to carry out their payment, collection, and foreign currency accommodation




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
exchange mission. Foreign Currency is also held in overseas banks in support of contingency operations.
The primary source of the amounts reported is the Disbursing Officers Statements of Accountability.
DON Disbursing Officers are agents of the U.S. Treasury.

Restriction on Cash, Foreign Currency and Other Monetary Assets
Total Cash, Foreign Currency, and Other monetary assets reported are nonentity assets that are not
available for DON’s use in normal operations. Therefore, the $107.3 million in Cash and Foreign
Currency is restricted as to its use.


Note 8.	Direct Loan and Loan Guarantees
Not applicable.




                                                     65
Note 9.	Inventory and Related Property
                      As of September 30                                  2010                          2009
(Amounts in thousands)

1. Inventory, Net                                                 $                     - $                          -
2. Operating Materiel & Supplies, Net                                          62,053,484                   62,424,699
3. Stockpile Materiel, Net                                                              -                            -

4. Total                                                          $            62,053,484 $                 62,424,699

Inventory, Net
Not applicable.

Operating Materiel and Supplies, Net
               As of September 30                                                 2010
                                                                        Revaluation                         Valuation
                                                   OM&S Gross Value     Allowance           OM&S, Net        Method

(Amounts in thousands)


1. OM&S Categories
                                                                                                            SP, LAC,
    A. Held for Use                                $    57,697,650 $                  - $    57,697,650      MAC
                                                                                                            SP, LAC,
    B. Held for Repair                                      6,401,691    (2,045,857)          4,355,834      MAC
    C. Excess, Obsolete, and Unserviceable                  1,328,957    (1,328,957)                    -      NRV
    D. Total                                       $    65,428,298 $     (3,374,814) $       62,053,484

               As of September 30                                                 2009
                                                                        Revaluation                         Valuation
                                                   OM&S Gross Value     Allowance           OM&S, Net        Method
(Amounts in thousands)

1. OM&S Categories
                                                                                                            SP, LAC,
    A. Held for Use                                $    57,668,809 $                  - $    57,668,809      MAC
                                                                                                            SP, LAC,
    B. Held for Repair                                   6,414,636       (1,658,746)          4,755,890      MAC
    C. Excess, Obsolete, and Unserviceable                 809,170         (809,170)                  -        NRV
    D. Total                                       $    64,892,615 $     (2,467,916) $       62,424,699

Legend for Valuation Methods:
LAC = Latest Acquistion Cost		               NRV = Net Realizable Value
SP = Standard Price			                       MAC = Moving Average Cost

General Composition of Operating Materiel and Supplies (OM&S)
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft
configuration pods, and centrally managed aircraft engines. The categories of OM&S are Ammunitions
and Munitions, Principal End and Secondary Items, Sponsor Owned Materiel (SOM), Realtime
Reutilization Asset Management (RRAM) Materiel and Other OM&S.


                                                       66
Ammunition and Munitions are maintained in the Department of the Navy (DON) Ordnance
Information System and valued at latest acquisition cost.

Principal End and Secondary Items include OM&S such as shipboard hull, mechanical and electronic
equipment, and uninstalled aircraft engines. They are items of such importance that central inventory
control is required. They normally possess one of the following characteristics: essential for combat or
training; high dollar value; difficult to procure or produce; or critical basic materiel or components.

SOM is defined as programmatic materiel required in support of Program Managers’ mission
requirements for production, life cycle maintenance, and installation of systems and equipment. The
materiel usage may involve, but is not limited to: item fabrication, assembly, testing, manufacture,
development, repair, or research and development.

Materiel maintained and valued in RRAM is considered excess to the owner, or materiel manager
responsible for the materiel, but may not be excess to DON. Standard price is used to value all stock-
numbered items. Part-numbered items are valued by best available information. Stock-numbered
items represent common items available in the supply system. Part-numbered items are older, unique
items only used in specific types of OM&S.

Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and
War Reserve materiel in possession of the U.S. Coast Guard.

Restrictions on the Use of OM&S
There are no known restrictions on the use of OM&S.

Decision Criteria for Identifying the Category to Which OM&S Is Assigned
The DON General Fund assigns OM&S items to a category based upon the type and condition of the
asset. OM&S Available and Purchased for Resale includes spare and repair parts, clothing and textiles,
and petroleum products. OM&S Held for Repair consists of damaged materiel held as inventory that
is more economical to repair than to dispose. Excess, Obsolete, and Unserviceable OM&S consists of
scrap materiel or items that cannot be economically repaired and are awaiting disposal. Raw Materials




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
consists of items consumed in the production of goods for sale or in the provision of services for a
fee.

Stockpile Materiel, Net
Not applicable.




                                                  67
Note 10.	General PP&E, Net
      As of September 30                                                           2010
                                    Depreciation/                                              (Accumulated
                                    Amortization                                               Depreciation/
(Amounts in thousands)                Method        Service Life       Acquisition Value       Amortization)       Net Book Value


1. Major Asset Classes
    A. Land                            N/A            N/A          $            614,992                  N/A $            614,992
    B. Buildings, Structures, and
        Facilities                      S/L          20 Or 40               36,123,500 $        (21,104,162)           15,019,338
    C. Leasehold Improvements           S/L         Lease term                   6,530               (2,079)                4,451
    D. Software                         S/L          2-5 Or 10                  11,594              (10,921)                  673
    E. General Equipment                S/L           5 or 10               14,979,935           (6,472,441)            8,507,494
    F. Military Equipment               S/L           Various              353,215,833         (161,790,209)          191,425,624
    G. Shipbuilding
        (Construction-in-
        Progress)                      N/A            N/A                                  -                   -                    -
    H. Assets Under Capital
        Lease                           S/L         Lease term                             -                   -                    -
    I. Construction-in-Progress
        (Excludes Military
        Equipment)                     N/A            N/A                    3,717,174                 N/A              3,717,174
    J. Other                                                                 1,214,773                     -            1,214,773
    K. Total General PP&E                                          $       409,884,331 $       (189,379,812) $        220,504,519

      As of September 30                                                           2009
                                    Depreciation/                                              (Accumulated
                                    Amortization                                               Depreciation/
(Amounts in thousands)                Method        Service Life       Acquisition Value       Amortization)       Net Book Value


1. Major Asset Classes
    A. Land                            N/A            N/A          $            576,770                  N/A $            576,770
    B. Buildings, Structures, and
        Facilities                      S/L          20 Or 40               34,992,199 $        (21,019,586)           13,972,613
    C. Leasehold Improvements           S/L         Lease term                   6,530               (1,768)                4,762
    D. Software                         S/L          2-5 Or 10                  11,594              (10,363)                1,231
    E. General Equipment                S/L           5 or 10               11,565,043           (6,152,590)            5,412,453
    F. Military Equipment               S/L           Various              348,505,864         (153,186,170)          195,319,694
    G. Shipbuilding
        (Construction-in-
        Progress)                      N/A            N/A                                  -                   -                    -
    H. Assets Under Capital
        Lease                           S/L         Lease term                             -                   -                    -
    I. Construction-in-Progress
        (Excludes Military
        Equipment)                     N/A            N/A                    3,183,262                 N/A              3,183,262
    J. Other                                                                         -                     -                    -
    K. Total General PP&E                                          $       398,841,262 $       (180,370,477) $        218,470,785

Legend for Valuation Methods:
S/L = Straight Line		       N/A = Not Applicable




                                                             68
Restrictions on the Use or Convertibility of General Property, Plant, & Equipment (PP&E)
The Department of the Navy (DON) has the use of land, buildings, and other overseas facilities that are
obtained through various international treaties and agreements negotiated by the Department of State.
Generally, treaty terms allow DON continued use of these properties until the treaties expire. There
are no other known restrictions on General PP&E.

Accounting Standards for Military Equipment
The DON estimates values for Capitalized Military Equipment using department internal records.
The Capital Asset Management System-Military Equipment (CAMS-ME) is a Department of Defense
(DoD) wide system used to provide DON’s Military Equipment valuations. The DoD identified
the universe of military equipment by accumulating information relating to program funding and
associated military equipment, equipment useful life, program acquisitions, and disposals to establish
a baseline. The military equipment baseline is updated using expenditure, acquisition, and disposals
information.

Other General PP&E consists of Real Property held in Caretaker Status. Caretaker is defined as those
properties that Navy still owns, but which are being held awaiting further disposal action, such as
BRAC property awaiting sale or transfer to another Federal agency.

Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, “Heritage Assets and Stewardship
Land,” requires note disclosures for these types of assets. The DON’s policy is to preserve its heritage
assets, which are items of historical, cultural, educational, or artistic importance.

Heritage assets within DON consist of buildings and structures, archeological sites, and museum
collections. The DON defines these as follows:

    n	    Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on,
          the National Register of Historic Places, including Multi-Use Heritage Assets.
    n	    Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible




                                                                                                                       Fiscal Year 2010 Department of the Navy Annual Financial Report
          for or are listed on the National Historical Places in accordance with Section 110 National
          Historical Preservation Act.
    n	    Museum Collection Items. Items that are unique for one or more of the following reasons:
          historical or natural significance; cultural, educational, or artistic importance; or significant
          technical or architectural characteristics.

The beginning and ending dates for the reported heritage assets are October 1, 2009 and September 30,
2010, respectively:

                                                                         As of                               As of
                                                            Measure    September                           September
Categories                                                  Quantity    30, 2009   Additions   Deletions    30, 2010
Buildings and Structures                                     Each        11,452     11,819            97     23,174
Archaeological Sites                                         Each        19,014        356             -     19,370
Museum Collection Items (Objects, Not Including Fine Art)    Each       566,049     53,401        2,398     617,052
Museum Collection Items (Objects, Fine Art)                  Each        28,955      2,653            6      31,602




                                                      69
The DON’s stewardship land consists mainly of mission essential land acquired by donation or devise.
Fiscal Year Ended September 30, 2009 stewardship land data is not yet available due to limitations
of DON’s financial and nonfinancial management processes and systems that feed into the financial
statements. The DON held the following acres of land as of September 30, 2008.


                                             (acres in Thousands)
  Facility                                 As of September 30,                                     As of September 30,
   Code                Facility Title              2009           Additions        Deletions               2010

 9110        Government Owned Land                           6                 -               -                    6
 9111        State Owned Land                                 -                -               -                     -
 9120        Withdrawn Public Land                     1,986                  43               -               2,029
 9130        Licensed and Permitted Land                     21                -               -                   21
 9140        Public Land                                      -                -               -                     -
 9210        Land Easement                                    -                -               -                     -
 9220        In-Leased Land                                   -                -               -                     -
 9230        Foreign Land                                     -                -               -                     -
                                                                                   Grand Total                 2,056
                                                                      TOTAL - All Other Lands                      27
                                                                    TOTAL - Stewardship Lands                  2,029

Relationship of Heritage Assets to DON’s Mission
The overall mission of DON is to control and maintain freedom of the seas, project power beyond the
sea, and influence events and advance U.S. interests across the full spectrum of military operations. As
this mission has been executed, DON has become a large-scale owner of historic buildings, structures,
districts, archeological sites and artifacts, ships, aircraft, other cultural resources, and several hundred
installations to include stewardship land. Protection of these components of the nation’s heritage
assets and stewardship land is an essential part of DON’s mission; DON is committed to responsible
cultural resources stewardship.

Assets under Capital Lease
Not applicable.




                                                        70
Note 11.	Liabilities Not Covered by Budgetary Resources
                       As of September 30                          2010               Restated 2009
(Amounts in thousands)

1. Intragovernmental Liabilities
     A. Accounts Payable                                   $                   - $                    -
     B. Debt                                                                   -                      -
    C. Other                                                              571,299               449,392
    D. Total Intragovernmental Liabilities                 $              571,299 $             449,392

2. Nonfederal Liabilities
    A. Accounts Payable                                    $              77,278 $               43,148
    B. Military Retirement and Other Federal Employment
       Benefits                                                        1,692,779              1,494,427
    C. Environmental Liabilities                                      19,333,895             18,604,432
    D. Other Liabilities                                               4,550,479              4,524,248
    E. Total Nonfederal Liabilities                        $          25,654,431 $           24,666,255

3. Total Liabilities Not Covered by Budgetary Resources    $          26,225,730 $           25,115,647

4. Total Liabilities Covered by Budgetary Resources        $          11,009,490 $           10,508,919

5. Total Liabilities                                       $          37,235,220 $           35,624,566

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is
needed before budgetary resources can be provided. Budgetary Authority to satisfy these liabilities is
expected to be provided in a future Department of Defense Appropriations Act.

Conversely, Liabilities Covered by Budgetary Resources includes those that are incurred by the
reporting entity, which are covered by realized budgetary resources as of the balance sheet date.




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
Budgetary resources encompass not only new budget authority, but also other resources available to
cover liabilities for specified purposes in a given year.

Realized budgetary resources include:

    n	     New budget authority
    n	     Spending authority from offsetting collections (credited to an appropriation or fund
           account)
    n	     Recoveries of unexpired budget authority through downward adjustments of prior year
           obligations
    n	     Unobligated balances of budgetary resources at the beginning of the year or net transfers of
           prior year balances during the year, and
    n	     Permanent indefinite appropriations or borrowing authority, which have been enacted and
           signed into law as of the balance sheet date, provided that the resources may be apportioned
           by the Office of Management and Budget without further action by the Congress or without
           a contingency first having to be met.


                                                      71
Accounts payable not covered by budgetary resources is related to cancelled year accounts payable
that are not budgeted. Military retirement and other federal employment benefits are future actuarial
liabilities. Environmental liabilities are estimates related to future events, such as cleanup of nuclear
powered assets that will be budgeted for when those assets are removed from service. Finally, other
liabilities for annual leave, estimated legal contingent liabilities, and the disposal of excess structures
are not currently budgeted for but will become funded as future events occur.

Military Retirement and Other Federal Employment Benefits consists of Federal Employees’
Compensation Act (FECA) actuarial liabilities not due and payable during the current fiscal year.
Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details
and disclosures.

Intragovernmental Liabilities – Other (Not Covered by Budgetary Resources) (Line 1.C) consists
primarily of FECA liabilities due to the Department of Labor.

Nonfederal Liabilities – Other (Not Covered by Budgetary Resources) (Line 2.D) consists primarily of
liabilities for annual leave, estimated legal contingencies, and for the disposal of excess and obsolete
structures.

DON GF restated its FY 2009 Total Liabilities Covered by Budgetary Resources balance by $69.9 million.
Refer to Note 26, Restatements, for additional details.


Note 12.	Accounts Payable
               As of September 30                                                  2010
                                                                           Interest, Penalties, and
(Amounts in thousands)                               Accounts Payable       Administrative Fees       Total


1. Intragovernmental Payables                    $           1,657,333 $                     N/A $      1,657,333
2. Nonfederal Payables (to the Public)                       2,682,876                         17       2,682,893
3. Total                                         $           4,340,209 $                       17 $     4,340,226

               As of September 30                                           Restated 2009
                                                                           Interest, Penalties, and
(Amounts in thousands)                               Accounts Payable       Administrative Fees       Total


1. Intragovernmental Payables                    $           1,289,643 $                     N/A $      1,289,643
2. Nonfederal Payables (to the Public)                       2,652,599                         10       2,652,609
3. Total                                         $           3,942,242 $                       10 $     3,942,252

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services
received by the Department of the Navy (DON). The DON General Fund’s accounting systems do
not track intragovernmental transactions by customer at the transaction level. Buyer-side accounts
payable are adjusted to agree with intraagency seller-side accounts receivable. This is accomplished
by reclassifying amounts between federal and nonfederal cost categories, and accruing additional
costs when necessary.

DON GF restated its FY 2009 Nonfederal Payables (to the Public) by $69.0 million. Refer to Note 26,
Restatements, for additional details.



                                                     72
Note 13.	Debt
Not applicable.


Note 14.	Environmental Liabilities
                              As of September 30                                  2010           2009
(Amounts in thousands)

1. Environmental Liabilities–Nonfederal
     A. Accrued Environmental Restoration Liabilities
         1. Active Installations—Installation Restoration Program (IRP) and
             Building Demolition and Debris Removal (BD/DR)                   $    2,464,830 $    2,267,235
         2. Active Installations—Military Munitions Response Program (MMRP)          824,373        895,417
         3. Formerly Used Defense Sites—IRP and BD/DR                                      -              -
         4. Formerly Used Defense Sites–MMRP                                               -              -

    B. Other Accrued Environmental Liabilities—Non-BRAC
        1. Environmental Corrective Action                                    $      77,011 $      127,947
        2. Environmental Closure Requirements                                       553,204        575,754
        3. Environmental Response at Operational Ranges                              14,380         14,035
        4. Asbestos                                                                 206,305         46,784
        5. Non-Military Equipment                                                    78,818         79,667
        6. Other                                                                        810            922

    C. Base Realignment and Closure Installations
        1. Installation Restoration Program                                   $    1,459,029 $    1,588,246
        2. Military Munitions Response Program                                       146,931        107,492
        3. Environmental Corrective Action / Closure Requirements                     33,814         34,071
        4. Asbestos                                                                        -              -
        5. Non-Military Equipment                                                          -              -




                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report
        6. Other                                                                           -              -

    D. Environmental Disposal for Military Equipment / Weapons Programs
        1. Nuclear Powered Military Equipment / Spent Nuclear Fuel            $   13,290,837 $   12,672,448
        2. Non-Nuclear Powered Military Equipment                                          -              -
        3. Other National Defense Weapons Systems                                    183,553        194,414
        4. Other                                                                           -              -

    E. Chemical Weapons Disposal Program
        1. Chemical Demilitarization - Chemical Materials Agency (CMA)        $           - $             -
        2. Chemical Demilitarization - Assembled Chemical Weapons
            Alternatives (ACWA)                                                           -               -
        3. Other                                                                          -               -

2. Total Environmental Liabilities                                            $   19,333,895 $   18,604,432




                                                     73
The unrecognized portion of the estimated total cleanup costs associated with general property, plant,
and equipment was $2.5 billion for Fiscal Year (FY) 2010 and $1.7 billion for FY 2009.

The “Other” type of environmental liabilities under Other Accrued Environmental Costs (Line 1.B.6)
represents an environmental estimate for disposal of Polychlorinated Biphenyls (PCBs) transformers
located at various Naval installations.

In addition to the liabilities reported above, the Department of the Navy (DON) has the potential
to incur costs for restoration initiatives in conjunction with returning overseas Defense facilities to
host nations. The DON is unable to provide a reasonable estimate at this time because the extent of
restoration required is not known.

1. Applicable Laws and Regulations of Cleanup Requirements
The following is a list of significant laws that affect DON’s conduct of environmental policy and
regulations.

    n	   The Comprehensive Environmental Response, Compensation, and Liability Act of 1980,
         commonly referred to as the Superfund legislation
    n	   The Resource Conservation and Recovery Act of 1976 as amended by the Hazardous and
         Solid Waste Amendments of 1984
    n	   The Clean Water Act of 1977, amended the Federal Water Pollution Control Act
    n	   The Atomic Energy Act of 1954
    n	   The Nuclear Waste Policy Act of 1982
    n	   The Low Level Radioactive Waste Policy Amendments Act of 1986
    n	   The National Environmental Policy Act of 1970 (BRAC only)

2. Methods for Assigning Total Cleanup Costs to Current Operating Periods
Accrued Environmental Restoration (Defense Environmental Restoration Program (DERP) Funded
Liabilities).

Active Installations - Environmental Restoration: Accrued restoration (cleanup) liabilities represent the
cost to correct past environmental areas that are funded under the Defense Environmental Restoration
Program in accordance with “Management Guidance for DERP,” and “Environmental and Non-
Environmental Liabilities,” Chapter 13 of Volume 4 of Department of Defense Financial Management
Regulation (DoD FMR). These liabilities relate to Property, Plant, and Equipment, including acquired
land and Stewardship Land, as those major asset categories are described in Chapter 6 of Volume 4 of
DoD FMR. Environmental restoration activities may be conducted at operating installations, and at
Closed, Transferred, and Transferring Ranges. Environmental restoration measurements involve the
use of cost estimates that consider, on a current cost basis, the anticipated costs of the level of effort
required to affect the restoration, as well as applicable legal and/or regulatory requirements. Program
management and support costs are included in the estimates. The estimates are based on DON’s
cost-to-complete (CTC) module of the Normalization of Data System (NORM) and other Verified,
Validated and Accredited (VAA’d) systems. Verification, validation, and accreditation of CTC module
was completed in FY 2002. Such cost estimates are based on the current technology available. The
DON, as the baseline for environmental restoration (cleanup) liability measurement (i.e., the current



                                                   74
cost to acquire the required services), used the site inventory and estimated cost data prepared for FY 09
DERP report to the Congress. The Accrued Environmental Restoration (Cleanup) Costs do not include
the costs of environmental compliance; pollution prevention, conservation activities, contamination,
or spills associated with current operations or treaty obligations, all of which are accounted for as part
of ongoing operations.

The DON Environmental Restoration Program cost estimate was 3,734 Installation Restoration Program
(IRP) and 278 Military Munitions Response Program (MMRP) sites at active installations while those
installations covered by Base Realignment and Closure (BRAC) funding include 208 IRP sites and 32
MMRP sites. In addition, the DON Environmental Corrective Action Program at BRAC installations
includes 31 sites.

Active Installations - Military Munitions Response Program: This area represents the environmental
liabilities associated with the identification, investigation and removal and remedial actions to
address environmental contamination at ranges that were closed prior to September 30, 2002. The
contamination may include munitions, chemical residues from military munitions and munitions scrap
at ranges on active installations that pose a threat to human health or the environment. The amount
reported is the portion of the liability that can be estimated based on site level investigations and
characterizations. The estimate produced is based on site-specific information and use of cost models
validated in accordance with DoD Instruction 5000.61, “DoD Modeling and Simulation, Verification,
Validation, and Accreditation,” of May 2003. CTC is not estimated until there is sufficient site-specific
data available to estimate the total cost to complete for MMRP-eligible sites. However, DON uses the
cost of the study as the estimate until the study is completed. Beginning in FY 2001, DON began an
inventory of closed ranges and transferring ranges and individual restoration sites under the MMRP
or Unexploded Ordnance (UXO) program and completed it in September 2002. Currently there are 278
closed range sites at active installations and 32 MMRP sites at BRAC installations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental liabilities
associated with the Nuclear Powered Aircraft Carriers and Submarines, Other Nuclear Powered Ships,
Conventional Ships, and Spent Nuclear Fuel. During FY 2006, under the DON Financial Improvement
Program (FIP), DON completed a review of the estimating methodology for determining the cost for




                                                                                                             Fiscal Year 2010 Department of the Navy Annual Financial Report
disposal of ships and submarines. This review resulted in an environmental and non-environmental
liability estimate that more accurately reflects the true costs of disposal. The estimating methodology
is based on average cost per class of ship rather than an average applied to all ships regardless of
class.

3. Description of the Types of Environmental Liabilities and Disposal Liabilities
Accrued Environmental Restoration (DERP Funded) Liabilities.
The DON Environmental Restoration includes those sites that have been identified as legacy cleanup
sites. As of 4th Quarter, FY 2010, DON estimated and reported $3.3 billion for environmental
restoration liabilities. This amount is comprised of $2.5 billion in Active Installations-IRP liabilities
and $824.4 million in Active Installations – MMRP liabilities, which represents UXO. The DoD FMR,
Volume 6B, Chapter 10 requires that “any estimate produced must be based on site specific information
and use cost models validated in accordance with DoD Instruction 5000.61.” The DON is supporting
this requirement by continuing to validate its range inventory as well as by pursuing the process of
obtaining valid cost estimates for each range.




                                                   75
Other Accrued Environmental Costs (Non-BRAC funds).
The DON defines Non-BRAC environmental units as those sites associated with on-going operations
such as solid waste management unit cleanup, landfill closure, permitted facilities, removal, replacement,
retro fill, and/or disposal of PCBs transformers, underground storage tank remedial investigation and
closure. As part of the DON FIP efforts, the Navy completed surveying, identifying, and estimating,
Non-BRAC units and began recognizing the estimated environmental liability 1st Quarter, FY 2007.
For FY 2010, the total Other Accrued Environmental Liabilities is $930.5 million.

Base Realignment and Closure.
BRAC environmental sites are environmental sites at DON installations that are or will be closed under
the congressionally mandated BRAC process. For FY 2010, DON estimated and reported $1.6 billion
for BRAC funded environmental liabilities. This amount includes $1.5 billion for IRP, $146.9 million
for MMRP, and $33.8 million for environmental corrective action and closure requirements. MMRP
includes military munitions, chemical residues from military munitions, and munitions scrap at
locations on a BRAC installation.

Environmental Disposal for Weapons Systems Programs.
Environmental Disposal for Weapons Systems are those estimates associated with the environmental
disposal costs for DON Nuclear Weapons Programs that includes Nuclear Powered Aircraft Carriers
and Submarines and Other Nuclear Powered Ships, Conventional Ships, and Spent Nuclear Fuel. The
DON reported an environmental disposal liability for Weapons Systems Programs of $13.5 billion in
FY 2010. This amount includes Nuclear Powered Military Equipment of $10.6 billion, Spent Nuclear
Fuel (Other) of $2.7 billion, and Other Weapons Systems of $183.6 million.

4. Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to
Inflation, Deflation, Technology, or Applicable Laws and Regulations
Estimated environmental liabilities are adjusted for price growth (inflation) and increases in labor
rates and materials. Currently, there are no indications that any of the environmental liabilities for any
category will be adjusted due to deflation. As of FY 2010, there are no changes to the environmental
liability estimates due to changes in laws, regulations, and agreements with regulatory agencies. The
DON does not have any estimates that were changed due to advances in technology.

5. Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate the
Reported Environmental Liabilities
The environmental liabilities for DON are based on accounting estimates, which require certain
judgments and assumptions that are reasonable based upon information available at the time the
estimates are calculated. The actual results may materially vary from the accounting estimates if
agreements with regulatory agencies require remediation to a different degree than when calculating
the estimates. Liabilities can be further affected if investigation of the environmental sites reveals
contamination levels that differ from the estimate parameters.

Overall, DON has a reasonable level of confidence in the estimates recognized on the financial
statements. This reasonable level of confidence in the estimates is because the estimates for DERP/
BRAC programs are based on the CTC module of the NORM System. A verification, validation, and
accreditation were completed by a third party for CTC module of NORM, while the environmental
program managers continue to validate the data.




                                                   76
For the Weapons systems, the environmental program managers base their environmental disposal
estimates on actual costs for similar projects. A change in the overall methodology in weapons systems
reflects a more accurate estimate of what it will cost to dispose of the weapons systems. Given the fact
that the planned date for opening the Department of Energy’s (DOE’s) planned waste repository has
been delayed, there is uncertainty associated with the estimate for spent nuclear fuel. As DOE’s plans
are solidified, DON’s estimates for spent nuclear fuel will change accordingly.

The DON believes that the total current environmental liabilities for BRAC are reasonable, based upon
information available at the time in calculating the estimates. However, as the FY 2005 BRAC closure
activities are implemented over the next several fiscal years, the actual results may vary materially from
the required reportable estimates. The variance will depend on additional information obtained from
planned or ongoing studies of the extent and concentration of site environmental contamination and
based on property disposal requirements to meet community needs. In addition to the possibility of
the estimates changing on current identified sites, DON may incur additional environmental cleanup
and restoration costs if new sites are identified as BRAC activities are implemented.

The DON believes that the current environmental liabilities for Other Accrued Environmental
Liabilities (Non-DERP) for FY 2010 are reasonable, based upon the information available at the time
in calculating the estimates and completing the fence to fence survey. However, as internal controls
are implemented to sustain this effort, changes to some of the estimates could occur. In addition to
the possibility of some of the estimates changing for the current list of identified units, DON may
incur additional units and changes to estimates as the inventory of units are reviewed annually. The
BRAC Program Management Office has been notified that a status change was made in the Other
Environmental Liabilities (OEL) database. BRAC is developing eligibility criteria for the reporting of
these OEL units.




                                                                                                             Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                   77
Note 15.	Other Liabilities
                  As of September 30                                                   2010
(Amounts in thousands)                                     Current Liability     Noncurrent Liability         Total


1. Intragovernmental
     A. Advances from Others                           $             302,441 $                    - $             302,441
     B. Deposit Funds and Suspense Account Liabilities               421,725                      -               421,725
     C. Disbursing Officer Cash                                      109,657                      -               109,657
     D. Judgment Fund Liabilities                                     26,687                      -                26,687
     E. FECA Reimbursement to the Dept. of Labor                     168,025                214,077               382,102
     F. Custodial Liabilities                                      3,481,236                      -             3,481,236
     G. Employer Contribution and Payroll Taxes
         Payable                                                      77,587                            -          77,587
     H. Other Liabilities                                            193,271                            -         193,271

    I. Total Intragovernmental Other Liabilities      $            4,780,629 $              214,077 $           4,994,706

2. Nonfederal
    A. Accrued Funded Payroll and Benefits            $            1,091,417 $                          - $     1,091,417
    B. Advances from Others                                          689,422                            -         689,422
    C. Deferred Credits                                                    -                            -               -
    D. Deposit Funds and Suspense Accounts                                 -                            -               -
    E. Temporary Early Retirement Authority                                -                            -               -
    F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                           8,792                245,247               254,039
         (2) Excess/Obsolete Structures                              105,813                131,335               237,148
         (3) Conventional Munitions Disposal                               -                      -                     -
    G. Accrued Unfunded Annual Leave                               2,904,512                      -             2,904,512
    H. Capital Lease Liability                                             -                      -                     -
     I. Contract Holdbacks                                            77,852                      -                77,852
    J. Employer Contribution and Payroll Taxes
        Payable                                                       70,995                      -                70,995
    K. Contingent Liabilities                                         10,679              1,524,164             1,534,843
    L. Other Liabilities                                              13,314                      -                13,314

    M. Total Nonfederal Other Liabilities             $            4,972,796 $            1,900,746 $           6,873,542

3. Total Other Liabilities                            $            9,753,425 $            2,114,823 $         11,868,248




                                                      78
                  As of September 30                                                      2009
(Amounts in thousands)                                        Current Liability     Noncurrent Liability         Total


1. Intragovernmental
     A. Advances from Others                             $              326,674 $                    - $             326,674
     B. Deposit Funds and Suspense Account Liabilities                  289,564                      -               289,564
     C. Disbursing Officer Cash                                         162,411                      -               162,411
     D. Judgment Fund Liabilities                                             -                      -                     -
     E. FECA Reimbursement to the Dept. of Labor                        152,214                196,915               349,129
     F. Custodial Liabilities                                         3,460,463                      -             3,460,463
     G. Employer Contribution and Payroll Taxes
         Payable
     H. Other Liabilities                                                65,521                      -                65,521
                                                                        133,189                      -               133,189
    I. Total Intragovernmental Other Liabilities         $            4,590,036 $              196,915 $           4,786,951

2. Nonfederal
    A. Accrued Funded Payroll and Benefits               $            1,040,336 $                          - $     1,040,336
    B. Advances from Others                                             689,214                            -         689,214
    C. Deferred Credits                                                    (298)                           -           (298)
    D. Deposit Funds and Suspense Accounts                                    -                            -               -
    E. Temporary Early Retirement Authority                                   -                            -               -
    F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                             3,484                 262,383              265,867
         (2) Excess/Obsolete Structures                                105,559                 598,971              704,530
         (3) Conventional Munitions Disposal                                 -                       -                    -
    G. Accrued Unfunded Annual Leave                                 2,706,765                       -            2,706,765
    H. Capital Lease Liability                                               -                       -                    -
     I. Contract Holdbacks                                             109,884                       -              109,884




                                                                                                                               Fiscal Year 2010 Department of the Navy Annual Financial Report
    J. Employer Contribution and Payroll Taxes
        Payable                                                           2,257                      -                2,257
    K. Contingent Liabilities                                             9,947              1,237,052            1,246,999
    L. Other Liabilities                                                 30,950                      -               30,950

    M. Total Nonfederal Other Liabilities                $           4,698,098 $             2,098,406 $          6,796,504

3. Total Other Liabilities                               $           9,288,134 $             2,295,321 $         11,583,455

Intragovernmental Other Liabilities (Line 1.H) consists primarily of Unemployment Compensation
unfunded liabilities.

Nonfederal Other Liabilities (Line 2.L) is due to a crosswalk issue from Navy Enterprise Resource
Planning to Defense Departmental Reporting System Budgetary and should be corrected during
FY 2011.




                                                         79
Contingent Liabilities includes $380.1 million related to contracts authorizing progress payments
based on cost as defined in Federal Acquisition Regulation (FAR). In accordance with contract terms,
specific rights to the contractors’ work vests with the Federal Government when a specific type of
contract financing payment is made. This action protects taxpayer funds in the event of contract
nonperformance. These rights should not be misconstrued as rights of ownership. The Department of
the Navy (DON) General Fund (GF) is under no obligation to pay contractors for amounts greater than
the amounts authorized in contracts until delivery and government acceptance. Due to the probability
the contractors will complete their efforts and deliver satisfactory products, and because the amount of
potential future payments are estimable, DON GF has recognized a contingent liability for estimated
future payments which are conditional pending delivery and government acceptance.

Total Contingent Liabilities for progress payments based on cost represent the difference between the
estimated costs incurred to date by contractors and amounts authorized to be paid under progress
payments based on cost provisions within the FAR. Estimated contractor-incurred costs are calculated
by dividing the cumulative unliquidated progress payments based on cost by the contract-authorized
progress payment rate. The balance of unliquidated progress payments based on cost is deducted
from the estimated total contractor-incurred costs to determine the contingency amount.

Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions
related to claims for environmental damage, equal opportunity matters, and contractual bid protests,
which may ultimately result in settlements or decisions adverse to the Federal Government. These
proceedings and actions arise in the normal course of operations and their ultimate disposition is
unknown. The DON has accrued contingent liabilities for legal actions where the Office of General
Counsel (OGC) considers an adverse decision probable and the amount of loss is measurable. In the
event of an adverse judgment against the Government, some of the liabilities may be payable from
the U.S. Treasury Judgment Fund. Others may be payable from DON’s resources, either directly or
by reimbursement to the Judgment Fund. The DON records Judgment Fund liabilities in Note 12,
Accounts Payable; and Note 15, Other Liabilities.

For FY 2010, DON General Fund (GF) materiality threshold for reporting litigation, claims, or
assessments is $47.8 million. The DON OGC conducts a review of litigation and claims threatened or
asserted involving DON GF to which the OGC attorneys devoted substantial attention in the form of
legal consultation or representation.

The DON currently has 10 cases that meet the existing FY 2010 DON GF materiality threshold. DON
legal counsel was unable to express an opinion concerning the likely outcome on 7 of 10 cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as
to outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD),
Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed a
methodology to determine an estimate for contingent legal liabilities. DON recognized and disclosed
an estimate for contingent legal liabilities. The methodology considers the likelihood of an unfavorable
outcome or potential liability and provides an overall assessment of all cases currently pending and


                                                  80
not on an individual case basis. The likelihood of an unfavorable or potential liability was determined
by using an average of the data from the current year-to-date and the preceding two years. The total
dollar amount of the cases closed was divided by the total dollar amount claimed in those closed
cases for each of the last two years plus current year, which were then used to calculate the average.
This average is based entirely on historical data and represents the percentage that has historically
been paid on claims. The merits of each individual case have not been taken into consideration. The
estimate for those cases considered reasonably possible to result in an adverse judgment against DON
is $428.2 million. Until sufficient historical data can be collected for the Navy Working Capital Fund,
the DON GF estimate will consider all DON funding sources together.

The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award
fee payments, or dispute resolution, that may result in a future outflow of expenditures. Currently, DON
has limited automated system processes by which it captures or assesses these potential contingent
liabilities; therefore, the amounts reported may not fairly present DON’s contingent liabilities.

The DON GF has recorded in Note 15 a contingent liability in the amount of $156.2 million for Contract
Incentives.




                                                                                                            Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                   81
Note 17. 	Military Retirement and Other Federal
         Employment Benefits
             As of September 30                                                        2010
                                                                    Assumed Interest    (Less: Assets Available to
(Amounts in thousands)                            Liabilities           Rate (%)               Pay Benefits)         Unfunded Liabilities



1. Pension and Health Actuarial Benefits
     A. Military Retirement Pensions          $                 -                       $                      - $                          -
     B. Military Retirement Health Benefits                     -                                              -                            -
     C. Military Medicare-Eligible Retiree
        Benefits                                                -                                              -                            -
     D. Total Pension and Health Actuarial
        Benefits                              $                 -                       $                      - $                          -

2. Other Actuarial Benefits
    A. FECA                                   $      1,692,779                          $                      - $           1,692,779
    B. Voluntary Separation Incentive
       Programs                                              -                                                -                      -
    C. DoD Education Benefits Fund                           -                                                -                      -
    D. Other                                                72                                             (72)                      -
    E. Total Other Actuarial Benefits         $      1,692,851                          $                  (72) $            1,692,779

3. Other Federal Employment Benefits          $                 -                       $                      - $                          -
4. Total Military Retirement and Other
    Federal Employment Benefits:              $      1,692,851                          $                  (72) $            1,692,779

             As of September 30                                                        2009
                                                                    Assumed Interest    (Less: Assets Available to
(Amounts in thousands)                            Liabilities           Rate (%)               Pay Benefits)         Unfunded Liabilities



1. Pension and Health Actuarial Benefits
     A. Military Retirement Pensions          $                 -                       $                      - $                          -
     B. Military Retirement Health Benefits                     -                                              -                            -
     C. Military Medicare-Eligible Retiree
        Benefits                                                -                                              -                            -
     D. Total Pension and Health Actuarial
        Benefits                              $                 -                       $                      - $                          -

2. Other Actuarial Benefits
    A. FECA                                   $      1,494,427                          $                      - $           1,494,427
    B. Voluntary Separation Incentive
       Programs                                              -                                                 -                     -
    C. DoD Education Benefits Fund                           -                                                 -                     -
    D. Other                                                 -                                                 -                     -
    E. Total Other Actuarial Benefits         $      1,494,427                          $                      - $           1,494,427

3. Other Federal Employment Benefits          $                 -                       $                      - $                          -
4. Total Military Retirement and Other
    Federal Employment Benefits:              $      1,494,427                          $                      - $           1,494,427




                                                     82
Federal Employee’s Compensation Act
Actuarial Cost Method Used and Assumptions:
The Department of Navy’s (DON) actuarial liability for workers’ compensation benefits is developed
by the Department of Labor and provided to DON only at the end of each fiscal year.

The estimate for future workers’ compensation (FWC) benefits includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ultimate payments related
to that period. Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the Office of Management and Budget’s economic assumptions for
10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

	       Discount Rates
	       3.653% in Year 1
	       4.300% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors
(consumer price index medical or CPIMs) were applied to the calculation of projected future benefits.
The actual rates for these factors for the charge back year (CBY) 2010 were also used to adjust the
methodology’s historical payments to current year constant dollars. The compensation COLAs and
CPIMs used in the projections for various CBY were as follows:

	       CBY	        COLA	       CPIM
	       2010 	      N/A 	       N/A
	       2011 	      2.23% 	     3.45%
	       2012 	      1.13% 	     3.43%
	       2013 	      1.70% 	     3.64%
	       2014 	      1.90% 	     3.66%
	       2015 	      1.93% 	     3.73%




                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report
The model’s resulting projections were analyzed to insure that the estimates were reliable. The
analysis was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2)
a comparison of the percentage change in the liability amount to the percentage change in the actual
incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case-
severity) in CBY 2010 to the average pattern observed during the most current three charge back years,
and (4) a comparison thereafter of the estimated liability per case in the 2010 projection to the average
pattern for the projections of the most recent three projections.




                                                    83
Note 18. 	Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
                     As of September 30                           2010               Restated 2009
(Amounts in thousands)

1. Intragovernmental Costs                               $           47,048,345 $           44,524,564
2. Public Costs                                                     113,303,648            104,867,358
3. Total Costs                                           $          160,351,993 $          149,391,922

4. Intragovernmental Earned Revenue                      $           (3,633,777) $          (3,343,323)
5. Public Earned Revenue                                             (1,613,218)            (1,437,943)
6. Total Earned Revenue                                  $           (5,246,995) $          (4,781,266)

7. Net Cost of Operations                                $          155,104,998 $          144,610,656

Intragovernmental costs and revenue are related to transactions made between the Department of the
Navy (DON) General Fund (GF) and another federal entity within the Federal Government.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
Government supported by appropriations or other means. The intent of the SNC is to provide
gross and net cost information related to the amount of output or outcome for a given program or
organization administered by a responsible reporting entity. The Department of Defense’s (DoD)
current processes and systems do not capture and report accumulated costs for major programs based
upon the performance measures as required by the Government Performance and Results Act. The
DoD is in the process of reviewing available data and developing a cost reporting methodology as
required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost
Accounting Concepts and Standards for the Federal Government,” as amended by SFFAS No. 30,
“Inter-entity Cost Implementation.”

Public costs and revenue are exchange transactions made between DON GF and a nonfederal entity.

The DON GF’s financial management systems are unable to meet all of the requirements for full accrual
accounting. Many of DON’s financial and nonfinancial feeder systems and processes were designed
and implemented prior to the issuance of generally accepted accounting principles (GAAP) for federal
agencies. Most of DON’s legacy systems were designed to record information on a budgetary basis,
and do not track intragovernmental transactions by customer at the transaction level. Considering
these systems limitations, DON GF is unable to accurately compare its intragovernmental costs and
revenues with the corresponding balances of its intragovernmental trading partners. Buyer-side
accounts payable and expenses were adjusted to match seller-side accounts receivable and revenues.
This is accomplished by reclassifying amounts between federal and public cost categories, and accruing
additional costs when necessary.

In conjunction with the DoD, DON has undertaken efforts to determine the actions required to
bring its financial and nonfinancial feeder systems and processes into compliance with all elements
of GAAP. One such action is the revision of its accounting systems to record transactions based on
the U.S. Standard General Ledger. Until such time as all of DON’s financial and nonfinancial feeder
systems and processes are updated to collect and report financial information as required by GAAP,



                                                 84
DON GF’s financial data will be largely based on budgetary transactions (obligations, disbursements,
and collections), transactions from nonfinancial feeder systems, and adjustments for known accruals
of major items such as payroll expenses, accounts payable, and environmental liabilities.

The DON’s accounting systems generally do not capture information relative to Heritage Assets
separately and distinctly from normal operations.

The DON GF restated its FY 2009 Public Costs by $597.5 million. Refer to Note 26, Restatements, for
additional details.


Note 19.	Disclosures Related to the Statement of Changes
         in Net Position
Appropriations Received on the Statement of Changes in Net Position (SCNP) do not agree with
Appropriations Received on the Statement of Budgetary Resources (SBR) due to differences between
proprietary and budgetary accounting concepts and reporting requirements. The difference of
$27.7  million is due to Trust Funds and Special Receipt Accounts included in the Appropriations
Received line of the SBR. Refer to Note 20 for additional details.

In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues, and expenses) for
intradepartment activity between earmarked and other (nonearmarked) funds are reported on the
same lines. The Eliminations column contains all appropriate elimination entries, which net to zero
within each respective line, except for intraentity imputed financing costs.

Description of Other Lines
Other Financing Sources – Other (Line 5.D) represents net gains and losses recorded in relation to
the capitalization of assets such as Real Property, Construction in Progress, Operating Materiel and
Supplies, and Military Equipment.

Other Adjustments (Line 13.C) represents reductions to budget authority and rescissions in accordance




                                                                                                         Fiscal Year 2010 Department of the Navy Annual Financial Report
with Public Law.

The Department of the Navy General Fund restated the following FY 2009 SCNP lines: Appropriations
Used by $597.5 million; Net Cost of Operations by $597.5 million; Prior Period Adjustments by
$22.9 million; and Unexpended Appropriations by $574.6 million. Refer to Note 26, Restatements, for
additional details.


Note 20.	Disclosures Related to the Statement of
         Budgetary Resources	
                    As of September 30                            2010              Restated 2009

(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period”              $     137,981,530 $          129,930,555
2. Available Borrowing and Contract Authority at the End of
    the Period                                                               -                       -



                                                     85
Apportionment Categories for Obligations Incurred
On the Statement of Budgetary Resources (SBR): Obligations Incurred includes $179.43 billion of Direct
Program Obligations and $11.2 billion of Reimbursable Program Obligations.

On the Report on Budget Execution (SF-133):
    n	 Direct Obligations, Category A, amounts apportioned quarterly, are $106.1 billion.
    n	   Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are
         $73.5 billion.
    n	   Total Direct Obligations are therefore $179.57 billion.
    n	   The $133.4 million difference in direct obligations between the SBR and SF-133 is due to
         adjustments on the SBR to recognize fringe benefits, reclassify reimbursable obligations as
         noted below, and recognize other adjustments not captured in the field accounting systems.
    n	   Category A Reimbursable Obligations are $2.0 million.
    n	   Category B Reimbursable Obligations are $11.2 billion.
    n	   Total Reimbursable Obligations are therefore $11.2 billion.

Other Disclosures
The SBR includes intraentity transactions because the statements are presented as combined.

As noted above, in terms of obligations, differences exist between the SF-133 and the SBR for a number
of reasons; including accruals recorded for fringe benefits, liabilities recorded for the Judgment Fund,
and accruals recorded for trading partner advances and liabilities.

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
Appropriations Received on the Statement of Budgetary Resources (SBR) due to differences between
proprietary and budgetary accounting concepts and reporting requirements. The difference of
$27.7  million is due to Trust Funds and Special Receipt Accounts included in the Appropriations
Received line of the SBR. Refer to Note 19 for additional details.

Legal limitations and restrictions affect the use of the unobligated balance of budget authority based
upon program and fiscal year in the applicable appropriation language or in the alternative provisions
section at the end of the appropriations act.

Permanent, Indefinite Appropriations
The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which
provides for the construction (including design of vessels), purchase, alteration, and conversion of
Department of Defense (DoD) sealift vessels; operation, maintenance, and lease or charter of DoD
vessels for national defense purposes; installation and maintenance of defense features for national
defense purposes on privately owned and operated vessels that are constructed in the United States
and documented under the laws of the United States; research and development relating to national
defense sealift; and expenses for maintaining the National Defense Reserve Fleet, including the
acquisition, alteration or conversion of vessels. For FY 2010, one transfer from NDSF for $16.7 million
to Military Personnel, Navy appropriation was recorded; no transfers to NDSF occurred.

The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds
environmental restoration, reduction, and recycling of hazardous waste, removal of unsafe buildings



                                                  86
and debris, and similar purposes. Funds remain available until transferred and remain available for
the same purpose and same time period as the appropriations to which transferred. For FY 2010, three
transfers from ER, N for $285.5 million to the Operation and Maintenance, Navy appropriation were
recorded; no transfers to ER, N occurred.

The Department of the Navy General Fund restated the following FY 2009 SBR lines: Obligations
Incurred, Direct by $143.9 million; Unobligated Balance, Apportioned by $83.4 million; Unobligated
Balance Not Available by $60.5 million; Obligations Incurred, Net by $143.9 million; and Unpaid
Obligations by $143.9 million. Refer to Note 26, Restatements, for additional details.


Note 21.	Reconciliation of Net Cost of Operations to
         Budget
                           As of September 30                                   2010             Restated 2009
(Amounts in thousands)

Resources Used to Finance Activities:
     Budgetary Resources Obligated:
          1. Obligations incurred                                          $    190,611,070 $        196,873,397
          2. Less: Spending authority from offsetting collections and
               recoveries (-)                                                   (24,286,156)         (32,093,306)
          3. Obligations net of offsetting collections and recoveries           166,324,914          164,780,091
          4. Less: Offsetting receipts (-)                                         (141,386)            (321,451)
          5. Net obligations                                                    166,183,528          164,458,640
     Other Resources:
          6. Donations and forfeitures of property                                     5,258               (667)
          7. Transfers in/out without reimbursement (+/-)                          1,243,648             208,053
          8. Imputed financing from costs absorbed by others                         884,867             779,646
          9. Other (+/-)                                                         (3,959,432)           4,046,453
          10. Net other resources used to finance activities                     (1,825,659)           5,033,485
11. Total Resources Used to Finance Activities                             $    164,357,869 $        169,492,125




                                                                                                                    Fiscal Year 2010 Department of the Navy Annual Financial Report
Resources Used to Finance Items not Part of the Net Cost of Operations:
          12. Change in budgetary resources obligated for goods, services,
              and benefits ordered but not yet provided:
              12a. Undelivered Orders (-)                                   $    (8,050,975) $       (32,725,630)
              12b. Unfilled Customer Orders                                        (606,655)              402,395
          13. Resources that fund expenses recognized in prior periods (-)       (2,110,921)          (2,992,872)
          14. Budgetary offsetting collections and receipts that do not
              affect Net Cost of Operations                                          141,386              321,451
          15. Resources that finance the acquisition of assets (-)              (21,358,668)         (29,671,802)
          16. Other resources or adjustments to net obligated resources
              that do not affect Net Cost of Operations:
              16a. Less: Trust or Special Fund Receipts Related to exchange
                   in the Entity’s Budget (-)                                             -                    -
              16b. Other (+/-)                                                    2,710,529           22,663,745
17. Total resources used to finance items not part of the Net Cost of
    Operations                                                              $   (29,275,304) $       (42,002,713)
18. Total resources used to finance the Net Cost of Operations              $   135,082,565 $        127,489,412




                                                          87
                           As of September 30                                    2010            Restated 2009
(Amounts in thousands)

Components of the Net Cost of Operations that will not Require or
    Generate Resources in the Current Period:
     Components Requiring or Generating Resources in Future Period:
          19. Increase in annual leave liability                             $     1,702,301 $           158,049
          20. Increase in environmental and disposal liability                       819,497             328,512
          21. Upward/Downward reestimates of credit subsidy expense                        -                   -
          22. Increase in exchange revenue receivable from the public (-)          (189,330)                   -
          23. Other (+/-)                                                            699,205              81,906
          24. Total components of Net Cost of Operations that will Require
               or Generate Resources in future periods                       $    3,031,673 $            568,467
     Components not Requiring or Generating Resources:
          25. Depreciation and amortization                                  $    12,292,840 $         9,404,125
          26. Revaluation of assets or liabilities (+/-)                             413,703           1,634,709
          27. Other (+/-)
              27a. Trust Fund Exchange Revenue                                            -                    -
              27b. Cost of Goods Sold                                                     -                    -
              27c. Operating Material and Supplies Used                           4,349,363            5,405,716
              27d. Other                                                           (65,146)              108,227
          28. Total Components of Net Cost of Operations that will not
               Require or Generate Resources                                 $    16,990,760 $        16,552,777
29. Total components of Net Cost of Operations that will not Require or
    Generate Resources in the Current Period                                 $    20,022,433 $        17,121,244
30. Net Cost of Operations                                                   $   155,104,998 $       144,610,656

The Reconciliation of Net Cost of Operations to Budget is designed to provide information about
the total resources used by an entity, to explain how those resources were used to finance orders for
goods and services not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost
of operations. It is designed to report the differences and facilitate the reconciliation of accrual based
amounts used in the Statement of Net Cost (SNC) and obligation-based amounts used in the Statement
of Budgetary Resources. The computations and presentation of items in the Reconciliation of Net Cost
of Operations to Budget demonstrate that the budgetary and proprietary information in an entity’s
financial management system agrees.

Due to the Department of the Navy (DON) financial system limitations, budgetary data do not agree
with proprietary expenses and capitalized assets. Differences between budgetary and proprietary data
are a previously identified deficiency. This causes a difference in net cost between the SNC and the
Reconciliation of Net Cost of Operations to Budget that requires an adjustment to the Reconciliation of
Net Cost of Operations to Budget. For 4th Quarter, FY 2010, an adjustment of $8.0 million was made
to Resources that Finance the Acquisition of Assets so that proprietary accounts reconcile with the
budgetary accounts.

The Reconciliation of Net Cost of Operations to Budget is presented as a consolidated statement.
However, the following lines are presented as combined instead of consolidated due to interagency
budgetary transactions not being eliminated:




                                                        88
Obligations Incurred
Less: Spending Authority from Offsetting Collections and Recoveries
Obligations Net of Offsetting Collections and Recoveries
Less: Offsetting Receipts
Net Obligations
Undelivered Orders
Unfilled Customer Orders

Description of Other Lines
Resources Used to Finance Activities – Budgetary Resources Obligated:
The balance of $(4.0) billion represents net gains and losses recorded in relation to the capitalization of
assets such as Real Property, Construction in Progress, Operating Materials and Supplies, and Military
Equipment.

Resources Used to Finance Items not Part of the Net Cost of Operations:
The balance of $2.7 billion reflects net gains and losses recorded in relation to the net change of the
value of assets such as Military Construction, Ammunition, Real Property, and Shipbuilding and
Conversion.

Components Requiring or Generating Resources in Future Periods:
The balance of $699.2 million consists primarily of accrued expenses for Contingent Legal Liabilities
and FECA.

Components not Requiring or Generating Resources:
The balance of $(65.1) million consists primarily of bad debt expense and expenses not requiring
budgetary resources.

The DON General Fund restated the following FY 2009 Reconciliation of Net Cost of Operations to
Budget lines: (1) Obligations Incurred by $143.9 million; (12a) Undelivered Orders by $718.5 million;
and (16b) Other by $22.9 million. Refer to Note 26, Restatements, for additional details.




                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report
Note 22. 	Disclosures Related to Incidental Custodial
         Collections
Not applicable.




                                                    89
Note 23. Earmarked Funds
                                                                                            2010
                                                                  Medicare Eligible
                                                     Military    Retiree Health Care   Other Earmarked
             BALANCE SHEET                       Retirement Fund        Fund                Funds        Eliminations       Total

As of September 30
(Amounts in thousands)
ASSETS
Fund balance with Treasury                       $             -                 -           25,823                     -    25,823
Investments                                                    -                 -            9,465                     -     9,465
Accounts & Interest Receivable                                 -                 -                -                     -         -
Other Assets                                                   -                 -                -                     -         -
Total Assets                                     $             -                 -           35,288                     -    35,288

LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
    Employment Benefits                          $             -                 -                -                     -          -
Other Liabilities                                              -                 -            1,606                     -      1,606
Total Liabilities                                $             -                 -            1,606                     -      1,606

Unexpended Appropriations                                      -                 -                -                     -         -
Cumulative Results of Operations                               -                 -           33,682                     -    33,682
Total Liabilities & Net Position                 $             -                 -           35,288                     -    35,288


        STATEMENT OF NET COST
For the period ended September 30
Program Costs                                    $             -                 -           20,135                     -    20,135
Less Earned Revenue                                            -                 -                -                     -         -
Net Program Costs                                $             -                 -           20,135                     -    20,135
Less Earned Revenues Not Attributable to
    Programs                                                   -                 -                -                     -         -
Net Cost of Operations                           $             -                 -           20,135                     -    20,135

    STATEMENT OF CHANGES IN NET
             POSITION
For the period ended September 30
Net Position Beginning of the Period             $             -                 -           26,171                     -    26,171
Net Cost of Operations                                         -                 -           20,135                     -    20,135
Budgetary Financing Sources                                    -                 -           27,644                     -    27,644
Other Financing Sources                                        -                 -                2                     -         2
Change in Net Position                           $             -                 -            7,511                     -     7,511

Net Position End of Period                       $             -                 -           33,682                     -    33,682




                                                          90
                                                                                            2009
                                                                  Medicare Eligible
                                                     Military    Retiree Health Care   Other Earmarked
             BALANCE SHEET                       Retirement Fund        Fund                Funds        Eliminations       Total

As of September 30
(Amounts in thousands)
ASSETS
Fund balance with Treasury                       $            -                  -           17,800                     -    17,800
Investments                                                   -                  -            9,621                     -     9,621
Accounts & Interest Receivable                                -                  -                -                     -         -
Other Assets                                                  -                  -                -                     -         -
Total Assets                                     $            -                  -           27,421                     -    27,421

LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
    Employment Benefits                          $            -                  -                -                     -          -
Other Liabilities                                             -                  -            1,250                     -      1,250
Total Liabilities                                $            -                  -            1,250                     -      1,250

Unexpended Appropriations                                     -                  -                -                     -         -
Cumulative Results of Operations                              -                  -           26,171                     -    26,171
Total Liabilities & Net Position                 $            -                  -           27,421                     -    27,421


        STATEMENT OF NET COST
For the period ended September 30
Program Costs                                    $            -                  -           22,279                     -    22,279
Less Earned Revenue                                           -                  -                -                     -         -
Net Program Costs                                $            -                  -           22,279                     -    22,279
Less Earned Revenues Not Attributable to
    Programs                                                  -                  -                -                     -         -




                                                                                                                                       Fiscal Year 2010 Department of the Navy Annual Financial Report
Net Cost of Operations                           $            -                  -           22,279                     -    22,279

    STATEMENT OF CHANGES IN NET
             POSITION
For the period ended September 30
Net Position Beginning of the Period             $            -                  -           24,230                     -    24,230
Net Cost of Operations                                        -                  -           22,279                     -    22,279
Budgetary Financing Sources                                   -                  -           24,215                     -    24,215
Other Financing Sources                                       -                  -                5                     -         5
Change in Net Position                           $            -                  -            1,941                     -     1,941

Net Position End of Period                       $            -                  -           26,171                     -    26,171

Earmarked funds are financed by specifically identified revenues and are required by statute to be
used for designated activities or purposes. The Department of the Navy (DON) has seven earmarked
funds. Four are categorized as Special Funds and three are categorized as Trust Funds. A list of
these earmarked funds and a brief description of each follows below. There have been no changes in



                                                           91
legislation during or subsequent to the reporting period that significantly changes the purpose of any
of the seven funds or that redirects a material portion of the accumulated balances of any of the seven
funds. Generally, revenues for DON’s earmarked funds are inflows of resources to the Government.

Special Earmarked Funds
Wildlife Conservation, Military Reservations, Navy –
This fund, authorized by 16 United States Code 670b, provides for the development and conservation
of fish and wildlife and recreational facilities on military installations. Proceeds from the sale of fishing
and hunting permits are used for these programs at installations charging such user fees. These
programs are carried out through cooperative plans agreed upon by the local representatives of the
Secretary of Defense, the Secretary of the Interior, and the appropriate agency of the State in which the
installation is located.

Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy –
This fund, authorized by 107 Statute 1483, was established to recognize and fulfill the commitments
made on behalf of the United States to the people of Hawaii and to return to the State of Hawaii the
Island of Kaho’olawe. Congress has found it to be in the national interest and an essential element in
the Federal Government’s relationship with the State of Hawaii the conveyance, clearance, or removal
of unexploded ordnance, environmental restoration, control of access to the Island and future use
of the Island be undertaken in a manner consistent with the enhancement of that relationship, the
Department of Defense’s military mission, the federal interest, and applicable provisions of law. This
fund is financed by congressional appropriations.

Rossmoor Liquidating Trust Settlement Account –
The Rossmoor Liquidating Trust account was established by Section 2208 of Public Law 104-106; the
National Defense Authorization Act of 1996. Per the statute, monies awarded the United States when
litigation is settled in favor of the Rossmoor Liquidating Trust is deposited into this account. The
monies are made available to DON solely for the acquisition or construction of military family housing
in, or in the vicinity of, San Diego, California.

Ford Island Improvement Account –
The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was established to
carry out improvements to property and facilities that will deliver overall benefits to DON at the Pearl
Harbor Naval Complex at Ford Island, Hawaii. Ford Island is a central feature in the Pearl Harbor
National Historic Landmark. The Ford Island legislation allows DON to sell or lease properties in
Hawaii and use the proceeds to develop Ford Island.

Trust Earmarked Funds
DON General Gift Fund –
This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute,
the Secretary of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of real
or personal property, made on the condition that it be used for the benefit, or in connection with the
establishment, operation, or maintenance of a school, hospital, library, museum, cemetery, or other
institution under the jurisdiction of DON.




                                                    92
Ships Stores Profit, Navy –
This trust fund is authorized by 10 United States Code 7220. Deposits to this fund are derived from
profits realized through the operation of ships’ stores and from gifts accepted for providing recreation,
amusement, and contentment for enlisted members.

U.S. Naval Academy General Gift Fund –
This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute, the
Secretary of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of personal
property, made on the condition that it is used for the benefit of, or in connection with, the United
States Naval Academy, or the Naval Academy Museum, its collections, or its services.


Note 24.	Fiduciary Activities
              For the period ended September 30                    2010                     2009
(Amounts in thousands)

1. Fiduciary net assets, beginning of year                 $                26,731 $              20,570
2. Fiduciary revenues                                                            -                     -
3. Contributions                                                            39,172                39,680
4. Investment earnings                                                       2,319                 2,211
5. Gain (Loss) on disposition of investments, net                                -                     -
6. Administrative and other expenses                                             -                     -
7. Distributions to and on behalf of beneficiaries                        (39,838)              (35,730)
8. Increase/(Decrease) in fiduciary net assets             $                 1,653 $               6,161

9. Fiduciary net assets, end of period                     $               28,384 $                26,731

              For the period ended September 30                    2010                     2009
(Amounts in thousands)




                                                                                                            Fiscal Year 2010 Department of the Navy Annual Financial Report
Fiduciary Assets
    1. Cash and cash equivalents                           $               28,384 $                26,731
    2. Investments                                                              -                       -
    3. Other Assets                                                             -                       -

Fiduciary Liabilities
    4. Less: Liabilities                                   $                    - $                     -

Total Fiduciary Net Assets                                 $               28,384 $                26,731

The Department of the Navy’s Fiduciary Activity consists of funds in the Savings Deposit Program.
Under 10, USC, §1035, and Department of Defense Financial Management Regulation, Volume 7A,
Chapter 51, deployed service members can earn 10 percent interest on up to $10 thousand deposited
into the program. Funds are held in the program during the member’s tour of duty and are paid out
within 90 days after the member leaves the eligible region. The accounts included in the balance are
17X6025 and 17X6026.




                                                     93
Note 25.	Other Disclosures
            As of September 30                                            2010
(Amounts in thousands)                   Land and Buildings   Equipment          Other             Total


1. Entity as Lessee - Operating Leases
     Future Payments Due
          Fiscal Year
              2010                       $         76,647 $               - $            3,029 $       79,676
              2011                                 78,554                 -              3,104         81,658
              2012                                 80,512                 -              3,182         83,694
              2013                                 82,521                 -              3,261         85,782
              2014                                 84,583                 -              3,343         87,926
              After 5 Years                        85,900                 -              3,360         89,260

Total Future Lease Payments Due          $        488,717 $               - $       19,279 $         507,996


Note 26.	Restatements
As result of the FY 2010 financial audit and management review, the United States Marine Corps
(USMC) General Fund (GF) determined the need to adjust FY 2010 Beginning Balances. The USMC GF
identified six prior period adjustments to ensure the USMC GF Statement Budgetary Resources (SBR)
would be presented accurately and in compliance with laws and regulations.

One adjustment impacted the SBR; the other adjustments were reclassifications of funds that did not
impact the SBR. The total impact to the SBR was a $143.9 million increase to Unobligated balances not
available and a decrease to Unobligated balance, brought forward. This change occurred because the
methodology used to record obligations could not be adequately supported; therefore, management
deobligated the funds.

Four adjustments were posted to record expenses in the proper accounting period. The net effect
of these adjustments was a $574.5 million increase to Delivered Orders-Unpaid and a decrease to
Undelivered Orders-Unpaid. This reclassification had no impact on accounting Unobligated balance,
brought forward; Unpaid obligations, brought forward; or Obligations incurred.

The remaining adjustment of $505.6 million was to reclassify Contract Financing Payments, which were
previously being recorded as Advances instead of being expensed, as normal Cash Disbursements.
The effect on the SBR was to reclassify the status of obligations from Undelivered Orders-Paid to
Delivered Orders-Paid. This had no impact on Unobligated balance, brought forward; Obligations
incurred; or Gross outlays.

The net effect of the Prior Period Adjustments on the SBR is as follows (amounts in millions):




                                                   94
                                 FY 2009 Statement of Budgetary Resources
    Obligations Incurred, Direct                                               $             (143.9)
    Unobligated Balance, Apportioned                                                           83.4
    Unobligated Balance not Available                                                          60.5
Total Status of Budgetary Resources                                            $                   -
Relationship of Obligations to Outlays
    Obligations Incurred, Net                                                  $             (143.9)
    Unpaid Obligations                                                                       (143.9)
    Total Unpaid Obligated Balance, net, end of period                         $             (143.9)

In addition, these adjustments also affected the following Balance Sheet, Statement of Net Cost, and
Statement of Changes in Net Position lines:

                                           FY 2009 Balance Sheet
Other Assets, Nonfederal                                                       $             (505.6)
Total Assets                                                                   $             (505.6)
Accounts, Payable, Nonfederal                                                  $               69.0
Total Liabilities                                                                              69.0
Unexpended Appropriations - Other Funds                                                      (574.6)
Net Position                                                                                 (574.6)
Total Liabilities and Net Position                                             $             (505.6)


                                       FY 2009 Statement of Net Cost
Gross Costs                                                                    $              597.5
Net Cost of Operations                                                         $              597.5

                                FY 2009 Statement of Changes in Net Position
Cumulative Results of Operations
Budgetary Financing Sources:
    Appropriations Used                                                        $              597.5




                                                                                                       Fiscal Year 2010 Department of the Navy Annual Financial Report
Net Cost of Operations                                                                        597.5
Net Change                                                                                        -
Cumulative Results of Operations                                               $                  -
Unexpended Appropriations
Prior Period Adjustments:
    Correction of Errors                                                       $               22.9
Budgetary Financing Sources:
    Appropriations Used                                                                      (597.5)
Unexpended Appropriations                                                      $             (574.6)
Net Position                                                                   $             (574.6)




                                                     95
96
                                                 General Fund Required Supplementary Stewardship Information
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         97
                                              Department of the Navy
                      Investments in Research and Development
                    Yearly Investment in Research and Development
                                         For Fiscal Years 2006 through 2010
                                                      ($ in Millions)
    Categories                                            FY10              FY09             FY08             FY07           FY06
    Basic Research                                    $          552    $          523   $          452   $          448 $          449
    Applied Research                                             752               854              748              781            739
    Development
        Advanced Technology Development                          859               883              752              801            912
        Advanced Component Development and
           Prototypes                                        3,910            3,464            3,329            3,229          3,223
        System Development and Demonstration                 7,325            8,288            8,141            8,731          7,819
        Research, Development, Test, and Evaluation
           Management Support                                1,293            1,245            1,112            1,034          1,022
        Operational Systems Development                      4,505            4,249            3,943            3,810          3,399
    Totals                                            $     19,196      $    19,506      $    18,477      $    18,834 $       17,563

Narrative Statement:

Investments in Research and Development
Investment values are based on Research and Development outlays (expenditures). Outlays are used
because current Department of the Navy (DON) systems are unable to fully capture and summarize
costs in accordance with standards promulgated by the Federal Accounting Standards Advisory
Board.

Research and Development (R&D) programs are classified as Basic Research, Applied Research, and
Development. The definition of each R&D category and subcategory is explained below.

A. Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects
of phenomena and of observable facts without specific applications, processes, or products in mind.
Basic Research involves the gathering of a fuller knowledge or understanding of the subject under
study. Major outputs are scientific studies and research papers.

The following are two representative program examples for the Basic Research category.

	       Ion Tiger
	       The Office of Naval Research (ONR) is converging two separate basic research efforts — unmanned
        aerial vehicles (UAVs) and fuel cell systems — to significantly improve battlefield surveillance
        capability.
	       The Ion Tiger is a hydrogen-powered fuel cell UAV in development at the Naval Research
        Laboratory (NRL), the corporate laboratory of the ONR. Previously flown with battery power,
        the Ion Tiger has demonstrated sound aerodynamics, high functionality, and low-heat and noise
        signatures. Test flights of Ion Tiger have exceeded 24 hours with a 6-pound payload. Tests
        demonstrated how an enduring surveillance solution can operate at a low cost with less possibility
        of detection. The trials exceeded flight duration seven-fold from previous designs.


                                                           98
	   Across the board, the military is seeking quieter and more efficient sources of energy. ONR
    is leading the Navy with support for alternative fuel research, and has been a leader and key
    supporter of fuel cell research for 20 years. By leveraging other ONR research, and cooperating
    with partner agencies, ONR and its partners anticipate success in this mission.
	   Fuel cells create an electric current by converting hydrogen and oxygen into water, making them
    very attractive as energy sources. Fuel cell technology is pollution-free, and expected to deliver
    twice the efficiency of an internal combustion engine. The fuel cell engine runs more quietly but
    with greater endurance than battery-powered systems. The relatively small 550- watt fuel cells
    provide an additional advantage for the UAV.
	   Fuel cell technology allows UAVs to conduct surveillance for longer periods of time, thus reducing
    the number of daily launches to collect data. It saves time and effort for the crew, and ultimately
    results in less wear to the UAV.
    Transparent Urban Structures – Sensing Through Walls
	   ONR is investigating the ability of radar to peer deep within man-made non-metallic structures to
    detect, locate, and identify interior building features, large radar-cross-section objects, personnel,
    and electronic devices. This program is developing new structure-penetrating sensors to enable
    urban situational awareness, force protection, urban activity monitoring, and rescue operations.
	   Through-the-wall sensors use wideband radars in order to provide imagery resolutions on
    the order of one foot or less. Achieving wide bandwidths requires transmitting chirped or
    pulsed waveforms coupled with state-of-the-art wide dynamic range, very high signal-to-noise
    ratio receivers. In addition to advanced sensing hardware, sophisticated algorithms are being
    developed to remove the distorting effects of walls on imagery, generation of three dimensional
    imagery and detection, and classification of metallic objects.
	   These systems are also able to detect personnel within buildings. Sensitive Doppler detection can
    detect not only moving humans, but also stationary individuals and, depending on the noise, can
    even detect individuals by way of their respiration and heartbeat.
	   Characterizing building use is achieved by correlating the human activity and anomalous object
    detection with observing the types and quantities of electronic devices within buildings. Hence,




                                                                                                             Fiscal Year 2010 Department of the Navy Annual Financial Report
    the transparent urban structures system will also be able to map the radio-frequency environment
    within suspect buildings to increase the confidence of building usage estimates.
	   The through-the-wall detection and imaging problem poses significant challenges to development
    of reliable, high probability, low false alarm detection of personnel, objects and building features.
    ONR is making significant headway in advancing this technology into fieldable sensors.

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining
the means by which a recognized and specific need may be met. It is the practical application of such
knowledge or understanding for the purpose of meeting the recognized need. This research points
toward specific military needs with a view toward developing and evaluating the feasibility and
practicability of proposed solutions and determining their parameters. Major outputs are scientific
studies, investigations, and research papers, hardware components, software codes, and limited
construction of, or part of, a weapon system to include nonsystem specific development efforts.




                                                   99
The following are two representative program examples for the Applied Research category.

	   Noise-Induced Hearing Loss
	   The Noise-Induced Hearing Loss (NIHL) Program creates the capability to prevent and treat NIHL
    and tinnitus, the two largest disabilities reported by the Veterans Administration. For active duty
    military, reduced hearing also impacts readiness, survivability and effectiveness in the field.
	   Acoustic trauma is prevalent in military populations, often resulting in sensory-neural hearing
    loss from damage to the cochlea or neural structures of the inner ear. The Department of Veterans
    Affairs reports that noise-induced hearing loss and tinnitus (ringing in the ears) are currently the
    two largest disability categories for compensation, and continue to increase. Performance issues
    associated with communications are degraded in high noise environments and can compromise
    mission effectiveness.
	   Advances in hearing protection and restoration span a wide range of current technologies,
    including but not limited to, engineering solutions to quiet noise at the source, materials solutions
    to improve personal protective equipment and dampening effects, and scientific and medical
    breakthroughs.
	   The ONR NIHL Program is working on specific technologies including short-term solutions
    (applied research) and long-term initiatives (basic research) that span training and education,
    noise mitigation and protection, and medical technologies.
	   Prevention and treatment of noise-induced hearing loss will ensure naval warfighters have
    enhanced readiness and mission capability, as well as an improved quality of life.
	   Cyber Security
	   Cyberspace is “an unconstrained interaction space enabled by the convergence of multiple
    disciplines, technologies, and global networks.” It is also an emerging battlespace in which the
    Navy must exercise information dominance, total control of information and knowledge in transit,
    at rest, and in processing while denying these capabilities to an adversary. Cyber security is an
    essential component of information dominance in cyberspace.
	   ONR basic and applied research in cyber security is creating capabilities required for configuring
    and securing computing and networking infrastructure supporting cyberspace operations,
    and defending information within our cyberspace domains from potential attacks. This work
    is enhancing the security aspect of information system infrastructure: software, hardware, and
    networks.
	   Cyber security is a major research focus involving multiple disciplines and technologies. This
    program addresses information security issues, starting from the root of most security breaches,
    with the goal of achieving robustness, and correctness of the underlying hardware and software
    of the system itself thereby minimizing potential attack surfaces. Interaction among computer
    processes within the network as well as between users and computers are weak links in cyber
    security. This program addresses this weakness through the trusted networked computer thrust
    and the secure information management, sharing and interaction thrust.




                                                 100
	   The foundation and methodology for evaluating security properties of cyberspace’s protocols
    and processes are also investigated to better measure, verify and assess the collective security of
    cyberspace.
	   Networked, tightly interacting and cooperating physical and computing devices are part of
    the Navy cyber infrastructure. This research addresses the need for assuring cyber physical
    information integrity and trust boundary among tightly interacting and co-operating devices.
	   Finally, looking forward into the future to a candidate for replacing current underlying cyberspace
    technology, this program is investing in quantum information science for computation and
    communication. The program is also quantum processing promises techniques that potentially
    offer a more secure system.

C. Development
Development takes what has been discovered or learned from basic and applied research and uses it to
establish technological feasibility, assessment of operability, and production capability. Development
is comprised of five stages, as defined below.

    1. 	 Advanced Technology Development is the systematic use of the knowledge or understanding
         gained from research directed toward proof of technological feasibility and assessment of
         operational and production rather than the development of hardware for service use. It
         employs demonstration activities intended to prove or test a technology or method.
    2. 	 Advanced Component Development and Prototypes evaluates integrated technologies in as
         realistic an operating environment as possible to assess the performance or cost reduction
         potential of advanced technology. Programs in this phase are generally system specific.
         Major outputs of Advanced Component Development and Prototypes are hardware and
         software components or complete weapon systems ready for operational and developmental
         testing and field use.
    3. 	 System Development and Demonstration concludes the program or project and prepares it for
         production. It consists primarily of preproduction efforts, such as logistics and repair studies.
         Major outputs are weapons systems finalized for complete operational and developmental




                                                                                                             Fiscal Year 2010 Department of the Navy Annual Financial Report
         testing.
    4. 	 Research, Development, Test, and Evaluation Management Support is support for installations
         and operations for general research and development use. This category includes costs
         associated with test ranges, military construction maintenance support for laboratories,
         operation and maintenance of test aircraft and ships, and studies and analyses in support of
         the Research and Development program.
    5. 	 Operational Systems Development is concerned with development projects in support of
         programs or upgrades that are still in engineering and manufacturing development. These
         projects have received approval for production, for which production funds have been
         budgeted in subsequent fiscal years.

The following are representative program examples for the Development category, which include two
examples for the U.S. Marine Corps.




                                                  101
	   Free Electron Laser
	   The Free Electron Laser (FEL) is an Innovative Naval Prototype (INP) program and will provide
    Naval platforms with a highly effective and affordable point defense capability against surface
    and air threats, future anti-ship cruise missiles and swarms of small boats. Utilization of FEL also
    allows an unlimited magazine with speed-of-light delivery.
	   The Free Electron Laser generates high intensity laser light by utilizing the energy from unbound
    accelerated high energy electrons. This technology is commonly used in the Department of
    Energy’s (DOE) particle colliders for basic sub-atomic research. The Free Electron Laser program
    is an investment by the Office of Naval Research to transition the accelerator technology from
    particle colliders to a future ship self defense weapon system.
	   The Navy’s future Free Electron Laser (FEL) weapon system is being designed to be a game
    changing system. The capability of having speed-of-light delivery for a wide range of missions
    and threats is a key element of a future shipboard layered defense.
	   The program will demonstrate scalability of the necessary FEL physics and engineering for an
    eventual megawatt-class device. It will focus on the design, development, fabrication, integration
    and test of a 100-kW class FEL device. Future needs for ship integration and beam control are
    being considered.
	   This revolutionary technology allows for multiple payoffs to the warfighter. The ability to control
    the strength of the beam provides for graduated lethality, and the use of light vice an explosive
    munition provides for low per engagement and life cycle costs. FEL will provide an effective
    alternative to using expensive missiles against low value targets.
	   Large Displacement Unmanned Undersea Vehicle
	   The Large Displacement Unmanned Undersea Vehicle (LDUUV) is an unmanned vehicle that
    enables persistent sensing of the oceans to increase the influence and capability of the Navy. Its
    large displacement design will enable deployment and delivery of multiple smaller UUVs for
    expanded capability.
	   The LDUUV Program will develop fully autonomous long endurance land-launched UUVs
    capable of operating in the near-shore, littoral environment to extend and augment current Navy
    platform capability.
	   A key challenge in this program is development of long-endurance UUV power. The LDUUV
    program supports technology development in UUV power, which includes advanced air
    independent energy systems and autonomy to enable months of operations and sensing.
	   New energy sources for UUVs will increase the current energy density 5-10 times, allow for quick
    recharge or refueling, operate at an acceptable cost level, and enable pier-to-pier operation with
    months of endurance.
	   Autonomy will enable the LDUUV to automatically monitor its health, execute mission plans,
    and operate in a littoral environment.
	   Expeditionary Fighting Vehicle Program
	   The Expeditionary Fighting Vehicle (EFV) Program will field a successor to the Marine Corps’
    current amphibious vehicle, the Assault Amphibious Vehicle Model 7A1 (AAV7A1). The EFV
    will provide the principal means of tactical surface mobility for the Marine Air Group Task Force
    during both ship-to-objective maneuvers and sustained combat operations ashore.




                                                 102
	   The EFV program is an Acquisition Category-1D program managed by the Marine Corps. The
    EFV is the next generation of Marine Corps Assault Vehicles being developed to satisfy the
    requirements of the 21st Century Marine War Fighters. Along with the Landing Craft Air Cushion
    and the MV-22 Osprey, the EFV will provide the Marine Corps with the tactical mobility assets
    required within the Expeditionary Maneuver Warfare capstone. Acquisition of the EFV is critical
    to the Marine Corps.
	   During FY 2010, the EFV program continued engineering and logistics efforts to support design
    development, manufacturing planning, and design enhancements of both the EFV Command
    and Personnel variants. The program continued developmental and reliability test support as
    well as the design, integration and testing of vehicle modifications that will support the Milestone
    C Operational Assessment.
	   As assembly concluded, the System Development Demonstration (SDD-2) prototype vehicles
    completed Acceptance Testing and Contractor Verification Testing. Following completion of
    these tests, the vehicles were delivered to the Government to commence Developmental testing.
    Developmental testing was conducted on both modified SDD-1 vehicles and SDD-2 vehicles in
    preparation for Reliability Growth Testing, which will start in early FY 2011, and the Milestone C
    Operational Assessment later in FY 2011.
	   Efforts continued on the SDD-2 contract. This follow-on SDD Phase includes continued design,
    development, and reliability upgrades; increased reliability testing; modification of existing SDD
    prototypes; and manufacture and testing of seven additional SDD prototype vehicles.
	   Joint Light Tactical Vehicle
	   The Joint Light Tactical Vehicle (JLTV) is a joint U.S. Army/U.S. Marine Corps program, with
    participation from the Australian Army. The JLTV family of vehicles consists of ten configurations
    with companion trailers capable of performing multiple mission roles. JLTV’s capabilities
    represent a shift to adapt from a threat based, Cold War garrison force focused on containment
    to a capabilities-based, expeditionary force focused on flexibility, survivability, force protection,
    responsiveness, and agility. The JLTV family of vehicles must be capable of operating across a
    broad spectrum of terrain and weather conditions. The Military Services and the U.S. Special
    Operations Command require enhanced capabilities, greater than those provided by the existing




                                                                                                            Fiscal Year 2010 Department of the Navy Annual Financial Report
    High Mobility Multipurpose Wheeled Vehicle, to support the Joint Functional Concepts of
    Battlespace Awareness, Force Application, and Focused Logistics. The initial production of JLTVs
    will provide the Marine Air Group Task Force commander a family of tactical wheeled vehicles
    capable of providing combat forces protected, sustained, and netted mobility in irregular warfare
    operations and enhancing its contribution to the integrated Joint Task Force.
	   The JLTV program is in the Technology Development (TD) phase. In October 2008, the JLTV
    program office awarded three TD phase contracts. During fiscal year (FY) 2009, the JLTV program
    office awarded contracts for the incorporation of additional right-hand operations versions
    because the Australian Army joined the program in January 2009. The additional test assets from
    each contractor benefits the U.S. by further reducing schedule risk, performance risk, and U.S. test
    costs, as well as improving the quality and depth of data from the TD phase.
	   During FY 2010, major activities included the successful completion of Critical Design and Test
    Readiness Reviews with each vendor, the delivery of ballistic hulls and 21 prototype vehicles, as
    well as the commencement of Government test and evaluation activities. The Army and Marine
    Corps Combat Developers also conducted Quarterly Knowledge Point reviews to evaluate
    the state of program requirements and to incorporate lessons learned from the TD phase, in



                                                  103
    order to establish vehicle requirements that balance affordability with protection, payload, and
    performance, within a transportable platform.

Non-Federal Physical Property
The DON General Fund does not fund this type of Activity.




                                               104
                                                 General Fund Required Supplementary Information
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         105
                                                         Department of the Navy
                           General Property, Plant, and Equipment
                       Real Property Deferred Maintenance and Repair
                                              For Fiscal Year Ended September 30, 2010
                                                                 ($ in Thousands)
                                                                                                2. Required Work
                                                                       1. Plant Replacement   (Deferred Maintenance
Property Type                                                                  Value               and Repair)                3. Percentage
Category 1: Enduring Facilities
Navy                                                               $          135,190,000 $             38,010,000                       28.1%
Marine Corps                                                       $           43,466,090 $              1,103,421                        2.5%
Category 2: Excess Facilities or Planned for
   Replacement
Navy                                                               $             2,340,000 $             1,170,000                       50.0%
Marine Corps                                                       $               859,028 $                     0                        0.0%
Category 3: Heritage Assets
Navy                                                               $                     0 $                     0                            0.0%
Marine Corps                                                       $             4,317,525 $               109,603                            2.5%

NOTE: In the table above, Navy real property deferred maintenance and repair data represent both Department of the Navy General Fund and Navy
Working Capital Fund (NWCF). Similarly, Marine Corps real property deferred maintenance and repair data represent both the United States Marine
Corps General Fund and NWCF-Marine Corps.


Narrative Statement:

1. The method used to assess Navy facilities condition is a combination of commercial Infrastructure
Condition Assessment Program software and facilities inspection. The method used to assess
Marine Corps facilities condition is a facilities inspection, which categorizes buildings as Adequate,
Substandard, or Inadequate. The Department of the Navy (DON) calculates quality rating (Q-rating)
using the formula below.

                                                   Q = 1 - (Requirements ) X 100
                                                               PRV

DON’s Q-rating is represented by the following bands: 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and
less than 60% Q4.

2. The Navy models the “Requirements” value in the above formula from the condition rating and
configuration rating. The condition rating is a measure (0 -100) of an asset’s physical condition at a
particular point in time. The Navy uses condition modeling software to capture condition assessment
data to model system/component condition ratings. The condition assessment data is supplemented
by eyes-on condition assessments that capture accurate facility components and confirm as-built
condition. The condition assessment program has not been expanded to include utility systems yet.
Therefore, the condition ratings are inaccurate and the deferred maintenance and repair backlog is
understated for utility systems.

The configuration rating is a measure (0 - 100) of the asset’s capability to support the current occupant
or mission with respect to functionality. The configuration rating is calculated in the internet Navy
Facility Assets Data Store (iNFADS) from an algorithm that weights configuration deficiency codes
(code compliance, functional/space criteria, location/siting criteria or inadequate capacity/coverage)


                                                                        106
collected during Asset Evaluations. Deficiency codes identify impacts to the suitability of spaces for
their intended use, including obsolescence of facility components that do not meet new standards.

3. The fiscal year 2010 target Q-rating value representing full investment requirement for the Navy
is Q1. The DON follows the Office of the Secretary of Defense installation strategic plan goal of
having facilities at a Q2 level on average as an acceptable rating. The table above shows that deferred
maintenance for the Navy is valued at 28.1%, 50.0%, and 0.0% of plant replacement value (PRV) for
categories 1 through 3, respectively. The deferred maintenance and repair estimates are based on the
facility Q-ratings found in the Navy’s real property inventory.

The table above also shows that deferred maintenance for the Marine Corps is valued at approximately
2.5% of PRV for categories 1 and 3. The percentage for category 1 and 3 facilities is the same because
Marine Corps cannot separate the deferred maintenance between those categories at this time.
Category 2 is zero because the Marine Corps does not hold deferred maintenance backlogs on facilities
to be demolished.

4. Navy used the Facility Readiness Evaluation System (FRES) application to generate the Deferred
Maintenance and Repair Report. FRES is updated with iNFADS data on a weekly basis and at the end
of the fiscal year. The PRV and deferred maintenance and repair estimates for all three categories are
reported for Commander, Navy Installations Command installations only, and only the Maintenance
Fund Sources listed below are included. Facilities maintained by the Bureau of Medicine and Surgery,
defense agencies, and Family Housing, Navy are excluded from the estimates.

    n	   Operation and Maintenance, Navy
    n	   Operation and Maintenance, Navy Reserve
    n	   Research, Development, Test, and Evaluation
    n	   Navy Working Capital Fund

5. Category 1 excludes Navy facilities assigned an Excess Action Code or identified as a single-use




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
Heritage Asset in iNFADS. Category 2 represents Navy facilities assigned an Excess Action Code in
iNFADS. Category 3 includes Navy facilities that are single-use Heritage Assets. iNFADS does not
identify any Navy facilities as single-use Heritage Assets; therefore, the amounts recorded for this
category are zero.

Description of Property Type categories:
    n	 Category 1 – Buildings, Structures, and Utilities that are enduring and required to support an
          ongoing mission, including multi-use Heritage Assets.
    n	   Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned
         for replacement or disposal, including multi-use Heritage Assets.
    n	   Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.




                                                  107
                                            Department of the Navy
                     Military Equipment Deferred Maintenance
                                 For Fiscal Year Ended September 30, 2010
                                                 ($ in Thousands)
                Major Category                          OP30 Amounts            Adjustments         Totals
1. Aircraft                                        $                168,511 $          (63,730) $        104,781
2. Automotive Equipment                                              25,193               9,252           34,445
3. Combat Vehicles                                                   72,183             53,588           125,771
4. Construction Equipment                                             1,373              3,570             4,943
5. Electronics and Communications Systems                               190             36,986            37,176
6. Missiles                                                          60,713             43,505           104,218
7. Ships                                                             23,561                  -            23,561
8. Ordnance Weapons and Munitions                                    16,108             44,529            60,637
9. General Purpose Equipment                                              -                  -                 -
10. All Other Items Not Identified Above                             96,233             28,475           124,708
Total                                              $                464,065 $          156,175 $         620,240

Narrative Statement:

Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance (active
and reserve), engine rework and maintenance (active and reserve), component repair, and software
maintenance. The airframe rework deferred maintenance calculation reflects unfunded requirements,
which represent aircraft that failed Aircraft Service Period Adjustment (ASPA) inspections or reached
fixed Period End Date (PED) at year-end. The engine rework deferred maintenance calculation reflects
year-end actual requirements minus actual funded units. Component repair deferred maintenance
represents the difference between the validated requirements minus corresponding funding.

Airframe rework and maintenance (active and reserve) is currently performed under both the
Standard Depot Level Maintenance (SDLM) and Integrated Maintenance Concept (IMC) programs.
Currently, the AV-8B, C-130, C-2, E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, P-3, and S-3
aircraft programs have been incorporated under the IMC concept. The IMC concept uses Planned
Maintenance Intervals (PMI), performing more frequent depot maintenance, but with smaller work
packages, thereby reducing out-of-service time. The goal of this program is to improve readiness
while reducing operating and support costs. The Naval Air Systems Command’s (NAVAIR) Industrial
Strategy is to maintain the minimum level of organic capacity, consistent with force levels, that is
necessary to sustain peacetime readiness and maintain fighting surge capability. NAVAIR works in
partnership with private industry to make maximum use of industry’s production capabilities and for
non-core related aviation depot maintenance.

Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine
Corps assets. The combat vehicle category consists of weapons systems such as the M1A1 Tank, the
Amphibious Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The
total requirement is the planned quantity of combat vehicles that require depot level maintenance in
a year as determined by program managers and the operating forces with requirements validated by




                                                       108
a modeling process. The deferred maintenance is the difference between the validated requirements
and funding received for that fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software
maintenance, and other. Deferred maintenance is defined as the difference between the total weapon
maintenance requirement as determined by requirements modeling processes and the weapon
maintenance that is funded in accordance with the annual budget controls for the missile maintenance
program. The maintenance requirements model projects the quantity of missiles and missile
components per weapon system that are required to be maintained or reworked annually.

Ships Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the
Current Ships’ Maintenance Plan (CSMP) database, which captures maintenance actions at all
levels (organizational, intermediate, depot) for active and reserve ships. Only depot level deferred
maintenance is provided in the calculation of ship deferred maintenance. This includes maintenance
actions deferred from actual depot maintenance work-packages as well as maintenance deferred before
inclusion in a work package due to fiscal, operational, or capacity constraints. Although there are some
deferred maintenance actions, no ships fall into the category of “unacceptable operating condition.”
Any ship that would be at risk of being in unacceptable operating condition would receive priority for
maintenance funding to maintain acceptable operating condition.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems. This
category is comprised of ordnance, end item maintenance for support equipment, camera equipment,
landing aids, calibration equipment, air traffic control equipment, target systems, expeditionary
airfield equipment, special weapons, target maintenance, and repair of repairable components. Three
categories define ordnance maintenance: ordnance maintenance, software maintenance, and other.
Although the various programs vary in the methodology in defining requirements, all programs define
deferred maintenance as the difference between validated requirements and funding.




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
Deferred Maintenance on All Other Items Not Identified Above
This category comprises deferred maintenance for software, radar equipment, arrest gear, lighting
and surfacing equipment, and EFTM (external fuel transfer module). The deferred maintenance is the
difference between the validated requirements and funding received for that fiscal year.

Software maintenance includes the operational and system test software that runs in the airborne
avionics systems (e.g., mission computer, display computer, radar) and the software that runs the
ground-based support labs used to perform software sustainment (e.g., compilers, editors, simulation,
configuration management).

Heritage Assets Condition Information
The methodology used to report the condition of the heritage assets was a combination of visual
assessment of the objects, historic value to the DON collection, and general display and storage
standards for historic collections. The overall condition of the collection objects is good.




                                                  109
                                Department of Defense • Department of the Navy General Fund
                            Statement of Disaggregated Budgetary Resources
                                                                 Research,
                                                            Development, Test &                                                   Family Housing &
For the periods ended September 30, 2010 and 2009               Evaluation            Procurement           Military Personnel   Military Construction

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1             $       2,622,524     $     18,735,372      $            570,584     $        2,870,677
Recoveries of prior year unpaid obligations                           683,617            4,967,781                 3,302,535              2,143,901
Budget authority
     Appropriation                                                20,106,958            48,523,145                46,395,894              3,806,446
     Borrowing authority                                                   -                     -                         -                      -
     Contract authority                                                    -                     -                         -                      -
     Spending authority from offsetting collections
          Earned
               Collected                                               381,603              815,442                  371,289              1,115,263
               Change in receivables from Federal sources                2,378               15,174                  (43,520)               (38,598)
          Change in unfilled customer orders
               Advance received                                      (25,804)                     -                      (66)               (36,625)
               Without advance from Federal sources                    6,715               (88,739)                   (2,471)              (500,091)
          Anticipated for rest of year, without advances                    -                     -                         -                      -
          Previously unavailable                                            -                     -                         -                      -
          Expenditure transfers from trust funds                            -                     -                         -                      -
     Subtotal                                                     20,471,850            49,265,022                46,721,126              4,346,395
Nonexpenditure transfers, net, anticipated and actual                (50,611)            1,535,984                   695,779              (250,613)
Temporarily not available pursuant to Public Law                            -                     -                         -                      -
Permanently not available                                          (265,716)             (687,854)                   (64,221)             (164,633)
Total Budgetary Resources                                   $     23,461,664      $     73,816,305      $         51,225,803     $        8,945,727

Status of Budgetary Resources:
Obligations incurred:
      Direct                                                $     20,311,792      $     45,889,976      $         50,434,292     $        3,320,373
      Reimbursable                                                   373,757               869,524                   375,116              2,938,665
      Subtotal                                                    20,685,549            46,759,500                50,809,408              6,259,038
Unobligated balance:
      Apportioned                                                  2,531,197            26,421,734                    45,766              2,613,873
      Exempt from apportionment                                            -                     -                         -                      -
      Subtotal                                                     2,531,197            26,421,734                    45,766              2,613,873
Unobligated balance not available                                    244,918               635,071                   370,629                 72,816
Total status of budgetary resources                         $     23,461,664      $     73,816,305      $         51,225,803     $        8,945,727
Change in Obligated Balance:
Obligated balance, net
      Unpaid obligations, brought forward, October 1        $       9,606,247     $     62,486,021      $          1,840,661     $        5,343,466
      Less: Uncollected customer payments
      from Federal sources, brought forward, October 1              (246,397)             (294,064)                 (39,990)            (1,594,129)
      Total unpaid obligated balance                               9,359,850            62,191,957                1,800,671              3,749,337
Obligations incurred net (+/-)                                    20,685,548            46,759,500               50,809,408              6,259,037
Less: Gross outlays                                              (19,557,071)          (44,782,867)             (46,653,892)            (3,966,993)
Obligated balance transferred, net
      Actual transfers, unpaid obligations (+/-)                             -                      -                        -                      -
      Actual transfers, uncollected customer
      payments from Federal sources (+/-)                                   -                     -                         -                     -
      Total Unpaid obligated balance transferred, net                       -                     -                         -                     -
Less: Recoveries of prior year unpaid obligations, actual           (683,617)           (4,967,781)               (3,302,535)           (2,143,901)
Change in uncollected customer                                        (9,093)               73,565                    45,991               538,690
      payments from Federal sources (+/-)
Obligated balance, net, end of period
      Unpaid obligations                                          10,051,107            59,494,873                 2,693,642              5,491,609
      Less: Uncollected customer payments (+/-)
      from Federal sources (-)                                      (255,489)            (220,499)                     6,001            (1,055,440)
      Total, unpaid obligated balance, net, end of period           9,795,618           59,274,374                 2,699,643             4,436,169
Net Outlays
Net Outlays:
      Gross outlays                                               19,557,071            44,782,867                46,653,892             3,966,993
      Less: Offsetting collections                                 (355,799)             (815,442)                 (371,223)            (1,078,638)
      Less: Distributed Offsetting receipts                                -                     -                         -                      -
Net Outlays                                                 $     19,201,272      $     43,967,425      $         46,282,669     $       2,888,355




                                                                 110
                                Department of Defense • Department of the Navy General Fund
                            Statement of Disaggregated Budgetary Resources
                                                                       Operations, Readiness
For the periods ended September 30, 2010 and 2009                           & Support              2010 Combined           2009 Combined

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                        $        2,249,205      $       27,048,361      $       28,028,796
Recoveries of prior year unpaid obligations                                     5,002,043              16,099,877              24,029,026
Budget authority
     Appropriation                                                            55,134,659             173,967,102             165,257,844
     Borrowing authority                                                               -                       -                       -
     Contract authority                                                                -                       -                       -
     Spending authority from offsetting collections
          Earned
               Collected                                                        6,170,282               8,853,881               7,806,105
               Change in receivables from Federal sources                           3,619                (60,947)               (144,220)
          Change in unfilled customer orders
               Advance received                                                    38,472                (24,024)                 323,916
               Without advance from Federal sources                                 1,956               (582,631)                  78,479
          Anticipated for rest of year, without advances                                -                       -                       -
          Previously unavailable                                                        -                       -                       -
          Expenditure transfers from trust funds                                        -                       -                       -
     Subtotal                                                                 61,348,988             182,153,381             173,322,124
Nonexpenditure transfers, net, anticipated and actual                             658,601              2,589,140               1,711,873
Temporarily not available pursuant to Public Law                                        -                      -0                       -
Permanently not available                                                     (1,094,591)             (2,277,014)             (3,170,061)
Total Budgetary Resources                                              $      68,164,246       $     225,613,745       $     223,921,758

Status of Budgetary Resources:
Obligations incurred:
      Direct                                                           $      59,477,678       $     179,434,110       $     186,657,507
      Reimbursable                                                             6,619,899              11,176,960              10,215,890
      Subtotal                                                                66,097,577             190,611,070             196,873,397
Unobligated balance:
      Apportioned                                                                192,429              31,804,999              23,983,393
      Exempt from apportionment                                                        -                       -                       -
      Subtotal                                                                   192,429              31,804,999              23,983,393
Unobligated balance not available                                              1,874,241               3,197,676               3,064,968
Total status of budgetary resources                                    $      68,164,247       $     225,613,745       $     223,921,758
Change in Obligated Balance:
Obligated balance, net
      Unpaid obligations, brought forward, October 1                   $      22,127,106       $     101,403,501       $      93,776,544




                                                                                                                                               Fiscal Year 2010 Department of the Navy Annual Financial Report
      Less: Uncollected customer payments                                     (1,623,896)             (3,798,476)             (3,864,218)
      from Federal sources, brought forward, October 1
      Total unpaid obligated balance                                          20,503,210              97,605,025              89,912,326
Obligations incurred net (+/-)                                                66,097,577             190,611,070             196,873,397
Less: Gross outlays                                                          (59,352,193)           (174,313,017)           (165,217,414)
Obligated balance transferred, net
      Actual transfers, unpaid obligations (+/-)                                          -                        -                       -
      Actual transfers, uncollected customer                                              -                        -                       -
      payments from Federal sources (+/-)
      Total Unpaid obligated balance transferred, net                                   -                       -                       -
Less: Recoveries of prior year unpaid obligations, actual                     (5,002,043)            (16,099,877)            (24,029,026)
Change in uncollected customer                                                    (5,575)                643,578                  65,742
      payments from Federal sources (+/-)
Obligated balance, net, end of period
      Unpaid obligations                                                      23,870,445             101,601,677             101,403,501
      Less: Uncollected customer payments (+/-)                               (1,629,471)             (3,154,898)             (3,798,476)
      from Federal sources (-)
      Total, unpaid obligated balance, net, end of period                     22,240,974              98,446,779              97,605,025
Net Outlays
Net Outlays:
      Gross outlays                                                           59,352,193             174,313,017             165,217,414
      Less: Offsetting collections                                            (6,208,754)             (8,829,857)             (8,130,022)
      Less: Distributed Offsetting receipts                                     (141,386)               (141,386)               (321,451)
Net Outlays                                                            $      53,002,053       $     165,341,774       $     156,765,941




                                                            111
112
                                                 General Fund Other Accompanying Information
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         113
Appropriations, Funds, and Accounts Included in the
Principal Statements
Entity Accounts
General Funds
	 17X0380	    Coastal Defense Augmentation, Navy
	 17 0703	    Family Housing, Navy and Marine Corps
	 17 0730	    Family Housing Construction, Navy and Marine Corps
	 17 0735	    Family Housing Operation and Maintenance, Navy and Marine Corps
	 17X0810	    Environmental Restoration, Navy
	 17 1000	    Medicare-Eligible Retiree Health Fund Contribution, Navy
	 17 1001	    Medicare-Eligible Retiree Health Fund Contribution, Marine Corps
	 17 1002	    Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Navy
	 17 1003	    Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine
              Corps
	 17X1105	    Military Personnel, Marine Corps
	 17 1105	    Military Personnel, Marine Corps
	 17X1106	    Operations and Maintenance, Marine Corps
	 17 1106	    Operation and Maintenance, Marine Corps
	 17 1107	    Operation and Maintenance, Marine Corps Reserve
	 17 1108 	   Reserve Personnel, Marine Corps
	 17 1109 	   Procurement, Marine Corps
	 17 1116 	   Operation and Maintenance - Recovery Act, Marine Corps
	 17 1117 	   Operation and Maintenance - Recovery Act, Marine Corps Reserve
	 17X1205 	   Military Construction, Navy and Marine Corps
	 17 1205 	   Military Construction, Navy and Marine Corps
	 17 1206 	   Military Construction - Recovery Act, Navy and Marine Corps
	 17 1235 	   Military Construction, Naval Reserve
	 17X1236 	   Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental
              Restoration Fund, Navy
	 17 1319 	   Research, Development, Test, and Evaluation, Navy
	 17 1320 	   Research, Development, Test and Evaluation - Recovery Act, Navy
	 17 1405 	   Reserve Personnel, Navy
	 17X1453 	   Military Personnel, Navy
	 17 1453 	   Military Personnel, Navy
	 17 1506 	   Aircraft Procurement, Navy
	 17X1507 	   Weapons Procurement, Navy
	 17 1507 	   Weapons Procurement, Navy
	 17 1508 	   Procurement of Ammunition, Navy and Marine Corps
	 17X1611	    Shipbuilding and Conversion, Navy
	 17 1611 	   Shipbuilding and Conversion, Navy
	 17X1804	    Operation and Maintenance, Navy
	 17 1804 	   Operation and Maintenance, Navy
	 17 1805 	   Operation and Maintenance - Recovery Act, Navy
	 17X1806 	   Operations and Maintenance, Navy Reserve
	 17 1806 	   Operation and Maintenance, Navy Reserve
	 17 1807 	   Operation and Maintenance - Recovery Act, Navy Reserve


                                           114
	 17X1810 	   Other Procurement, Navy
	 17 1810 	   Other Procurement, Navy

Revolving Funds
	 17X4557 	  National Defense Sealift Fund, Navy
	 17 4557 	  National Defense Sealift Fund, Navy

Earmarked Trust Funds
	 17X8716 	  Department of the Navy General Gift Fund
	 17X8723 	  Ships Stores Profits, Navy
	 17X8733 	  United States Naval Academy General Gift Fund

Earmarked Special Funds
	 17X5095 	  Wildlife Conservation, etc., Military Reservations, Navy
	 17X5185 	  Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund,
             Navy
	 17X5429 	  Rossmoor Liquidating Trust Settlement Account
	 17X5562 	  Ford Island Improvement Account

General Fund Non- Entity Accounts
Deposit Funds
	 17X6001 	   Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy (T)
	 17X6002 	   Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy (T)
	 17X6025 	   Pay of the Navy, Deposit Fund (T)
	 17X6026 	   Pay of the Marine Corps, Deposit Fund (T)
	 17X6075 	   Withheld Allotment of Compensation for Payment of Employee Organization Dues,
              Navy
	 17X6083 	   Withheld Allotment of Compensation for Charitable Contributions, Navy
	 17X6134 	   Amounts Withheld for Civilian Pay Allotments, Navy
	 17X6434 	   Servicemen’s Group Life Insurance Fund, Suspense, Navy




                                                                                                Fiscal Year 2010 Department of the Navy Annual Financial Report
	 17X6705 	   Civilian Employees Allotment Account, Navy
	 17X6706 	   Commercial Communication Service, Navy
	 17 6763 	   Gains and Deficiencies on Exchange Transactions, Navy
	 17X6850 	   Housing Rentals, Navy
	 17X6999 	   Accounts Payable, Check Issue Underdrafts, Navy




                                             115
116
                                                 Navy Working Capital Fund Principal Statements
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         117
Limitations to the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 United States Code 3515 (b). While
the statements have been prepared from the books and records of the entity in accordance with
Generally Accepted Accounting Principles for Federal entities and the formats prescribed by Office of
Management and Budget, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign
entity.




Principal Statements
The Fiscal Year 2010 Navy Working Capital Fund principal statements and related notes are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize financial information for individual funds
and accounts within the Navy Working Capital Fund for the fiscal year ending September 30, 2010, and
are presented on a comparative basis with information previously reported for the fiscal year ending
September 30, 2009.

The following statements comprise the Navy Working Capital Fund principal statements:

    n	   Consolidated Balance Sheet
    n	   Consolidated Statement of Net Cost
    n	   Consolidated Statement of Changes in Net Position
    n	   Combined Statement of Budgetary Resources

The principal statements and related notes have been prepared to report financial position pursuant
to the requirements of the Chief Financial Officers Act of 1990, as amended by the Government
Management Reform Act of 1994. The accompanying notes should be considered an integral part of
the principal statements.
                                                118
                                                Department of Defense
                                              Navy Working Capital Fund
                                  CONSOLIDATED BALANCE SHEET
                                           As of September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                             Restated
                                                                              2010 Consolidated         2009 Consolidated
ASSETS (Note 2)
   Intragovernmental:
        Fund Balance with Treasury (Note 3)                               $                 992,689 $               1,171,045
        Accounts Receivable (Note 5)                                                        965,699                   560,596
        Other Assets (Note 6)                                                                   227                       717
   Total Intragovernmental Assets                                                         1,958,615                 1,732,358

    Cash and Other Monetary Assets (Note 7)                                                  1,531                       476
    Accounts Receivable, Net (Note 5)                                                       70,615                    99,430
    Inventory and Related Property, Net (Note 9)                                        14,264,715                12,649,050
    General Property, Plant, and Equipment, Net (Note 10)                                2,554,317                 2,841,232
    Other Assets (Note 6)                                                                  401,392                   361,860
    TOTAL ASSETS                                                          $             19,251,185 $              17,684,406
    Stewardship Property, Plant, and Equipment (Note 10) *

LIABILITIES (Note 11)
   Intragovernmental:
        Accounts Payable (Note 12)                                        $                159,514 $                  151,290
        Other Liabilities (Note 15 & Note 16)                                              428,926                    655,157
   Total Intragovernmental Liabilities                                                     588,440                    806,447

   Accounts Payable (Note 12)                                                             2,828,324                 3,326,652
   Military Retirement and Other Federal
        Employment Benefits (Note 17)                                                       770,309                   931,160




                                                                                                                                Fiscal Year 2010 Department of the Navy Annual Financial Report
   Other Liabilities (Note 15 & Note 16)                                                  1,752,328                 1,730,608
TOTAL LIABILITIES                                                                         5,939,401                 6,794,867
   Commitments and Contingencies (Note 16) *

NET POSITION
   Unexpended Appropriations - Other Funds                                                  28,521                    30,954
   Cumulative Results of Operations - Other Funds                                       13,283,263                10,858,585
TOTAL NET POSITION                                                                      13,311,784                10,889,539

TOTAL LIABILITIES AND NET POSITION                                        $             19,251,185 $              17,684,406

* - Disclosure but no value required per Federal Accounting Standards.




The accompanying notes are an integral part of the statements.




                                                             119
                                                Department of Defense
                                              Navy Working Capital Fund
                          CONSOLIDATED STATEMENT OF NET COST
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                              Restated
                                                                              2010 Consolidated          2009 Consolidated
Program Costs
    Gross Costs                                                           $             27,458,067   $             24,890,216
        Operations, Readiness, & Support                                                27,458,067                 24,978,369

    Less: Earned Revenue                                                               (30,276,489)               (23,340,001)
Net Cost of Operations                                                    $             (2,818,422) $               1,550,214




The accompanying notes are an integral part of the statements.




                                                            120
                                                Department of Defense
                                              Navy Working Capital Fund
           CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                                                               Restated
                                                                              2010 Consolidated           2009 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                      $             10,385,207    $              9,894,936
  Prior Period Adjustments:
      Correction of errors (+/-)                                                           473,378                   1,364,330
  Beginning Balances, as adjusted                                                       10,858,585                  11,259,266
  Budgetary Financing Sources:
      Appropriations used                                                                  205,977                       30,778
      Nonexchange revenue                                                                      212                            -
  Other Financing Sources:
      Transfers in/out without reimbursement (+/-)                                         (62,137)                   (364,257)
      Imputed financing from costs absorbed by others                                      591,919                     470,522
      Other (+/-)                                                                       (1,129,715)                  1,012,490
  Total Financing Sources                                                                 (393,744)                  1,149,533
  Net Cost of Operations (+/-)                                                          (2,818,422)                  1,550,214
  Net Change                                                                             2,424,678                    (400,681)
  Cumulative Results of Operations                                        $             13,283,263 $                10,858,585

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                     $                  30,954   $                  60,156
   Prior Period Adjustments:                                                                 30,954                      60,156
   Beginning Balances, as adjusted
   Budgetary Financing Sources:                                                            203,544                       1,576
       Appropriations received                                                            (205,977)                    (30,778)
       Appropriations transferred-in/out (+/-)                                              (2,433)                    (29,202)




                                                                                                                                  Fiscal Year 2010 Department of the Navy Annual Financial Report
   Total Budgetary Financing Sources                                                        28,521                      30,954
   Unexpended Appropriations                                                            13,311,784                  10,889,539
   Net Position                                                           $                       - $               10,416,161




The accompanying notes are an integral part of the statements.




                                                             121
                                                Department of Defense
                                              Navy Working Capital Fund
                 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                  For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                              2010 Combined             2009 Combined
BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
       Unobligated balance, brought forward, October 1                    $            3,554,313    $            2,822,888
       Recoveries of prior year unpaid obligations                                       660,572                   182,409
       Budget Authority:
           Appropriations received                                                       203,544                     1,576
           Contract Authority                                                          6,139,859                 6,689,051
           Spending authority from offsetting collections:
            Earned
                 Collected                                                            26,273,602                25,849,200
                 Change in receivables from Federal sources                              369,979                  (339,802)
            Change in unfilled customer orders
                 Advances received                                                      (223,167)                  248,350
                 Without advance from Federal sources                                    444,790                   989,973
           Subtotal                                                                   33,208,607                33,438,348
       Permanently not available                                                      (7,736,410)               (6,424,572)
   Total Budgetary Resources                                                          29,687,082                30,019,073

    Status of Budgetary Resources:
        Obligations incurred:
            Reimbursable                                                              26,786,142                26,464,761
            Subtotal                                                                  26,786,142                26,464,761
        Unobligated balance:
            Apportioned                                                                        -                 3,350,323
            Exempt from Apportionment                                                  2,888,744                   199,586
            Subtotal                                                                   2,888,744                 3,549,909
        Unobligated balances not available                                                12,196                     4,403
    Total Status of Budgetary Resources                                   $           29,687,082    $           30,019,073




The accompanying notes are an integral part of the statements.




                                                            122
                                                Department of Defense
                                              Navy Working Capital Fund
                 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                   For the Years Ended September 30, 2010 and 2009
                                                       ($ in Thousands)
                                                                              2010 Combined             2009 Combined
RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
Change in Obligated Balance:
   Obligated balance, net
        Unpaid obligations, brought forward, October 1                    $           12,411,972    $           11,825,672
        Less: Uncollected customer payments from
           Federal sources, brought forward, October 1                                (8,910,090)               (8,259,920)
        Total Unpaid Obligated Balance                                                 3,501,882                 3,565,752
   Obligations incurred, net (+/-)                                                    26,786,142                26,464,761
   Less: Gross outlays                                                              (26,432,333)               (25,696,052)
   Less: Recoveries of prior year unpaid obligations, actual                           (660,572)                  (182,409)
   Change in uncollected customer
        payments from Federal sources (+/-)                                             (814,771)                 (650,170)
   Obligated balance, net, end of period
        Unpaid obligations                                                            12,105,209                12,411,972
        Less: Uncollected customer payments from
           Federal sources                                                            (9,724,861)               (8,910,090)
        Total Unpaid Obligated Balance, net, end of period                             2,380,348                 3,501,882

Net Outlays:
    Gross Outlays                                                                     26,432,333                25,696,052
    Less: Offsetting collections                                                     (26,050,433)              (26,097,551)
Net Outlays                                                               $              381,900    $             (401,499)




                                                                                                                              Fiscal Year 2010 Department of the Navy Annual Financial Report




The accompanying notes are an integral part of the statements.




                                                             123
124
                                                 Navy Working Captial Fund Notes to the Principal Statements
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         125
Note 1.	 Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations
of the Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act
of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate
legislation. The financial statements have been prepared from the books and records of the NWCF in
accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense
(DoD), Financial Management Regulation (FMR). The accompanying financial statements account for
all resources for which the NWCF is responsible unless otherwise noted.

The NWCF is unable to fully implement all elements of USGAAP and OMB Circular No. A-136, due
to limitations of financial and nonfinancial management processes and systems that support the
financial statements. The NWCF derives reported values and information for major asset and liability
categories largely from nonfinancial systems, such as inventory and logistic systems. These systems
were designed to support reporting requirements for maintaining accountability over assets and
reporting the status of federal appropriations rather than preparing financial statements in accordance
with USGAAP. The NWCF continues to implement process and system improvements addressing
these limitations.

The Department of Defense Inspector General (DoDIG) issued an audit report dated November 8, 2010
and identified several financial statement material weaknesses: Financial Management Systems; Fund
Balance with Treasury; Accounts Receivable; Inventory and Related Property; General Equipment;
Accounts Payable; and Other Liabilities. The NWCF (as identified in the DON FY 2010 Annual
Statement of Assurance dated September 01, 2010) recognizes those weaknesses as well as weaknesses
associated with Collections and Disbursements, Procure to Pay Processes.

1.B. Mission of the Reporting Entity
The Department of the Navy (DON) was created on April 30, 1798 by an act of Congress (I Stat. 533;
5 U.S.C.  411-12). The overall mission of DON is to maintain, train, and equip combat-ready Navy and
Marine Corps forces capable of winning wars, deterring aggression, and maintaining freedom of the
seas. The NWCF provides goods, services, and infrastructure to DON and other DoD customers to
help ensure our military forces are mobile, ready, and have the most advanced technology.

1.C. Appropriations and Funds
The NWCF receives appropriations and funds as working capital (revolving) funds. The NWCF uses
these appropriations and funds to execute its mission and subsequently report on resource usage.

Working capital funds (WCF) received funding to establish an initial corpus through an appropriation
or a transfer of resources from existing appropriations or funds. The corpus finances operations which
result in transactions that flow through the fund. The WCF resources the goods and services sold
to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future
operations and generally are available in their entirety for use without further congressional action. At
various times, Congress provides additional appropriations to supplement the WCF as an infusion of
cash when revenues are inadequate to cover costs within the corpus.



                                                  126
1.D. Basis of Accounting
The NWCF’s financial management systems are unable to meet all full accrual accounting requirements.
Many of the NWCF’s financial and nonfinancial feeder systems and processes were designed and
implemented prior to the issuance of USGAAP. These systems were not designed to collect and record
financial information on the full accrual accounting basis as required by USGAAP. Most of NWCF’s
financial and nonfinancial legacy systems were designed to record information on a proprietary
basis.

The financial statements and supporting trial balances are compiled from the underlying financial data
and trial balances of the sub-entities. The underlying data is largely derived from proprietary data
from nonfinancial feeder systems, and accruals. Some of the sub-entity level trial balances may reflect
known abnormal balances resulting largely from business and system processes. At the consolidated
level, these abnormal balances may not be evident. Disclosures of abnormal balances are made in the
applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated
level.

1.E. Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion method.
Supply Management WCF activities recognize revenue from the sale of inventory items. Research
and Development activities recognize revenue according to the percentage of completion method or
as actual costs are incurred and billed. Revenue is recognized at the time service is rendered for
Base Support WCF activities. The Transportation WCF activity, Military Sealift Command, recognizes
revenue on either a reimbursable or per diem basis. The preponderance of per diem projects are billed
and collected in the month services are rendered. In the case of remaining per diem projects, revenue
is accrued in the month the services are rendered. For reimbursable projects, costs and revenue are
recognized in the month services are rendered. MSC does not generate bills until actual invoiced costs
on the project are recorded.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense and
mutual security in amounts reported in the Statement of Net Cost and Note 21, Reconciliation of Net




                                                                                                          Fiscal Year 2010 Department of the Navy Annual Financial Report
Cost of Operations to Budget. The U.S. has cost-sharing agreements with countries having a mutual or
reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. Current financial and nonfinancial feeder systems were not designed to collect and
record financial information on the full accrual accounting basis. Estimates are made for major items,
such as payroll expenses, accounts payable, and unbilled revenue. In the case of Operating Materiel &
Supplies (OM&S), operating expenses are generally recognized when the items are purchased. Efforts
are underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed. Due to system limitations, in some
instances expenditures for capital and other long-term assets may be recognized as operating expenses.
The NWCF continues to implement process and system improvements to address these limitations.




                                                  127
1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself. However,
the NWCF cannot accurately identify intragovernmental transactions by customer because NWCF’s
systems do not track buyer and seller data at the transaction level. Generally, seller entities within the
DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to
the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to
agree with DoD seller-side balances and are then eliminated. The DoD is implementing replacement
systems and a standard financial information structure that will incorporate the necessary elements
that will enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury
Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report
of the United States Government, provide guidance for reporting and reconciling intragovernmental
balances. While NWCF is unable to fully reconcile intragovernmental transactions with all federal
agencies, NWCF is able to reconcile balances pertaining to borrowings from the Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with
the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
included. The Federal Government does not apportion debt and its related costs to federal agencies.
The DoD’s financial statements do not report any public debt, interest, or source of public financing,
whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the
extent this financing ultimately may have been obtained through the issuance of public debt, interest
costs have not been capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations
Each year, NWCF sells defense articles and services to foreign governments and international
organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions of
the Act, DoD has authority to sell defense articles and services to foreign countries and international
organizations generally at no profit or loss to the Federal Government. Payment in U.S. dollars is
required in advance.

1.I. Funds with the U.S. Treasury
The NWCF’s monetary resources are maintained in U.S.  Treasury accounts. The disbursing offices
of the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps
of Engineers (USACE), and the Department of State’s financial service centers process the majority of
the NWCF’s cash collections, disbursements, and adjustments worldwide. Each disbursing station
prepares monthly reports that provide information to the U.S. Treasury on checks issued, electronic
fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records
these transactions to the applicable Fund Balance with Treasury (FBWT) account. On a monthly basis,
FBWT is adjusted to agree with the U.S. Treasury accounts.


                                                  128
1.J. Foreign Currency
Not applicable.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. The NWCF is in the process of developing a methodology for the
allowances for uncollectible accounts due from the public and should see implementation later this
year. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal
agencies. Claims against other federal agencies are to be resolved between the agencies in accordance
with dispute resolution procedures defined in the Intragovernmental Business Rules published in the
Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.

1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventories and Related Property
The NWCF values approximately 45% of its resale inventory using the moving average cost method.
The NWCF reports the remaining 55% of resale inventories at an approximation of historical cost using
latest acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used
because legacy inventory systems were designed for materiel management rather than accounting.
Although these systems provide visibility and accountability over inventory items, they do not maintain
historical cost data necessary to comply with Statement of Federal Financial Accounting Standards
(SFFAS) No. 3, Accounting for Inventory and Related Property. Additionally, these systems cannot
produce financial transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (P.L. 104-208). The NWCF is continuing to transition the balance of the
inventories to the moving average cost method through the implementation of Navy Enterprise
Resource Planning (ERP). Most transitioned balances, however, were not baselined to auditable
historical cost and remain noncompliant with SFFAS No. 3.




                                                                                                            Fiscal Year 2010 Department of the Navy Annual Financial Report
The NWCF manages only military or government-specific materiel under normal conditions. Materiel
is a unique term that relates to military force management, and includes items such as ships, tanks,
self propelled weapons, aircraft, etc., and related spares, repair parts, and support equipment. Items
commonly used in and available from the commercial sector are not managed in NWCF’s materiel
management activities. Operational cycles are irregular and the military risks associated with stock-
out positions have no commercial parallel. The NWCF holds materiel based on military need and
support for contingencies. The DoD is currently developing a methodology to be used to account for
“inventory held for sale” and “inventory held in reserve for future sale” with a completion date of year
end FY 2011 reporting.

Related property includes OM&S. The OM&S, including munitions not held for sale, are valued at
standard purchase price. The NWCF uses both the consumption method and the purchase method
of accounting for OM&S. Items that are centrally managed and stored, such as engines, are generally
recorded using the consumption method and are reported on the Balance Sheet as OM&S. When current
systems cannot fully support the consumption method, NWCF uses the purchase method. Under this
method, materiel and supplies are expensed when purchased. During FY 2010 and FY 2009, NWCF
expensed significant amounts using the purchase method because the systems could not support the



                                                  129
consumption method or management deemed that the item was in the hands of the end user. This is
a material weakness for the DoD and long-term system corrections are in process. Once the proper
systems are in place, these items will be accounted for under the consumption method of accounting.

The NWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a net realizable
value of $0 pending development of an effective means of valuing such materiel.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable
items owned and managed by NWCF. This inventory is retained to support military or national
contingencies. Inventory held for repair is damaged inventory that requires repair to make it suitable
for sale. Often, it is more economical to repair these items rather than to procure them. The NWCF
often relies on weapon systems and machinery no longer in production. As a result, NWCF supports
a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force. Work in process balances include (1) costs
related to the production or servicing of items, including direct material, labor, applied overhead;
(2) the value of finished products or completed services that are yet to be placed in service; and (3)
munitions in production and depot maintenance work with its associated costs incurred in the delivery
of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand
except for real property, which is $20 thousand. The NWCF has not fully implemented the threshold
for real property; therefore the capitalization threshold is $100 thousand for General PP&E and most
real property.

With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at historical
acquisition cost when an asset has a useful life of two or more years and when the acquisition cost equals
or exceeds DoD’s capitalization threshold. The DoD also requires the capitalization of improvements
to existing General PP&E assets if the improvements equal or exceed the capitalization threshold and
extend the useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates all
General PP&E, other than land, on a straight-line basis.

The WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as
General PP&E, whether or not they meet the definition of any other PP&E category.

When it is in the best interest of the government, the NWCF provides government property to contractors
to complete contract work. The NWCF either owns or leases such property, or it is purchased directly
by the contractor for the government based on contract terms. When the value of contractor-procured
General PP&E meets or exceeds the DoD capitalization threshold, federal accounting standards require
that it be reported on NWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished
equipment that provides appropriate General PP&E information for financial statement reporting.
The DoD requires NWCF to maintain, in their property systems, information on all property furnished



                                                  130
to contractors. These actions are structured to capture and report the information necessary for
compliance with federal accounting standards. The NWCF has not fully implemented this policy
primarily due to system limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is
to record advances or prepayments in accordance with USGAAP. As such, payments made in advance
of the receipt of goods and services should be reported as an asset on the Balance Sheet. The DoD’s
policy is to expense and/or properly classify assets when the related goods and services are received.
The NWCF has not implemented this policy primarily due to system limitations.

1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or
operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease), and the value equals or exceeds the current capitalization threshold, NWCF records
the applicable asset as though purchased, with an offsetting liability, and depreciates it. The NWCF
records the asset and the liability at the lesser of the present value of the rental and other lease payments
during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s
fair market value. The discount rate for the present value calculation is either the lessor’s implicit
interest rate or the government’s incremental borrowing rate at the inception of the lease. The NWCF,
as the lessee, receives the use and possession of leased property, for example real estate or equipment,
from a lessor in exchange for a payment of funds. An operating lease does not substantially transfer
all the benefits and risk of ownership. Payments for operating leases are expensed over the lease term
as they become payable.

Office space and leases entered into by NWCF are the largest component of operating leases and
are based on costs gathered from existing leases, General Services Administration (GSA) bills, and
interservice support agreements. Future year projections use the Consumer Price Index.

1.R. Other Assets




                                                                                                                Fiscal Year 2010 Department of the Navy Annual Financial Report
Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and certain contract financing payments that are not reported elsewhere on NWCF’s Balance
Sheet.

The NWCF conducts business with commercial contractors under two primary types of contracts:
fixed price and cost reimbursable. To alleviate the potential financial burden on the contractor that
long-term contracts can cause, NWCF may provide financing payments. Contract financing payments
are defined in the Federal Acquisition Regulations, Part 32, as authorized disbursements to a contractor
prior to acceptance of supplies or services by the Government. Contract financing payments
clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress payments based
on cost, and interim payments under certain cost-reimbursement contracts. It is DoD policy to record
certain contract financing payments as other assets. The NWCF has not fully implemented this policy
primarily due to system limitations.




                                                    131
Contract financing payments do not include invoice payments, payments for partial deliveries, lease
and rental payments, or progress payments based on a percentage or stage of completion. The Defense
Federal Acquisition Regulation Supplement authorizes progress payments based on a percentage or
stage of completion only for construction of real property, shipbuilding, and ship conversion, alteration,
or repair. Progress payments based on percentage or stage of completion are reported as Construction
in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss.
The uncertainty will be resolved when one or more future events occur or fail to occur. The NWCF
recognizes contingent liabilities when past events or exchange transactions occur, a future loss is
probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. The NWCF’s
risk of loss and resultant contingent liabilities arise from pending or threatened litigation or claims and
assessments due to events such as aircraft, ship and vehicle accidents; medical malpractice; property
or environmental damages; and contract disputes.

1.T. Accrued Leave
The NWCF reports liabilities for military leave and accrued compensatory and annual leave for
civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
Appropriations represent the amounts of budget authority that are unobligated and have not been
rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which
legal liabilities for payments have not been incurred. Cumulative Results of Operations represent the
net difference between expenses and losses, and financing sources (including appropriations, revenue,
and gains), since inception. The cumulative results of operations also include donations and transfers
in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The NWCF purchases
capital assets overseas with appropriated funds; however, the host country retains title to the land and
capital improvements. Treaty terms generally allow NWCF continued use of these properties until
the treaties expire. In the event treaties or other agreements are terminated, use of the foreign bases is
prohibited and losses are recorded for the value of any nonretrievable capital assets. The settlement
due to the U.S. or host nation is negotiated and takes into account the value of capital investments and
may be offset by the cost of environmental cleanup.




                                                   132
1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to specific obligations, payables, or receivables in the source
systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported
disbursements and collections do not have supporting documentation for the transaction and most
likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal
and nonfederal categories based on the percentage of distributed federal and nonfederal accounts
payable and accounts receivable. Supported undistributed disbursements and collections are
then applied to reduce accounts payable and receivable accordingly. Unsupported undistributed
disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Significant Events
None reported at this time.

1.Y. Fiduciary Activities
Not applicable.


Note 2.	Nonentity Assets
                     As of September 30                              2010                Restated 2009
(Amounts in thousands)

1. Intragovernmental Assets
     A. Fund Balance with Treasury                           $                    - $                     -




                                                                                                               Fiscal Year 2010 Department of the Navy Annual Financial Report
     B. Accounts Receivable
     C. Total Intragovernmental Assets                                            -                       -
     D. Total Nonfederal Assets                              $                    - $                     -

2. Nonfederal Assets
    A. Cash and Other Monetary Assets                        $                    - $                     -
    B. Accounts Receivable                                                    6,480                   3,742
    C. Other Assets                                                               -                       -
    D. Total Nonfederal Assets                               $                6,480 $                 3,742

3. Total Nonentity Assets                                    $                6,480 $                 3,742

4. Total Entity Assets                                       $           19,244,705 $            17,680,664

5. Total Assets                                              $           19,251,185 $            17,684,406




                                                    133
Nonentity assets are assets for which the Navy Working Capital Fund (NWCF) maintains stewardship
accountability and reporting responsibility, but are not available for the NWCF normal operations.

The Nonentity Accounts Receivable amount represents interest, penalties, fines and administrative
fees. These fees do not belong to the NWCF and will be distributed directly to the U.S. Treasury.


Note 3.	 Fund Balance with Treasury
                    As of September 30                          2010                  2009
(Amounts in thousands)

1. Fund Balances
     A. Appropriated Funds                              $                      - $                   -
     B. Revolving Funds                                                  992,689             1,171,045
     C. Trust Funds                                                            -                     -
     D. Special Funds                                                          -                     -
     E. Other Fund Types                                                       -                     -
     F. Total Fund Balances                             $                992,689 $           1,171,045

2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                       $                992,689 $           1,171,045
     B. Fund Balance per DON                                             992,689             1,171,045

3. Reconciling Amount                                   $                     - $                    -

Status of Fund Balance with Treasury
                     As of September 30                          2010                  2009
(Amounts in thousands)

1. Unobligated Balance
    A. Available                                        $               2,888,745 $           3,549,908
    B. Unavailable                                                         12,194                 4,405

2. Obligated Balance not yet Disbursed                              12,105,210            12,411,972

3. Nonbudgetary FBWT                                                           -                      -

4. NonFBWT Budgetary Accounts                                      (14,013,460)          (14,795,240)

5. Total                                                $                992,689 $            1,171,045

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and
is a reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated
and obligated balances. The balances reflect the budgetary authority remaining for disbursement
against current and future obligations.




                                                134
Unobligated Balance is classified as available or unavailable and represents the cumulative amount
of budgetary authority that has not been set aside to cover outstanding obligations. The unavailable
balance consists primarily of funds invested in U.S. Treasury securities that are temporarily precluded
from obligation by law. Certain unobligated balances are restricted for future use and are not
apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the
public law that established the funds.

Obligated Balance not yet disbursed represents funds that have been obligated for goods and services
not received, and those received but not paid.

NonFBWT Budgetary Accounts reduces the Status of FBWT. This amount is comprised of contract
authority, accounts receivable, and unfilled orders without advance from customers for the Navy
Working Capital Fund (NWCF).

Certain unobligated unavailable balances are restricted to future use and are not apportioned for
current use.


Note 4.	Investments and Related Interest
Not applicable.


Note 5.	Accounts Receivable
              As of September 30                                               2010
                                                                      Allowance For Estimated
(Amounts in thousands)                             Gross Amount Due        Uncollectibles       Accounts Receivable, Net


1. Intragovernmental Receivables               $            965,699                    N/A $                  965,699
2. Nonfederal Receivables (From the Public)                  70,615                      -                     70,615

3. Total Accounts Receivable                   $           1,036,314 $                      - $             1,036,314




                                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
              As of September 30                                               2009
                                                                      Allowance For Estimated
(Amounts in thousands)                             Gross Amount Due        Uncollectibles       Accounts Receivable, Net


1. Intragovernmental Receivables               $            560,596                    N/A $                  560,596
2. Nonfederal Receivables (From the Public)                  99,459                     (29)                   99,430

3. Total Accounts Receivable                   $            660,055 $                   (29) $                660,026

The accounts receivable represent the Navy Working Capital Fund’s (NWCF) claim for payment from
other entities. The NWCF only recognizes an allowance for uncollectible amounts from the public.
Claims with other federal agencies are resolved in accordance with the Intragovernmental Business
Rules.




                                                   135
Note 6.	 Other Assets
                        As of September 30                        2010                  2009
(Amounts in thousands)

1. Intragovernmental Other Assets
     A. Advances and Prepayments                           $                227 $                 717
     B. Other Assets                                                          -                     -
     C. Total Intragovernmental Other Assets               $                227 $                 717

2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments             $             293,838 $             332,318
    B. Advances and Prepayments                                          103,024                17,438
    C. Other Assets (With the Public)                                      4,530                12,104
    D. Total Nonfederal Other Assets                       $             401,392 $             361,860

3. Total Other Assets                                      $             401,619 $             362,577

Other Assets (With the Public) consists of prepayments made to vendors, and travel advances.

Contract terms and conditions for certain types of contract financing payments convey certain rights
to the Navy Working Capital Fund (NWCF) that protect the contract work from state or local taxation,
liens or attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of the contractor’s work
has transferred to the Federal Government. The Federal Government does not have the right to take
the work, except as provided in contract clauses related to termination or acceptance, and NWCF is not
obligated to make payment to the contractor until delivery and acceptance.

The balance of Outstanding Contract Financing Payments includes $266.6 million in contract financing
payments and an additional $27.3 million in estimated future payments to contractors upon delivery
and Government acceptance of a satisfactory product. (See additional discussion in Note 15, Other
Liabilities.)


Note 7.	Cash and Other Monetary Assets
                        As of September 30                       2010                   2009
(Amounts in thousands)

1. Cash                                                    $              1,531 $                 476
2. Foreign Currency                                                           -                     -
3. Other Monetary Assets                                                      -                     -

4. Total Cash, Foreign Currency, & Other Monetary Assets   $              1,531 $                 476

There are no restrictions on cash.




                                                    136
Note 8.	Direct Loan and Loan Guarantees
Not applicable.


Note 9.	Inventory and Related Property
                       As of September 30                                        2010                         Restated 2009
(Amounts in thousands)

1. Inventory, Net                                                   $                 14,0]44,853 $                   12,424,960
2. Operating Materiel & Supplies, Net                                                     219,862                        224,090
3. Stockpile Materiel, Net                                                                      -                              -

4. Total                                                            $                 14,264,715 $                    12,649,050

Inventory, Net
               As of September 30                                                     2010
                                                  Inventory Gross       Revaluation
(Amounts in thousands)                                 Value            Allowance            Inventory, Net      Valuation Method



1. Inventory Categories
     A. Held for Use                          $      26,013,203 $       (16,247,006) $           9,766,197         LAC, MAC
    B. Held for Repair                                 7,133,683         (3,070,881)             4,062,802         LAC, MAC
    C. Excess, Obsolete, and Unserviceable             1,031,765         (1,031,765)                     -            NRV
    D. Raw Materiel                                            -                   -                     -
    E. Work in Process                                   215,854                   -               215,854             AC


    F. Total                                  $      34,394,505 $       (20,349,652) $          14,044,853

               As of September 30                                                     2009




                                                                                                                                    Fiscal Year 2010 Department of the Navy Annual Financial Report
                                                  Inventory Gross       Revaluation
(Amounts in thousands)                                 Value            Allowance            Inventory, Net      Valuation Method


1. Inventory Categories
     A. Held for Use                          $      31,319,720 $       (20,806,118) $          10,513,602         LAC, MAC
     B. Held for Repair                               5,834,220          (4,170,846)             1,663,374         LAC, MAC
     C. Excess, Obsolete, and Unserviceable           1,176,397          (1,176,397)                     -            NRV
     D. Raw Materiel                                          -                    -                     -
     E. Work in Process                                 247,984                    -               247,984             AC


    F. Total                                  $      38,578,321 $       (26,153,361) $          12,424,960

Legend for Valuation Methods:
LAC = Latest Acquistion Cost	           NRV = Net Realizable Value	                     MAC = Moving Average Cost	
SP = Standard Price	                    LCM = Lower of Cost or Market
AC = Actual Cost	                       O = Other




                                                           137
There are no restrictions on the use, sale, or disposition of inventory except in the following
situations:

    1) 	 Distributions without reimbursement are made when authorized by Department of Defense
         (DoD) directives;
    2) 	 War reserve materiel in the amount of $0.4 million includes repair items that are considered
         restricted; and
    3) 	 Inventory, with the exception of safety stocks, may be sold to foreign, state, and local
         governments; private parties; and contractors in accordance with current policies and
         guidance or at the direction of the President.

There are no known restrictions on disposition of inventory as related to environmental or other
liabilities.

Inventory available and purchased for resale includes consumable spare and repair parts as well as
reparable items owned and managed by the Navy Working Capital Fund (NWCF) and includes all
materiel available for customer purchase. Inventory held for repair consists of damaged materiel that
requires repair to make it usable and all economically reparable materiel. Excess inventory includes
scrap materiels or items that are uneconomical to repair and are awaiting disposal. Work in process
includes costs related to the production or servicing of items, including direct materiel, direct labor,
applied overhead, and other direct costs. Work in process also includes the value of finished products
or completed services pending the submission of bills to the customer.

Federal Accounting Standards require disclosure of the amount of inventory held for “future sale.”
The NWCF currently has $173.5 million reported for 4th Quarter, FY 2010 in Inventory Held for Sale,
Net.

Inventory is assigned to categories based upon condition of the inventory items, or in the case of raw
materiel and work-in-process based upon stage of fabrication.

The Supply Management, Navy’s inventory is reported using the approximation of historical cost
method. The approximation of historical cost is calculated by using the latest acquisition cost less the
allowance for holding gains and losses. Legacy inventory systems were designed to capture materiel
management information rather than accounting data. Although these systems provide visibility and
accountability over inventory items, they do not maintain historical cost data necessary to comply with
the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for Inventory and
Related Property. Since the implementation of the Office of Under Secretary of Defense, Comptroller
(OUSD (C)) Cost of Goods Sold Model, prior year values in equity, inventory, and inventory allowance
accounts have been impacted and remain noncompliant with SFFAS No. 3 and generally accepted
accounting principles. The Navy Enterprise Resource Planning System will value inventory at moving
average cost and will be compliant with necessary guidance.




                                                 138
Operating Materiel and Supplies, Net
              As of September 30                                                   2010
                                                                         Revaluation                       Valuation
(Amounts in thousands)                             OM&S Gross Value      Allowance           OM&S, Net      Method


1. OM&S Categories
                                                                                                           SP, LAC,
    A. Held for Use                                $         219,862 $                 - $       219,862    MAC
                                                                                                           SP, LAC,
    B. Held for Repair                                             -                   -               -    MAC
    C. Excess, Obsolete, and Unserviceable                         -                   -               -    NRV
    D. Total                                       $         219,862 $                 - $       219,862


              As of September 30                                                   2009
                                                                         Revaluation                       Valuation
(Amounts in thousands)                             OM&S Gross Value      Allowance           OM&S, Net      Method


1. OM&S Categories
                                                                                                           SP, LAC,
    A. Held for Use                                $         224,090 $                 - $       224,090    MAC
                                                                                                           SP, LAC,
    B. Held for Repair                                             -                   -               -    MAC
    C. Excess, Obsolete, and Unserviceable                         -                   -               -    NRV
    D. Total                                       $         224,090 $                 - $       224,090

Legend for Valuation Methods:
LAC = Latest Acquistion Cost		               NRV = Net Realizable Value
SP = Standard Price			                       MAC = Moving Average Cost

Operating Materiel and Supplies (OM&S) held for use consists of property that is consumed during
normal operations and includes consumable spare and repair parts for use on customer work by
various activities.




                                                                                                                       Fiscal Year 2010 Department of the Navy Annual Financial Report
There are no restrictions with regard to the use, sale, or disposition of OM&S applicable to NWCF
activities.

The NWCF determines categories to which OM&S are assigned based upon readiness for issue and use
as determined by condition of the individual inventory items.

Federal Accounting Standards require disclosure of the amount of OM&S held for “future use.” The
NWCF reports that $1.0 million of OM&S is held for future use and is included in the “held for use”
category. These items are not readily available in the market and there is a more than remote chance
that they will eventually be needed.

Stockpile Materiel, Net
Not applicable.




                                                       139
Note 10.	General PP&E, Net
         As of September 30                                                     2010
                                        Depreciation/                                      (Accumulated
                                        Amortization                                       Depreciation/
(Amounts in thousands)                    Method        Service Life   Acquisition Value   Amortization)       Net Book Value



1. Major Asset Classes
    A. Land                                N/A            N/A          $        37,317              N/A $             37,317
    B. Buildings, Structures, and
        Facilities                          S/L          20 Or 40           6,550,506 $      (4,812,815)           1,737,691
    C. Leasehold Improvements               S/L         lease term                 46               (14)                  32
    D. Software                             S/L          2-5 Or 10            477,773          (369,301)             108,472
    E. General Equipment                    S/L           5 or 10           2,585,375        (2,086,154)             499,221
    F. Military Equipment                   S/L           Various                   -                  -                   -
    G. Shipbuilding (Construction-in-
        Progress)                          N/A             N/A                         -                   -                    -
    H. Assets Under Capital Lease          S/L          lease term                     -                   -                    -
    I. Construction-in-Progress
        (Excludes Military Equipment)      N/A            N/A                 170,078              N/A               170,078
    J. Other                                                                    1,506                  -               1,506
    K. Total General PP&E                                              $    9,822,601 $      (7,268,284) $         2,554,317

         As of September 30                                                     2009
                                        Depreciation/                                      (Accumulated
                                        Amortization                                       Depreciation/
(Amounts in thousands)                    Method        Service Life   Acquisition Value   Amortization)       Net Book Value


1. Major Asset Classes
    A. Land                                N/A            N/A          $        38,612              N/A $             38,612
    B. Buildings, Structures, and
        Facilities                          S/L          20 Or 40           6,435,611 $      (4,832,768)           1,602,843
    C. Leasehold Improvements               S/L         lease term                 46                (9)                  37
    D. Software                             S/L          2-5 Or 10            488,682          (360,811)             127,871
    E. General Equipment                    S/L           5 or 10           2,624,542        (2,134,619)             489,923
    F. Military Equipment                   S/L           Various                   -                  -                   -
    G. Shipbuilding (Construction-in-
        Progress)                          N/A             N/A                         -                   -                    -
    H. Assets Under Capital Lease          S/L          lease term                     -                   -                    -
    I. Construction-in-Progress
        (Excludes Military Equipment)      N/A            N/A                 579,393              N/A               579,393
    J. Other                                                                    2,553                  -               2,553
    K. Total General PP&E                                              $   10,169,439 $      (7,328,207) $         2,841,232

Legend for Valuation Methods:
S/L = Straight Line		       N/A = Not Applicable

There are no known restrictions on the use or convertibility of General Property, Plant and Equipment
(PP&E).




                                                        140
The acquisition cost for General PP&E is captured and maintained in the applicable property
accountability systems. There are no material amounts or types of General PP&E for which the
acquisition cost is unknown.

General PP&E, Other consists of $1.5 million of assets awaiting disposal.

Military equipment, heritage assets and stewardship land are reported on the financial statements of
the Department of the Navy General Fund (DON GF).

Assets under Capital Lease
Not applicable.


Note 11.	Liabilities Not Covered by Budgetary Resources
                       As of September 30                         2010                  2009
    (Amounts in thousands)

1. Intragovernmental Liabilities
     A. Accounts Payable                                    $                   - $                   -
     B. Debt                                                                    -                     -
     C. Other                                                             163,568               206,742
     D. Total Intragovernmental Liabilities                 $             163,568 $             206,742

2. Nonfederal Liabilities
    A. Accounts Payable                                     $                   - $                    -
    B. Military Retirement and Other Federal Employment
       Benefits                                                           770,308               931,160
    C. Environmental Liabilities                                                -                     -
    D. Other Liabilities                                                        -                     -
    E. Total Nonfederal Liabilities                         $             770,308 $             931,160




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
3. Total Liabilities Not Covered by Budgetary Resources     $             933,876 $            1,137,902

4. Total Liabilities Covered by Budgetary Resources         $            5,005,525 $           5,656,965

5. Total Liabilities                                        $            5,939,401 $           6,794,867

Liabilities Not Covered by Budgetary Resources include liabilities for which congressional action is
needed before budgetary resources can be provided.

Other Intragovernmental Liabilities consist of the unfunded portion of Federal Employees’
Compensation Act (FECA) liability that will be funded by future year’s budgetary resources.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial
liabilities not due and payable during the current fiscal year. These liabilities primarily consist of
FECA Actuarial liability of $770.3 million. Refer to Note 17, Military Retirement and Other Federal
Employment Benefits, for additional details and disclosures.




                                                      141
Note 12.	Accounts Payable
                As of September 30                                                   2010
                                                                              Interest, Penalties, and
(Amounts in thousands)                              Accounts Payable           Administrative Fees               Total


1. Intragovernmental Payables               $                  159,514 $                        N/A $                 159,514
2. Nonfederal Payables (to the Public)                       2,828,324                             -                2,828,324
3. Total                                    $                2,987,838 $                           - $              2,987,838

                As of September 30                                                   2009
                                                                              Interest, Penalties, and
(Amounts in thousands)                              Accounts Payable           Administrative Fees               Total


1. Intragovernmental Payables               $                  151,290 $                        N/A $                 151,290
2. Nonfederal Payables (to the Public)                       3,326,652                             -                3,326,652
3. Total                                    $                3,477,942 $                           - $              3,477,942

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services
received by Navy Working Capital Fund (NWCF). The NWCF’s systems do not track intragovernmental
transactions by customer at the transaction level. Buyer-side accounts payable are adjusted to agree
with internal seller-side accounts receivable. Accounts payable was adjusted by reclassifying amounts
between federal and nonfederal accounts payable


Note 13.	Debt
                As of September 30                                                    2010
(Amounts in thousands)                              Beginning Balance            Net Borrowing               Ending Balance



1. Agency Debt (Intragovernmental)
    A. Debt to the Treasury                     $                       - $                          -   $                    -
    B. Debt to the Federal Financing Bank                               -                            -   -                    -
    C. Total Agency Debt                        $                       - $                          -   $                    -

2. Total Debt                                   $                       - $                          -   $                    -

                As of September 30                                                    2009
(Amounts in thousands)                              Beginning Balance            Net Borrowing               Ending Balance


1. Agency Debt (Intragovernmental)
    A. Debt to the Treasury                     $                    - $                          -      $                    -
    B. Debt to the Federal Financing Bank                       16,881                     (16,881)      -                    -
    C. Total Agency Debt                        $               16,881 $                   (16,881)      $                    -

2. Total Debt                                   $               16,881 $                   (16,881)      $                    -

Not applicable.




                                                    142
Note 14.	Environmental Liabilities and Disposal Liabilities
The Navy Working Capital Fund Environmental Liabilities are reported under the Department of the
Navy General Fund.


Note 15.	Other Liabilities
                   As of September 30                                                    2010
(Amounts in thousands)                                         Current Liability   Noncurrent Liability     Total


1. Intragovernmental
     A. Advances from Others                            $               204,262 $                   - $        204,262
     B. Deposit Funds and Suspense Account Liabilities                        -                     -                -
     C. Disbursing Officer Cash                                               -                     -                -
     D. Judgment Fund Liabilities                                             -                     -                -
     E. FECA Reimbursement to the Dept. of Labor                         71,969                91,600          163,569
     F. Custodial Liabilities                                             6,480                     -            6,480
     G. Employer Contribution and Payroll Taxes Payable                  54,615                     -           54,615
     H. Other Liabilities                                                     -                     -                -

    I. Total Intragovernmental Other Liabilities           $            337,326 $              91,600 $        428,926

2. Nonfederal
    A. Accrued Funded Payroll and Benefits                 $          1,002,417 $                     - $    1,002,417
    B. Advances from Others                                             235,076                       -        235,076
    C. Deferred Credits                                                       -                       -              -
    D. Deposit Funds and Suspense Accounts                                   25                       -             25
    E. Temporary Early Retirement Authority                                   -                       -              -
    F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                                  -                     -                -
         (2) Excess/Obsolete Structures                                       -                     -                -




                                                                                                                         Fiscal Year 2010 Department of the Navy Annual Financial Report
         (3) Conventional Munitions Disposal                                  -                     -                -
    G. Accrued Unfunded Annual Leave                                          -                     -                -
    H. Capital Lease Liability                                                -                     -                -
     I. Contract Holdbacks                                                  850                     -              850
    J. Employer Contribution and Payroll Taxes Payable                    1,292                     -            1,292
    K. Contingent Liabilities                                           485,395                27,273          512,668
    L. Other Liabilities                                                      -                     -                -

    M. Total Nonfederal Other Liabilities                  $          1,725,055 $              27,273 $      1,752,328

3. Total Other Liabilities                                 $          2,062,381 $             118,873 $      2,181,254




                                                     143
                   As of September 30                                                    2009
(Amounts in thousands)                                         Current Liability   Noncurrent Liability     Total


1. Intragovernmental
     A. Advances from Others                            $               395,307 $                   - $        395,307
     B. Deposit Funds and Suspense Account Liabilities                        -                     -                -
     C. Disbursing Officer Cash                                               -                     -                -
     D. Judgment Fund Liabilities                                             -                     -                -
     E. FECA Reimbursement to the Dept. of Labor                         90,074               116,668          206,742
     F. Custodial Liabilities                                             4,881                     -            4,881
     G. Employer Contribution and Payroll Taxes Payable                  48,227                     -           48,227
     H. Other Liabilities                                                     -                     -                -

    I. Total Intragovernmental Other Liabilities           $            538,489 $             116,668 $        655,157

2. Nonfederal
    A. Accrued Funded Payroll and Benefits                 $            920,155 $                     - $      920,155
    B. Advances from Others                                             266,783                       -        266,783
    C. Deferred Credits                                                       -                       -              -
    D. Deposit Funds and Suspense Accounts                                   31                       -             31
    E. Temporary Early Retirement Authority                                   -                       -              -
    F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                                  -                     -                -
         (2) Excess/Obsolete Structures                                       -                     -                -
         (3) Conventional Munitions Disposal                                  -                     -                -
    G. Accrued Unfunded Annual Leave                                          -                     -                -
    H. Capital Lease Liability                                                -                     -                -
     I. Contract Holdbacks                                                1,531                     -            1,531
    J. Employer Contribution and Payroll Taxes Payable                        -                     -                -
    K. Contingent Liabilities                                           504,532                30,861          535,393
    L. Other Liabilities                                                  6,715                     -            6,715

    M. Total Nonfederal Other Liabilities                  $          1,699,747 $              30,861 $      1,730,608

3. Total Other Liabilities                                 $          2,238,236 $             147,529 $      2,385,765

Contingent Liabilities includes $27.3 million related to contracts authorizing progress payments based
on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract terms,
specific rights to the contractor’s work vest with the Federal Government when a specific type of
contract financing payment is made. This action protects taxpayer funds in the event of contract
nonperformance. These rights should not be misconstrued as the rights of ownership. The NWCF
is under no obligation to pay the contractor for amounts greater than the amounts authorized in the
contract until delivery and government acceptance. Due to the probability the contractor will complete
their efforts and deliver satisfactory products, and because the amount of potential future payments
are estimable, the NWCF has recognized a contingent liability for estimated future payments which
are conditional pending delivery and government acceptance.




                                                     144
Total contingent liabilities for progress payments based on cost represent the difference between the
estimated costs incurred to date by contractors and amounts authorized to be paid under progress
payments based on cost provisions within the FAR. Estimated contractor-incurred costs are calculated
by dividing the cumulative unliquidated progress payments based on cost by the contract-authorized
progress payment rate. The balance of unliquidated progress payments based on cost is deducted
from the estimated total contractor-incurred costs to determine the contingency amount.

Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions
related to claims for environmental damage, equal opportunity matters, and contractual bid protests.

The DON has accrued contingent liabilities for legal actions where the Office of General Counsel
considers an adverse decision probable and the amount of loss is measurable. In the event of an
adverse judgment against the Government, some of the liabilities may be payable from the U.S. Treasury
Judgment Fund. The DON records Judgment Fund liabilities in Note 12, Accounts Payable; and Note
15, Other Liabilities.

For FY 2010, the Navy Working Capital Fund (NWCF) materiality threshold for reporting litigation,
claims, or assessments is $2.3 million. The DON WCF currently has 12 cases that meet the existing
FY 2010 DON WCF threshold. The DON OGC was unable to express an opinion concerning the likely
outcome of 1 of the 12 cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as
to outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD),
Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed
a methodology to determine an estimate for contingent legal liabilities. Beginning with 1st Quarter,




                                                                                                           Fiscal Year 2010 Department of the Navy Annual Financial Report
FY 2007 DON recognized and disclosed an estimate for contingent legal liabilities. The methodology
considers the likelihood of an unfavorable outcome or potential liability and is provided as an overall
assessment of all cases currently pending and not on an individual case basis. The likelihood of an
unfavorable or potential liability was determined by using an average of the data from the current
year-to-date and the preceding four years. The total dollar amount of the cases closed was divided by
the total dollar amount claimed in those closed cases for each of the last four years plus current year,
which were then used to calculate the average. This average is based entirely on historical data and
represents the percentage that has historically been paid on claims for all DON cases. The merits for
each individual case have not been taken into consideration. As a result, estimates cannot be allocated
between NWCF and DON General Fund (GF). Until sufficient historical data can be collected for the
NWCF, the DON GF will disclose the entire amount of the estimate.




                                                  145
Contingencies that are considered both measurable and probable have been recognized as liabilities.
Refer to note 15.


Note 17.	Military Retirement and Other Federal
         Employment Benefits
            As of September 30                                                         2010
                                                                    Assumed Interest   (Less: Assets Available to
(Amounts in thousands)                            Liabilities           Rate (%)              Pay Benefits)         Unfunded Liabilities



1. Pension and Health Actuarial Benefits
     A. Military Retirement Pensions          $                 -                      $                      - $                          -
     B. Military Retirement Health Benefits                     -                                             -                            -
     C. Military Medicare-Eligible Retiree
        Benefits                                                -                                             -                            -
     D. Total Pension and Health Actuarial
        Benefits                              $                 -                      $                      - $                          -

2. Other Actuarial Benefits
    A. FECA                                   $         770,309                        $                      - $              770,309
    B. Voluntary Separation Incentive
       Programs                                               -                                               -                      -
    C. DoD Education Benefits Fund                            -                                               -                      -
    D. Total Other Actuarial Benefits         $         770,309                        $                      - $              770,309

3. Other Federal Employment Benefits          $                 -                      $                      - $                          -
4. Total Military Retirement and Other
    Federal Employment Benefits:              $         770,309                        $                      - $              770,309

            As of September 30                                                         2009
                                                                    Assumed Interest   (Less: Assets Available to
(Amounts in thousands)                            Liabilities           Rate (%)              Pay Benefits)         Unfunded Liabilities



1. Pension and Health Actuarial Benefits
     A. Military Retirement Pensions          $                 -                      $                      - $                          -
     B. Military Retirement Health Benefits                     -                                             -                            -
     C. Military Medicare-Eligible Retiree
        Benefits                                                -                                             -                            -
     D. Total Pension and Health Actuarial
        Benefits                              $                 -                      $                      - $                          -

2. Other Actuarial Benefits
    A. FECA                                   $         931,160                        $                      - $              931,160
    B. Voluntary Separation Incentive
       Programs                                               -                                               -                      -
    C. DoD Education Benefits Fund                            -                                               -                      -
    D. Total Other Actuarial Benefits         $         931,160                        $                      - $              931,160

3. Other Federal Employment Benefits          $                 -                      $                      - $                          -
4. Total Military Retirement and Other
    Federal Employment Benefits:              $         931,160                        $                      - $              931,160


                                                       146
Actuarial Cost Method Used and Assumptions:
The Department of the Navy (DON) actuarial liability for workers’ compensation benefits is developed
by the Department of Labor and provided to DON at the end of each fiscal year. The liability is
distributed between the Navy Working Capital Fund and DON General Fund based upon the number of
civilian employees funded in each entity as reported in the Navy Budget Tracking System. The liability
includes the expected liability for death, disability, medical, and miscellaneous costs for approved
compensation cases. The liability is determined using a method that utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period.

The assumptions relate to Federal Employees’ Compensation Act (FECA). Consistent with past
practice, the projected annual benefit payments are discounted to the present value using Office of
Management and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds.

The interest rate assumptions utilized when discounting were as follows:

	       Discount Rates
	       3.653% in Year 1
	       4.300% in Year 2 and thereafter

To provide more specificity concerning the effects of inflation on the liability for future workers’
compensation benefits, wage inflation factors (cost of living adjustments or COLAs) and medical
inflation factors (consumer price index medical or CPIMs) were applied to the calculation of projected
future benefits. The actual rates for these factors for the charge back year (CBY) 2010 were also used to
adjust the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

	       CBY	        COLA	       CPIM
	       2010	       N/A	        N/A
	       2011	       2.23%	      3.45%
	       2012	       1.13%	      3.43%




                                                                                                            Fiscal Year 2010 Department of the Navy Annual Financial Report
	       2013	       1.70%	      3.64%
	       2014	       1.90%	      3.66%
	       2015+	      1.93%	      3.73%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
analysis was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2)
a comparison of the percentage change in the liability amount to the percentage change in the actual
incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case-
severity) in CBY 2010 to the average pattern observed during the most current three charge back years,
and (4) a comparison of the estimated liability per case in the Discount Rates projection to the average
pattern for the projections of the most recent three years.




                                                  147
Note 18.	Disclosures Related to the Statement of Net Cost
                             Intragovernmental Costs and Exchange Revenue
As of September 30                                                 2010                Restated 2009
(Amounts in thousands)

1. Intragovernmental Costs                                $            4,739,000 $              4,977,049
2. Public Costs                                                       22,719,067               19,913,166
3. Total Costs                                            $           27,458,067 $             24,890,216

4. Intragovernmental Earned Revenue                       $         (23,961,250) $           (22,176,527)
5. Public Earned Revenue                                             (6,315,239)              (1,163,474)
6. Total Earned Revenue                                   $         (30,276,489) $           (23,340,001)

7. Net Cost of Operations                                 $           (2,818,422) $             1,550,214

Intragovernmental costs and revenue are related to transactions made between two reporting entities
within the Federal Government.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
Government supported by appropriations or other means. The intent of the SNC is to provide gross and
net cost information related to the amount of output or outcome for a given program or organization
administered by a responsible reporting entity. The DoD’s current processes and systems do not
capture and report accumulated cost for major programs based upon the performance measures as
required by the Government Performance and Results Act. The DoD is in the process of reviewing
available data and developing a cost reporting methodology as required by the Statement of Federal
Financial Accounting Standards (SFFAS) No. 4. “Managerial Cost Accounting Concepts and Standards
for the Federal Government,” as amended by SFFAS No. 30, “Inter-entity Cost Implementation.”

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
entity.

The Navy Working Capital Fund’s (NWCF) financial management systems do not track
intragovernmental transactions by customer at the transactional level. Buyer-side expenses are adjusted
to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts
between federal and nonfederal expenses.

The data presented is largely derived from proprietary data obtained from nonfinancial feeder systems,
and accruals. Many of the NWCF’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of USGAAP.


Note 19.	Disclosures Related to the Statement of Changes
         in Net Position
The Prior Period Adjustment (PPA) restates FY 2009 Inventory Available and Purchase for Resale and
Inventory Allowance account.




                                                 148
In the current environment, inventory is recorded for Supply Management Activity Group at standard
cost. The inventory is then converted in the general ledger from standard cost to Latest Acquisition
Cost (LAC) utilizing journal vouchers (JVs). The JVs are calculated and adjusted at the lowest activity
level. In July 2008, the Available and Purchase for Resale, Inventory, Net became negative and has
continued to increase monthly in FY 2009 and FY 2010. The negative inventory can be attributed
to inventory returns from customers that were inaccurately creating allowance values based on the
posting of the inventory reports. When inventory items were returned, the transaction was recorded
as a debit to the Inventory account, and a credit to the Inventory Allowance account. There was
no reduction in the allowance account when the returned inventory items were issued either for
re-use or disposal. Therefore, the balance in the Inventory Allowance account was never reduced.
Inventory reports are not able to track items that have been previously returned. In order to prevent
overstatement of allowances, no allowance should be created when materials are returned. The current
process is causing a cumulative overstatement in Inventory Allowance by $473.4 million for prior year
and approximately $47.9 million for current year, for a total of $521.3 million.

The current FY 2010 and comparative FY 2009 Balance Sheet, Statement of Changes in Net Position,
and Statement of Net Cost lines were impacted as follows:

    1.	   Inventory and Related Property, Net increased by $473.4 million in FY 2009.
    2.	   Total Assets increased by $473.4 million in FY 2009.
    3.	   Cumulative Results of Operations increased by $473.4 million in FY 2009.
    4.	   Correction of Errors was increased by $385.2 million in FY 2009.
    5.	   Net Cost of Operations was decreased by $88.2 million in FY 2009.
    6.	   Gross Costs decreased by $88.2 million in FY 2009.

The overall change in the financial statements as a whole is an increase in net position and elimination
of the negative inventory balance.




                                                                                                             Fiscal Year 2010 Department of the Navy Annual Financial Report
Other Financing Sources, Other is comprised of a loss reported during the trading partner elimination
process, an adjustment made to reclassify the Cost Of Goods Sold model PPA amount properly to
Other Losses, and an adjustment made to reconcile Personal Property Management System (PPMS) to
Internet Naval Facilities Assets Data Store (iNFADS) for Naval Facilities Engineering Command.


Note 20.	Disclosures Related to the Statement of
         Budgetary Resources	
                    As of September 30                             2010                   2009

(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period”              $           8,331,652 $            8,206,543
2. Available Borrowing and Contract Authority at the End of
    the Period                                                                   -                       -




                                                     149
Obligations Incurred – Direct	                 Category A 	            $0
Obligations Incurred – Reimbursable 	          Category B	             $6.3 billion
Obligations Incurred – Reimbursable	           Exempt from 	           $20.4 billion
	                                              Apportionment

The SBR includes intraentity transactions because the statements are presented as combined.

Defense Departmental Reporting System- Budgetary (DDRS-B), is the system used to produce the
SF133 and DDRS-Audited Financial Statements (AFS) is the system used to produce quarterly financial
reports. The Differences between the SF133 and Statement of Budgetary Resources for 4th Quarter,
FY 2010 are as follows:

Unobligated balance, brought forward, October 1 –
A $1.4 million journal voucher (JV) was posted to DDRS-AFS in September 2009 to record the activity’s
employee benefits accruals and expenses for FEGLI, FEHB, Retirement, and VSIP to reconcile to the
Department of Labor amounts, per guidance. This quarterly data call is only posted in DDRS-AFS, and
not to DDRS-B. As the JV is not posted in DDRS-B, the expenses did not close with the same cumulative
results. This results in a disconnect between DDRS-AFS and DDRS-B beginning balances.

Obligations Incurred, Reimbursable –
The amount of $(0.4) million is to record the FY 2010 accrual of employee benefits in DDRS-AFS.
Guidance requires the activity’s employee benefits accruals and expenses to reconcile to the Department
of Labor amounts. This information is input in DDRS-AFS and not in FACTS II.




                                                 150
Note 21.	Reconciliation of Net Cost of Operations to
         Budget
                           As of September 30                                   2010             Restated 2009
(Amounts in thousands)

Resources Used to Finance Activities:
     Budgetary Resources Obligated:
          1. Obligations incurred                                          $     26,786,142 $         26,464,761
          2. Less: Spending authority from offsetting collections and
               recoveries (-)                                                   (27,525,776)         (26,930,130)
          3. Obligations net of offsetting collections and recoveries              (739,634)            (465,369)
          4. Less: Offsetting receipts (-)                                                 -                    -
          5. Net obligations                                                       (739,634)            (465,369)
     Other Resources:
          6. Donations and forfeitures of property                                         -                   -
          7. Transfers in/out without reimbursement (+/-)                           (62,137)           (364,257)
          8. Imputed financing from costs absorbed by others                         591,919             470,522
          9. Other (+/-)                                                         (1,129,715)           1,012,490
          10. Net other resources used to finance activities                       (599,933)           1,118,755
11. Total Resources Used to Finance Activities                             $     (1,339,567) $           653,386

Resources Used to Finance Items not Part of the Net Cost of Operations:
          12. Change in budgetary resources obligated for goods, services,
              and benefits ordered but not yet provided:
              12a. Undelivered Orders (-)                                   $     (125,109) $          (412,286)
              12b. Unfilled Customer Orders                                         221,623            1,238,321
          13. Resources that fund expenses recognized in prior periods (-)        (207,938)            (109,799)
          14. Budgetary offsetting collections and receipts that do not
              affect Net Cost of Operations                                                -                    -
          15. Resources that finance the acquisition of assets (-)               (4,826,279)          (4,998,100)




                                                                                                                    Fiscal Year 2010 Department of the Navy Annual Financial Report
          16. Other resources or adjustments to net obligated resources
              that do not affect Net Cost of Operations:
              16a. Less: Trust or Special Fund Receipts Related to exchange
                   in the Entity’s Budget (-)                                             -                    -
              16b. Other (+/-)                                                    1,191,852            (648,232)
17. Total resources used to finance items not part of the Net Cost of
    Operations                                                              $    (3,745,851) $        (4,930,096)
18. Total resources used to finance the Net Cost of Operations              $    (5,085,418) $        (4,276,710)




                                                         151
                           As of September 30                                    2010             Restated 2009
(Amounts in thousands)

Components of the Net Cost of Operations that will not Require or
    Generate Resources in the Current Period:
     Components Requiring or Generating Resources in Future Period:
          19. Increase in annual leave liability                             $              - $                 -
          20. Increase in environmental and disposal liability                              -                   -
          21. Upward/Downward reestimates of credit subsidy expense                         -                   -
          22. Increase in exchange revenue receivable from the public (-)                   -                   -
          23. Other (+/-)                                                               3,912               1,092
          24. Total components of Net Cost of Operations that will Require
               or Generate Resources in future periods                       $          3,912 $             1,092
     Components not Requiring or Generating Resources:
          25. Depreciation and amortization                                  $      263,064 $             590,752
          26. Revaluation of assets or liabilities (+/-)                            277,334             1,130,600
          27. Other (+/-)
              27a. Trust Fund Exchange Revenue                                             -                     -
              27b. Cost of Goods Sold                                             10,377,119           13,867,252
              27c. Operating Material and Supplies Used                                    -                     -
              27d. Other                                                         (8,654,433)           (9,762,772)
          28. Total Components of Net Cost of Operations that will not
               Require or Generate Resources                                 $    2,263,084 $           5,825,832
29. Total components of Net Cost of Operations that will not Require or
    Generate Resources in the Current Period                                 $     2,266,996 $          5,826,924
30. Net Cost of Operations                                                   $   (2,818,422) $          1,550,214

Due to Navy Working Capital Fund (NWCF) financial system limitations, budgetary data do not agree
with proprietary expenses and capitalized assets. The difference between budgetary and proprietary
data is a previously identified deficiency. As a result of these system limitations, resources that finance
the acquisition of assets on the reconciliation of Net Cost of Operations to Budget was adjusted
downward by $6.2 billion (absolute amount) at the end of 4th Quarter, FY 2010 to bring it into balance
with the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined
instead of consolidated due to intra-agency budgetary transactions not being eliminated:

    n	    Obligations Incurred
    n	    Less: Spending Authority from Offsetting Collections and Recoveries
    n	    Obligations Net of Offsetting Collections and Recoveries
    n	    Less: Offsetting Receipts
    n	    Net Obligations
    n	    Undelivered Orders
    n	    Unfilled Customer Orders




                                                       152
Other Resources Used to Finance Activities consists of gains and losses associated with: 1) transfers of
assets out of NWCF; and 2) the inventory stratification process.

Other Resources Used to Finance Items not Part of the Net Cost of Operations consists of gains and
losses associated with: 1) transfers of assets out of NWCF; and 2) the inventory stratification process.

Other Components not Requiring or Generating Resources consists of overhead costs distributed to
work in process, as well as costs originally recorded into another expense account that are transferred to
one of three accounts: inventory work in process, internal use software in development, or completed
assets.


Note 22.	Disclosures Related to Incidental Custodial
         Collections
Navy Working Capital Fund (NWCF) collected $4.0 million of incidental custodial revenues generated
primarily from interest, penalties, fines and administrative fees. These funds are not available for use
by NWCF. At the end of each fiscal year, the accounts are closed and the balances rendered to the
U.S. Treasury.


Note 23.	Earmarked Funds
Not applicable.


Note 24.	Fiduciary Activities
Not applicable.


Note 25.	Other Disclosures
Not applicable.




                                                                                                             Fiscal Year 2010 Department of the Navy Annual Financial Report
Note 26.	Restatements
The Prior Period Adjustment (PPA) restates FY 2009 Inventory Available and Purchase for Resale and
Inventory Allowance account.

In the current environment, inventory is recorded for Supply Management Activity Group at standard
cost. The inventory is then converted in the general ledger from standard cost to Latest Acquisition
Cost (LAC) utilizing journal vouchers (JVs). The JVs are calculated and adjusted at the lowest activity
level. In July 2008, the Available and Purchase for Resale, Inventory, Net became negative and has
continued to increase monthly in FY 2009 and FY 2010. The negative inventory can be attributed
to inventory returns from customers that were inaccurately creating allowance values based on the
posting of the inventory reports. When inventory items were returned, the transaction was recorded
as a debit to the Inventory account, and a credit to the Inventory Allowance account. There was
no reduction in the allowance account when the returned inventory items were issued either for
re-use or disposal. Therefore, the balance in the Inventory Allowance account was never reduced.
Inventory reports are not able to track items that have been previously returned. In order to prevent
overstatement of allowances, no allowance should be created when materials are returned. The current


                                                   153
process is causing a cumulative overstatement in Inventory Allowance by $473.4 million for prior year
and approximately $47.9 million for current year, for a total of $521.3 million.

The current FY 2010 and comparative FY 2009 Balance Sheet, Statement of Changes in Net Position,
and Statement of Net Cost lines were impacted as follows:

    1.	   Inventory and Related Property, Net increased by $473.4 million in FY 2009.
    2.	   Total Assets increased by $473.4 million in FY 2009.
    3.	   Cumulative Results of Operations increased by $473.4 million in FY 2009.
    4.	   Correction of Errors was increased by $385.2 million in FY 2009.
    5.	   Net Cost of Operations was decreased by $88.2 million in FY 2009.
    6.	   Gross Costs decreased by $88.2 million in FY 2009.

The overall change in the financial statements as a whole is an increase in net position and elimination
of the negative inventory balance.




                                                  154
                                                 Navy Working Captial Fund Required Supplementary Information
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         155
                                    Navy Working Capital Fund
                   General Property, Plant, and Equipment
               Real Property Deferred Maintenance and Repair
                              For Fiscal Year Ended September 30, 2010

The Navy Working Capital Fund real property deferred maintenance and repair information for fiscal
year ended September 30, 2010 is reported with the Department of the Navy General Fund deferred
maintenance and repair. See Department of the Navy General Fund Required Supplementary
Information.




                                               156
                                                 Navy Working Capital Fund Other Accompanying Information
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         157
Appropriations, Funds, and Accounts Included in the
Principal Statements
Reporting Entity
Navy Working Capital Fund (NWCF)

Fund/Account Treasury Symbol and Title
	 97X4930.002	

Navy Working Capital Fund Activity Group Treasury Symbol and Title
	 97X4930.NA1*	 Depot Maintenance – Shipyardsa
	 97X4930.NA2	 Depot Maintenance – Aviation
	97X4930.NA4A* 	 Depot Maintenance – Other, Marine Corps
 	 97X4930.NA3* 	 Ordnanceb
 	 97X4930.ND* 	 Transportation
 	 97X4930.NE* 	 Base Support
 	 97X4930.NH* 	 Research and Development
 	 97X4930.NC* 	 Supply Management
 	97X4930.NC2A* 	 Supply Management, Marine Corps

Notes
* 	 Represents alpha or numeric characters which identify an activity or reporting segment of the
    activity group.
a	   Depot Maintenance, Shipyards became a part of the DON General Fund in FY 2007. The
     Depot Maintenance, Shipyards information included in this report represents residual NWCF
     accounting.
b	   The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance
     information included in this report represents residual NWCF accounting for this group.




                                              158
                                                 Audit Opinions
Fiscal Year 2010 Department of the Navy Annual
Financial Report




         159
160
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  161
162
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  163
164
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  165
166
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  167
168
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  169
170
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  171
172
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  173
174
Fiscal Year 2010 Department of the Navy Annual Financial Report




                                                                  175
176
               B

                           C                                  F
                                                                      G


                                                   E
                                       D                                            H
     A




Cover Credits
A	   The Military Sealift Command maritime prepositioning ship USNS 1st Lt. Jack
     Lummus (T-AK-3011) receives cargo from the U.S. Agency for International
     Development (USAID) and the U.S. Marine Corps at Blount Island Command. The
     supplies are being sent to Haiti as part of Operation Unified Response following a
     7.0 magnitude earthquake near Port-au-Prince on Jan. 12, 2010. (U.S. Navy photo by
     Mass Communication Specialist 1st Class Leah Stiles/Released)
B	   Sailors assigned to the attack submarine USS Texas (SSN 775) replant marsh grass
     at Pierce Marsh, in Hitchcock, Texas. The submariners participated in a Galveston
     Bay Foundation, Natural Restoration Conservation Services and Energy Company
     NRG project to help restore 200 acres of eroded vegetation. U.S. Navy photo by Mass
     Communication Specialist 2nd Class Roadell Hickman (RELEASED)
C	   A high efficiency lighting system designed by Naval Sea Systems Command is
     on display at the Naval Energy Forum. Lighting, fuel saving and fleet readiness-
     enhancing initiatives were exhibited during the two-day event. (U.S. Navy photo by
     Alan Baribeau/Released)
D	   An SA-330 Puma helicopter flies from the Military Sealift Command dry cargo/
     ammunition ship USNS Lewis and Clark (T-AKE 1) to deliver mail to the guided-missile
     cruiser USS Lake Champlain (CG 57). (U.S. Navy photo by Mass Communication
     Specialist 2nd Class Daniel Barker/Released)
E	   An aircraft director guides an F/A-18E Super Hornet assigned to the “Royal Maces”
     of Strike Fighter Squadron Two Seven (VFA-27) to the No. 2 catapult for launch off
     the flight deck of USS Kitty Hawk (CV 63). U.S. Navy photo by Photographer’s Mate
     Airman Stephen W. Rowe (RELEASED)
F	   Friends and family members of Sailors aboard the Navy’s first littoral combat ship
     USS Freedom (LCS 1) wave flags and signs to greet them after completion of her
     maiden deployment. (U.S. Navy photo by Mass Communication Specialist 2nd Class
     Daniel Barker/Released)
G	   Marines disembark the amphibious dock landing ship USS Fort McHenry (LSD 43) in
     Morehead City, N.C. (U.S. Navy photo by Mass Communication Specialist 1st Class
     Darryl I. Wood/Released)
H	   Wind turbines at U.S. Naval Station Guantanamo Bay reduce fuel consumption by
     650,000 gallons annually. (U.S. Army photo by Staff Sgt. Blair Heusdens/Released)
                                 For More Information
              Assistant Secretary of the Navy Financial Management and Comptroller
                                http://www.finance.hq.navy.mil/FMC

                                              Navy
                                        http://www.navy.mil

                                          Marine Corps
                                      http://www.marines.mil

                                            Contact Us
              An electronic copy of this report is available at http://www.fmo.navy.mil
Comments or requests for printed copies of this report may be sent to DON_Financial_Report@navy.mil
